APPENDIX A

Appendix 1

Case: 19-16082, 06/11/2020, ID: 11719131, DktEntry: 6, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
JUN 11 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JACOB TOWNLEY HERNANDEZ,
Petitioner-Appellant,
v.
SUZANNE M. PEERY, Warden,

No. 19-16082
D.C. No. 4:14-cv-01605-JSW
Northern District of California,
Oakland
ORDER

Respondent-Appellee.
Before:

TROTT and N.R. SMITH, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 4) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Appendix 2

APPENDIX B

Appendix 3

Case: 19-16082, 07/13/2020, ID: 11751084, DktEntry: 8, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 13 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JACOB TOWNLEY HERNANDEZ,
Petitioner-Appellant,
v.
SUZANNE M. PEERY, Warden,

No. 19-16082
D.C. No. 4:14-cv-01605-JSW
Northern District of California,
Oakland
ORDER

Respondent-Appellee.
Before:

SILVERMAN and COLLINS, Circuit Judges.

Appellant’s motion for reconsideration (Docket Entry No. 7) is denied. See
9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

Appendix 4

APPENDIX C

Appendix 5

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 1 of 38

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

JACOB TOWNLEY HERNANDEZ,
Petitioner,

8

SUZANNE M. PEERY,
Respondent.

11
United States District Court
Northern District of California

ORDER DENYING PETITION FOR A
WRIT OF HABEAS CORPUS;
DENYING CERTIFICATE OF
APPEALABILITY

v.

9
10

Case No.14-cv-01605-JSW

INTRODUCTION

12
13

Petitioner, Jacob Townley Hernandez, a prisoner of the State of California filed a pro se

14

petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254, challenging the validity of his

15

conviction and sentence in state court, which he subsequently amended. The operative petition is

16

the Second Amended Petition, which Respondent answered with a supporting memorandum and

17

exhibits. Petitioner filed a traverse. For the reasons set forth below, the petition is DENIED.
BACKGROUND

18
19
20
21
22
23
24
25
26
27
28

I.

Factual Background
The following account is taken from the California Supreme Court opinion in Townley v.

Hernandez, 3 Cal. 4th 1095, 1099-1102 (2011).
On the evening of February 17, 2006, four young men in a
white Honda sedan drove into a neighborhood associated with the
Sureño criminal street gang. The driver remained in the car, with the
engine running. The other men, each of whom was wearing clothing
suggesting an association with the Norteño criminal street gang,
approached the victim, Javier Lazaro, who was walking on the
sidewalk across the street. Lazaro was not associated with any gang,
but was wearing blue, a color linked with the Sureño criminal street
gang. One of the men shot Lazaro five times, injuring but not
killing him. The men then ran back to the car, jumped in, and sped
away.
A short time later, police located the Honda near an
Appendix 6

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 2 of 38

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

apartment known to be a gang hangout, where they found a number
of people, including Townley. Officers determined that Townley
was a possible witness and transported him to the police station.
During the trip, the transporting officer received information
Townley had been seen secreting a small gun in one of his shoes and
a small bag of bullets in the other.
The officer stopped the car and searched Townley, finding a
.25-caliber handgun in one of Townley's shoes and in the other a
velvet sack containing 20 live cartridges. Townley's hands and
jacket sleeves tested positive for gun residue. It was later determined
that bullet casings found at the scene of the shooting had been fired
from the gun.
Townley invoked his right not to speak with the authorities.
Investigators, however, took statements from three other men
thought to have been involved in the crime: Jesse Carranco, Reuben
Rocha, and Noe Flores. Each admitted some involvement, and each
reported Townley was the fourth participant. Each man,
including Townley, was charged with premeditated attempted
murder with enhancements for personal use of a firearm, discharge
of a firearm, discharge of a firearm causing injury, and infliction of
great bodily injury. (Pen.Code, §§ 187, 664, 12022.5, subd.
(a)(1), 12022.53, subds. (b), (c), (d), 12022.7, subd. (a).)
Townley successfully moved to sever his trial from that of
his codefendants. Later, during closed proceedings, Flores and
Rocha pleaded guilty to assault with a deadly weapon. (Pen.Code, §
245, subd. (a)(2).) The other charges against them were dismissed.
As part of the plea agreements, the prosecutor required each man to
execute a short declaration about the events of February 17, 2006. It
does not appear the prosecutor sought the declarations to use
against Townley or Carranco; rather, she sought to impress on each
declarant that he could be charged with perjury if he attempted to
undermine the prosecution's case against Townley or Carranco by
testifying contrary to the facts recited in his declaration. The trial
court, concerned that Flores and Rocha would be vulnerable to
retaliation if the existence or contents of their declarations were
revealed outside of the plea proceedings, ordered that the
declarations and transcripts of the plea proceedings be sealed. It
ordered, further, that they were to remain sealed unless either man
appeared as a witness in the trial of Townley or Carranco, at which
point the sealed materials relating to that man's plea were to be made
available to defense counsel and could be used by either the defense
or the prosecution for purposes of impeachment.
Townley's and Carranco's cases were then consolidated and
tried to a jury. The defense attorneys were provided with summaries
of police interviews of Rocha and Flores and a copy of Flores's taperecorded interview, but they were not given anything related to the
plea proceedings. The attorneys, who nonetheless knew of the
declarations, asked the court to revoke the order forbidding their
discovery. The court denied the request. Observing that the sealing
order had been entered in other proceedings, the court expressed
doubt it had the power to modify or revoke the order in the absence
of the declarants and their attorneys and without their consent. The
2

Appendix 7

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 3 of 38

court then ordered the attorneys not to disclose the existence or the
contents of the declarations to their clients, investigators, or any
other persons, but indicated it would revisit the matter if Rocha or
Flores testified.

1
2
3

Rocha did not appear at the trial, but Flores appeared as
witness for the prosecution and provided testimony that was
essentially consistent with, but more detailed than, the information
he had provided to police investigators. At the end of the first day of
Flores's testimony, in the jury's absence, the court ordered the
prosecution to provide copies of Flores's sealed declaration to
defense counsel “to provide for adequate cross-examination of Mr.
Flores.” But it again prohibited counsel from sharing the statements
with their clients, investigators, or other attorneys and further
ordered that the statements be used solely “for purposes of crossexamination.” Both defense attorneys used Flores's declaration to
impeach him, establishing discrepancies between it and his trial
testimony. For example, witnesses to the shooting reported that the
man who shot Lazaro wore a red-and-black plaid shirt or jacket.
Flores testified he had worn a blue or black shirt and Townley had
worn a red-and-black flannel shirt. Defense counsel brought out that
in his declaration Flores had asserted he had worn a red-and-black
Pendleton shirt.

4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12

The jury returned a verdict finding Townley guilty of
attempted premeditated murder. It also found true the enhancement
allegations of personal use of a firearm and infliction of great bodily
injury.

13
14
15
16

II.

Procedural Background
On August 24, 2007, the trial court sentenced Petitioner to a term of life in prison for

17

attempted premeditated murder and a consecutive term of 25 years to life for personal use of a

18

firearm causing great bodily injury. On July 23, 2009, the California Court of Appeal affirmed the

19

trial court's decision, but on August 14, 2009, upon rehearing, reversed the judgment. The

20

California Supreme Court granted the State’s petition for review, and on May 19, 2012, reversed

21

and remanded the case to the California Court of Appeal for further decision. Petitioner’s petition

22

for a writ of certiorari to the United States Supreme Court was denied on October 15, 2012. On

23

remand, the California Court of Appeal affirmed the judgment on July 29, 2013. On November

24

13, 2013, the California Supreme Court denied the petition for review summarily. Petitioner’s

25

habeas petitions to the California Court of Appeal and the California Supreme Court were denied

26

in 2013.

27
28

After Petitioner filed the instant federal habeas petition, the case was stayed to allow him
to exhaust an additional claim in the state courts. On January 21, 2015, the California Supreme
3

Appendix 8

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 4 of 38

1

Court denied another habeas petition, and on May 4, 2015, the United States Supreme Court

2

denied a petition for a writ of certiorari. The stay of this matter was subsequently lifted, and

3

Petitioner filed the second amended petition.

4
5

United States District Court
Northern District of California

6

STANDARD OF REVIEW
A district court may not grant a petition challenging a state conviction or sentence on the

7

basis of a claim that was reviewed on the merits in state court unless the state court’s adjudication

8

of the claim: “(1) resulted in a decision that was contrary to, or involved an unreasonable

9

application of, clearly established Federal law, as determined by the Supreme Court of the United

10

States; or (2) resulted in a decision that was based on an unreasonable determination of the facts in

11

light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254 (d). The first

12

prong applies to both questions of law and to mixed questions of law and fact, Williams (Terry) v.

13

Taylor, 529 U.S. 362, 407-09 (2000), while the second prong applies to decisions based on factual

14

determinations. Miller-El v. Cockrell, 537 U.S. 322, 340 (2003).

15

A state court decision is “contrary to” Supreme Court authority, that is, falls under the first

16

clause of § 2254 (d)(1), only if “the state court arrives at a conclusion opposite to that reached by

17

[the Supreme] Court on a question of law or if the state court decides a case differently that [the

18

Supreme] Court has on a set of materially indistinguishable facts.” Williams (Terry), 529 U.S. at

19

412-13. A state court decision is an “unreasonable application of” Supreme Court authority,

20

falling under the second clause of § 2254 (d)(1), if it correctly identifies the governing legal

21

principle from the Supreme Court’s decisions, but “unreasonably applies that principle to the facts

22

of the prisoner’s case.” Id. at 413. The federal court on habeas review may not issue the writ

23

“simply because the court concludes in its independent judgment that the relevant state-court

24

decision applied clearly established federal law erroneously or incorrectly.” Id. at 411. Rather,

25

the application must be “objectively unreasonable” to support granting the writ. Id. at 409.

26

Under 28 U.S.C. § 2254 (d)(2), a state court decision “based on a factual determination

27

will not be overturned on factual grounds unless objectively unreasonable in the light of the

28

evidence presented in the state-court proceeding.” Miller-El, 537 U.S. 332 at 340; see also Torres
4

Appendix 9

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 5 of 38

1

v. Prunty, 223 F.3d 1103, 1107 (9th Cir. 2000).
The state-court decision to which 2254(d) applies is the “last reasoned decision” of the

United States District Court
Northern District of California

2
3

state court. See Ylst v. Nunnemaker, 501 U.S. 797, 803-04 (1991). In this case, the last reasoned

4

decision of the state court on Petitioner’s claim of structural error was the decision by the

5

California Supreme Court on direct appeal reversing and remanding the case to the California

6

Court of Appeal, dated May 19, 2012. (Exh. R.)1 The final state court decision on Petitioner’s

7

other claims relating to the trial court’s order sealing documents and limiting discussion of those

8

documents, as well as his claims under the Confrontation Clause, of prosecutorial misconduct, and

9

of improper comments by the trial court during jury deliberations was the summary decision by

10

the California Supreme Court on November 13, 2013, denying Petitioner’s petition for review.

11

(Exh. FF.). Because that was a summary decision, this Court looks to the last state court decision

12

to deny such claims in an explained opinion, see Ylst, 501 U.S. at 801-06, which was the

13

California Court of Appeal’s affirmance following remand on July 29, 2013. (Exh. DD.) The last

14

explained decision on Petitioner’s claim of instructional error was the opinion of the California

15

Court of Appeal following rehearing, dated August 14, 2009. (Exh. H.)
No state court issued an explained decision on Petitioner’s final claim --- that trial counsel

16
17

was ineffective insofar as counsel’s failure to make an objection at trial waived review of any of

18

Petitioner’s other claims. The last state court decision to deny the claim in a “reasoned” decision

19

was the California Supreme Court’s summary denial of Petitioner’s habeas petition on January 21,

20

2015.2 (Exh. RR). Under these circumstances --- where the state court gives no explanation of its

21

decision on a petitioner's federal claim and there is no lower court decision on the claim --- a

22

federal court should conduct “an independent review of the record” to determine whether the state

23

court’s decision was an objectively unreasonable application of clearly established federal law.

24

See Plascencia v. Alameida, 467 F.3d 1190, 1197-98 (9th Cir. 2006). In conducting this review,

25
26
27
28

Unless otherwise specified, “Exh” refers to the exhibits filed by Respondent in support of his
answer.
2
That decision is presumptively a denial of the claim on its merits because the Supreme Court did
not cite any procedural rule. As the decision is on the merits, this Court considers the decision to
be “reasoned” though unexplained.
5
Appendix 10
1

United States District Court
Northern District of California

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 6 of 38

1

the ultimate question is still whether the state court applied federal law in an objectively

2

reasonable manner. Kyzar v. Ryan, 780 F.3d 940, 949 (9th Cir. 2015). Accordingly, for purposes

3

of AEDPA, this Court decides Petitioner’s final claim of ineffective assistance of counsel by

4

reviewing the summary denial of the claim by the California Supreme Court on July 21, 2015.

5

DISCUSSION

6

Petitioner presents the following claims: (1) the trial court’s decision to prohibit trial

7

counsel from consulting with Petitioner about sealed declarations and plea transcripts by two co-

8

defendants constituted structural error or, alternatively, was a prejudicial violation of Petitioner’s

9

constitutional rights; (2) the same order violated Petitioners constitutional right to an investigator;

10

(3) the trial court’s limitations on cross-examination violated Petitioner’s right under the Sixth

11

Amendment; (4) the prosecutor committed misconduct in violation of Petitioner’s right to due

12

process; (5) comments by the trial court violated Petitioner’s constitutional rights to confront

13

adverse witnesses, to present a defense, and to a jury; (6) jury instructions on general intent

14

violated Petitioner’s right to due process; and (7) trial counsel’s failure to make objections

15

violated Petitioner’s Sixth Amendment right to the effective assistance of counsel to the extent

16

such failures waived Petitioner’s right to review of any of his claims on its merits.

17

I.

18

Order Sealing Documents and Limiting Defense Counsel’s Discussion
Petitioner claims that the trial court’s order sealing the pretrial declarations and change of

19

plea transcripts of co-defendants Flores and Rocha and prohibiting defense counsel from

20

discussing them with Petitioner or others violated his constitutional rights. On appeal to the

21

California Supreme Court (and here) the State of California conceded error, but the court found

22

that the error was not structural and remanded to the California Court of Appeal to determine

23

whether the error was harmless; the Court of Appeal found the error harmless.

24

a.

Background

25

Prior to trial, Flores and Rocha --- who were originally two of the four co-defendants ---

26

pled guilty to lesser charges and provided the prosecution with declarations implicating Petitioner

27

and the other remaining co-defendant Carranco. While in jail and prior to pleading guilty, Flores

28

was stabbed multiple times. To protect him and Rocha from further attack, the trial court sealed
6

Appendix 11

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 7 of 38

1

their declarations and closed their guilty plea proceedings. The court did allow defense counsel to

2

inspect the declarations but not to obtain a written copy of them, and defense counsel was ordered

3

not to discuss them with Petitioner or anyone else. If either witness testified, however, his

4

declaration would be unsealed and available for cross-examination by defense counsel.

5
6

provided a copy of it. The trial court again ordered defense counsel not to discuss the declaration

7

with Petitioner or anyone else, but defense counsel was permitted to reference and use the

8

declaration during cross-examination of Flores. Petitioner was present in court during that cross-

9

examination. The declarations and plea transcripts of Flores and Rocha remained under seal

10
11
United States District Court
Northern District of California

Defense counsel reviewed the declarations before trial, and when Flores testified, he was

throughout the remainder of trial.
After the California Supreme Court’s decision on direct appeal to remand the case to the

12

California Court of Appeal, the prosecutor moved the trial court to unseal the records. The motion

13

was granted and the declarations and transcripts were unsealed. On remand, Petitioner moved the

14

Court of Appeal to vacate the trail court’s order prohibiting defense counsel from discussing the

15

formerly sealed documents with Petitioner or others. The State argued the motion should be

16

denied as unnecessary because when the documents were unsealed they became available to

17

anyone and no limits were imposed upon who could view them or discuss them. The Court of

18

Appeal denied the motion. In the instant matter, this Court granted Petitioner’s motion for

19

Respondent to send him a copy of the declarations as those declarations had already been unsealed

20

by the state court.

21

b.

22

Petitioner argues that order to seal the records and prohibit their discussion by defense

Structural Error

23

counsel violated his Sixth Amendment right to counsel structurally, i.e. required no showing of

24

prejudice. Structural error is a "defect affecting the framework within which the trial proceeds,

25

rather than simply an error in the trial process itself." Arizona v. Fulminante, 499 U.S. 279, 310

26

(1991). “[M]ost constitutional errors can be harmless." Id. at 306-07. Only in those limited cases

27

where the constitutional deprivation affects "the framework within which the trial proceeds," is the

28

integrity of trial process so compromised that the "criminal trial cannot reliably serve its function
7

Appendix 12

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 8 of 38

1

as a vehicle for determination of guilt or innocence." Id. at 310. These cases are rare and require

2

automatic reversal, Washington v. Recuenco, 548 U.S. 212, 218 (2006); Brecht v. Abrahamson,

3

507 U.S. 619, 629-30 (1993), whether on direct or habeas review, Powell v. Galaza, 328 F.3d 558,

4

566 (9th Cir. 2003).

United States District Court
Northern District of California

5

Petitioner argues that the California Supreme Court’s holding that trial court’s order was

6

not structural error --- and prejudice had to be shown --- was contrary to or an unreasonable

7

application of federal law within the meaning of 28 U.S.C. § 2254(d)(1). For that to be the case,

8

the federal law violated by the state supreme court must be “clearly established federal law, as

9

determined by the Supreme Court of the United States.” See id. This phrase refers to “the

10

holdings, as opposed to the dicta, of [the Supreme] Court’s decisions as of the time of the relevant

11

state-court decision.” Williams, 529 U.S. at 412. “If Supreme Court cases ‘give no clear answer

12

to the question presented,’ the state court’s decision cannot be an unreasonable application of

13

clearly established federal law.” Ponce v. Felker, 606 F.3d 596, 604 (9th Cir. 2010) (quoting

14

Wright v. Van Patten, 552 U.S. 120, 126 (2008)).

15

The list of Supreme Court cases in which structural error analysis has been found to apply

16

is short, see Campbell v. Rice, 408 F.3d 1166, 1172 (9th Cir. 2005), and does not include the error

17

caused by the trial court’s order. A complete denial of access to counsel violates a defendant's

18

Sixth Amendment right and is not subject to a showing of prejudice. See Perry v. Leeke, 488 U.S.

19

272, 278-80 (1989); see Geders v. United States, 425 U.S. 80 (1976) (trial court’s bar on all

20

attorney client communication during an overnight recess between direct and cross examination

21

was structural error violating the Sixth Amendment right to counsel). However, when the denial

22

of access is limited, as where a defendant was denied all communication with his counsel but only

23

during a 15-minute recess in the defendant's testimony, the Court found no structural violation of

24

the right to counsel. See Perry v. Leeke, 488 U.S. at 281, 284-85. A limited prohibition on

25

attorney-client communication was imposed here, not a complete one, insofar as only a small

26

number of discrete documents were off-limits for discussion between Petitioner and his attorney.

27

There was no restriction on their meeting, unlike in Geders, or on discussing defense strategy or

28

investigating these witnesses. In addition, defense counsel and Petitioner could discuss the police
8

Appendix 13

United States District Court
Northern District of California

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 9 of 38

1

reports investigating Flores and Rocha, which included their statements to the police that had

2

many similarities to the declarations they provided. The defense knew that Flores and Rocha had

3

been co-defendants, and the trial court’s order did not prohibit Petitioner and defense counsel from

4

investigating them or discussing what Petitioner and other witnesses knew about Flores and

5

Rocha. They could also discuss the cross-examination of Flores, including the aspects of the

6

declaration that counsel referenced during that cross-examination. The Supreme Court has never

7

held that a limited restriction (as opposed to a complete denial of all communication between

8

them) on the matters that defense counsel could discuss with his client amounts to structural error.

9

The state courts, therefore, did not contravene or unreasonably apply clearly established federal

10

law in holding that the prohibition on discussion of a discrete and limited set of documents in

11

finding no structural error.

12

Petitioner argues that prejudice should be presumed because the trial court’s order caused

13

counsel to have an actual conflict of interest insofar as it forced him to represent Flores and Rocha,

14

as well as Petitioner. The United States Supreme Court has found structural error where defense

15

counsel has an actual conflict of interest arising from representing more than one co-defendant.

16

Holloway v. Arkansas, 435 U.S. 475, 478-80 (1975); cf. Mickens v. Taylor, 535 U.S. 162, 168-72

17

(2002) (no presumption of prejudice where defense counsel previously represented murder

18

victim). Here, however, Petitioner’s counsel did not represent Flores or Rocha. They had their

19

own attorneys. Petitioner’s counsel also did not advocate for Flores or Rocha, and he in fact he

20

opposed Flores when he cross-examined him. Petitioner also cites Brooks v. Tennessee, 406 U.S.

21

605, 612 (1972), in which the Supreme Court found structural error in a state law requiring the

22

defendant to testify first or not at all because it deprived the defendant the opportunity to consult

23

with counsel about that “critical” decision. Petitioner was free to discuss his decision whether to

24

testify. He argues that the sealed declarations and transcripts impacted his decision to testify, but

25

many if not all decisions by the trial court impact the defendant’s decision whether to testify.

26

Supreme Court jurisprudence does not provide that every error by the trial court is presumptively

27

prejudicial simply because it had an impact on the defendant’s decision whether to testify. The

28

amount of such impact is properly gauged in a prejudice analysis. Petitioner’s arguments that
9

Appendix 14

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 10 of 38

1

there was structural error are without merit.

2

c.

3

Petitioner contends that even if the trial court’s order was not structural error, the error

4

caused him sufficient prejudice to deprive him of his right to the effective assistance of counsel.

5

The prejudice standard for ineffective assistance of counsel claims is well established. Petitioner

6

must show that there is a reasonable probability that the outcome of the trial would have been

7

different --- in this case, that he would not have been convicted of premeditated murder and

8

related gun offense --- if the deficiency in counsel’s representation had not occurred. See

9

Strickland v. Washington, 466 U.S. 668, 686 (1984). The California Court of Appeal rejected this

10

claim under the Strickland standard, as follows:
Townley emphasizes that Flores was a “key” prosecution
witness and the prosecutor's depiction of the declaration as
“essential to proving her case”; the latter fact, he argues, was
“essentially a concession of prejudice under the Strickland standard.
Townley suggests that although there was “some circumstantial
evidence” that he was the shooter, the eyewitness testimony
excluded him: The shooter was described as a dark-complected
Hispanic male who was speaking in Spanish, whereas Townley was
described as a “white guy” who did not speak Spanish. These
inconsistencies, however, were brought to light at trial. Townley has
not shown how defense counsel's inability to discuss Flores's
declaration with him impaired counsel's ability to expose and
underscore the weak points in the prosecution's case.

11
United States District Court
Northern District of California

Prejudice

12
13
14
15
16
17
18

The length of the jury's deliberations (three days) is also not
a persuasive factor here; this was a complex case involving a serious
crime involving multiple perpetrators, with multiple witnesses
offering inconsistent testimony at trial. (Cf. In re Sassounian (1995)
9 Cal.4th 535, 549, fn 10 [closeness of case not determined by jury's
time spent deliberating, given complexity of evidence and law,
youth of petitioner, and other circumstances]; People v.
Cooper (1991) 53 Cal.3d 771, 837 [seven-day deliberations
indicates conscientious jury but not necessarily close case
considering three-month duration of trial and complexity of issues];
see also People v. Houston (2005) 130 Cal.App.4th 279, 301[fourday deliberation speaks to jury's diligence, not closeness of case,
where trial was extensive, with lengthy arguments, more than three
dozen witnesses, and a “mass of information” to digest].)

19
20
21
22
23
24
25

Townley accords additional weight to the inconsistency
between Flores's declaration—in which he stated that he wore a red
and black Pendleton during the shooting3—and his trial testimony,

26
27
28

3

The parties agreed that the shooter wore People’s Exhibit 23, a red and black plaid shirt or jacket.
10
Appendix 15

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 11 of 38

in which he stated that Townley had been wearing the Pendleton.
But Flores was cross-examined on this discrepancy, including the
statement in the declaration that he had been wearing a “red and
black Pendleton shirt” on the night of the shooting.4

1
2
3

Townley further points to one witness's testimony that the
shooter appeared to be drunk, as he exhibited a “staggered
gait.” Townley's argument is that if he had been permitted “to
discuss Flores's proposed testimony which would not exonerate
Appellant (as the prosecutor ... feared he would without the
declaration), counsel and Appellant could have developed an
intoxication defense that could have negated premeditation, intent to
kill and intent to discharge a firearm.” Again there is nothing in the
record indicating that counsel could not have developed this defense
without the aid of Flores's declaration. It was Jeanne Taylor, an
eyewitness, who contributed the observation of the apparent
shooter's intoxication.

4
5
6
7
8
9

This case would be amenable to reversal for ineffective
assistance of counsel if we could conclude that Townley would have
been able to make a material contribution to his defense had his
attorney been allowed to discuss Flores's declaration with him. We
can find nothing in this appellate record, however, that permits such
an inference beyond bare speculation. Townley's attorney, having
examined the declaration and plea transcript, was already aware of
the discrepancies between the witness's declaration and his direct
testimony—discrepancies that included the important inconsistency
regarding who wore the Pendleton—and Flores was cross-examined
accordingly to bring out these contradictions before the jury. As the
Supreme Court itself noted, “The primary value of the sealed
materials to Townley was their usefulness as tools of impeachment
during cross-examination, either to highlight discrepancies between
the facts Flores recited in his declaration and his testimony at trial,
or to support the argument Flores had fashioned a declaration
favorable to himself and must have then felt compelled to testify in
accordance with that declaration. Counsel's inability to consult
with Townley about the materials would not have hampered his
ability to make either point.” (Hernandez, [] 53 Cal.4th at p. 1107.)
The court further commented on Townley's point that there were 22
details in the declaration that were not contained in the police
reports: “But the very ease with which these details may be
identified works against his argument that it would be difficult to
assess the prejudicial effect of the trial court's order.” (Ibid., fn.
5.) Townley fails to show what insight he would have provided to
the defense that would have illuminated or enhanced the crossexamination of Flores. Townley has overcome the “high bar” of the
prejudice analysis here.

10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24

People v. Hernandez, 2013 WL 3939441, *7-8 (Cal. Ct. App. July 29, 2013).
25

This was a reasonable application of federal law. The trial court’s order did not prevent

26
27
28

Flores’s declaration has been unsealed, pursuant to the superior court’s order on December 11,
2012.
11
Appendix 16
4

United States District Court
Northern District of California

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 12 of 38

1

Petitioner and his counsel from challenging or discussing the discrepancy between Flores’s

2

declaration and testimony about who was wearing the black and red shirt. This discrepancy was

3

fully brought out at trial, in Petitioner’s presence. Moreover, as the state court indicated, the

4

impeachment value of the Flores’s sealed declaration was not diminished by the trial court’s order.

5

Defense counsel was allowed to use it to impeach Flores, and if and when Flores testified to

6

something that only Petitioner knew to be false, Petitioner could have alerted his attorney to that

7

effect. The order also did not prevent the defense from investigating Flores, Rocha or other

8

witnesses. Their identities were known to Petitioner and defense counsel from the police reports,

9

charging documents, and other unsealed court filings. The trial court order did not restrict

10

investigation or discussion of the facts of the case, even if they were discussed in the declarations.

11

In addition, the Court of Appeal reasonably attributed the length of jury deliberations (three days)

12

to the number and complexity of different charges and multiple defendants.
In support of his subsequent habeas petition to the California Supreme Court, Petitioner

13
14

included declarations by himself, as well as by a witness who had been in the car prior to the

15

shooting. This witness did not see Petitioner with a gun in the car before the shooting and said

16

that one of the men in the front seat took the red and black shirt from Petitioner when she got out

17

of the car. Nothing in the trial court order prevented the defense from presenting these facts at

18

trial. Petitioner knew this witness’s identity and that (s)he had been in the car,5 and he could have

19

alerted defense counsel to investigate whatever pertinent information (s)he had about the shirt, the

20

gun, or any other aspect of the crimes. In addition, this witness testified after Flores, allowing

21

defense counsel to explore anything useful s/he knew that would counter Flores’s testimony.
In his own declaration, Petitioner asserts that he did not understand everything about his

22
23

trial and did not testify in his own defense because he did not see or discuss the sealed declarations

24

and transcripts. Petitioner had access to the police reports, was present during the examination

25

and cross-examination of Flores, and was in the car on the night of the shooting. There was no

26

evidence presented to the jury that he did not know about. He does not identify any information in

27
28

Petitioner refers to this witness’s gender, Respondent does not. Out of an abundance of caution,
the Court does not.
12
Appendix 17
5

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 13 of 38

1

the sealed documents that he did not otherwise know about and that would have improved his

2

understanding of the trial, let alone how such an improved understanding would have a reasonable

3

probability to change the outcome. As for his decision whether to testify, after hearing Flores’s

4

testimony, he certainly knew of any disagreements he had with the accuracy of his account. He

5

does not point to other specific facts in the sealed declaration that would have changed his mind

6

about testifying, nor are any such facts apparent from the record.

United States District Court
Northern District of California

7

Petitioner argues that the trial court’s order was prejudicial because it interfered with his

8

presenting an intoxication defense. The declarations indicated that Rocha and Carranco had been

9

smoking marijuana and drinking before the shooting. One of the witnesses described the shooter

10

as appearing to move in a drunken manner. Petitioner argues that the declarations could have

11

helped him develop a defense that Rocha or Carranco were the shooter because they were drunk,

12

or a defense that even if he was the shooter he was too intoxicated to have premeditated.

13

Petitioner could have developed these defenses without the declarations. He was with Rocha and

14

Carranco prior to the shooting and could have told defense counsel about their intoxication, and

15

then defense counsel could have investigated them. It is not clear that this would have been

16

persuasive, as the other witnesses did not describe described the shooter as drunk, but the trial

17

court’s order did not prevent defense counsel from investigating or discussing the facts of the case,

18

including the intoxication of the others in the car. Additionally, the witness testimony that the

19

shooter appeared drunk was always available to him to develop into an intoxication defense; the

20

trouble with doing so was that there was no other evidence of Petitioner’s intoxication that night.

21

As a result, advancing a defense that Petitioner was intoxicated would have been ineffectual, but it

22

was not impeded by the trial court’s order.

23

Petitioner presents three new declarations with the instant petition --- from the same

24

witness who submitted declarations with his state habeas petition, from himself, and from his

25

mother --- which he contends establish prejudice from the trial court’s order. Respondent argues

26

that these declarations are not exhausted, but the Court need not address exhaustion because the

27

new declarations do not establish prejudice or the right to federal habeas relief. The new

28

declarations assert that the sealed declarations by Flores and Rocha contained false statements,
13

Appendix 18

United States District Court
Northern District of California

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 14 of 38

1

omissions, and inconsistencies. This is irrelevant. As the sealed declarations were not admitted

2

into evidence, it is not relevant to Petitioner’s trial whether or not they were accurate. Some

3

portion of Flores’s trial testimony was consistent with his sealed declaration, but defense counsel

4

had the opportunity to cross-examine him about that. If Petitioner knew that Flores’s testimony

5

was false, he could have shared that with defense counsel for cross-examination. The trial court’s

6

order did not deprive the defense of accessing whatever pertinent knowledge that Petitioner’s

7

mother and the other witness had; the defense knew about these two witnesses and were never

8

prohibited from investigating and interviewing them. In addition, any inconsistencies between

9

Flores’s and Rocha’s sealed declarations were available to defense counsel when he inspected

10

them, and nothing in the trial court order prevented defense counsel from calling Rocha to testify

11

if those inconsistencies were useful to Petitioner.

12

Petitioner argues that the trial court’s order prevented him from using a gang expert to

13

develop theories that Rocha or Flores may have been the shooter based upon the evidence that

14

Rocha was intoxicated and that Flores wore the red and black shirt. As discussed above, this

15

evidence was already discoverable by the defense without the need of the sealed declarations, and

16

nothing in the trial court’s order prevented defense counsel from using a gang expert to develop

17

these theories. The new declarations provided by Petitioner do not identify what information or

18

advantage the defense would have gained that they could not have otherwise obtained through

19

other channels. As a result, the trail court’s order sealing the declarations and plea transcripts of

20

Rocha and Flores, and prohibiting discussion about them, did not prejudice Petitioner.

21

Petitioner also contends that the trial court’s order violated his right to due process because

22

appellate counsel was also prohibited from discussing the declarations with Petitioner. This

23

argument is meritless. The documents were unsealed by the trial court following remand and

24

therefore available to anyone, including Petitioner and his appellate counsel, to obtain and discuss.

25

The appellate court’s denial of Petitioner’s subsequent motion to lift the gag order does not change

26

this conclusion. Lifting the gag order was unnecessary at that point as the documents were already

27

unsealed and therefore could be disseminated and discussed.

28

Petitioner argues that the denial of his motion to discover prior drafts of the sealed
14

Appendix 19

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 15 of 38

1

declarations violates his right to due process by preventing him from being able to establish

2

prejudice. The prior drafts were irrelevant, however, because Flores and Rocha did not draft or

3

sign it, or otherwise adopt them. He also argues that the denial of his request to consider prior

4

state bar discipline against his trial counsel prevented him from showing that counsel’s

5

probationary status would have made him careful not to violate the trial court’s order. There is no

6

indication of any instance in which trial counsel failed to act because of his probationary status.

7

Moreover, there is no indication that trial counsel acted any differently than a lawyer who was not

8

on probation.

United States District Court
Northern District of California

9

Petitioner asks for an evidentiary hearing at which he can demonstrate that the trial court’s

10

order prejudiced him or interfered with his attempt to establish prejudice. There is no need to

11

resolve any factual issues. Petitioner has not shown that the facts he purports to show --- the new

12

declarations presented here, the prior drafts of the sealed declarations, trial counsel’s bar discipline

13

--- would, if true, establish prejudice from the trial court’s order. Accordingly, there is no need for

14

an evidentiary hearing. The state courts reasonably applied clearly established federal law in

15

concluding that the trial court’s order was not prejudicial.

16

d.

Ineffective Assistance of Appellate Counsel

17

Petitioner claims that he received ineffective assistance of appellate counsel because his

18

appellate attorney did not share or discuss the sealed declarations with him. Claims of ineffective

19

assistance of appellate counsel are reviewed according to the standard set out in Strickland. Smith

20

v. Robbins, 528 U.S. 259, 285 (2000). This includes requiring a showing that there is a reasonable

21

probability that, but for appellate counsel’s error, the petitioner would have prevailed in his

22

appeal. Id. at 285-86. For the same reasons discussed above that Petitioner was not prejudiced at

23

trial by not being able to see the sealed declarations and transcripts or discuss them with trial

24

counsel, there is not a reasonable probability that if appellate counsel had shown or discussed

25

them with Petitioner, the outcome of the appeal would have been different. The state courts

26

reasonably applied federal law in rejecting this claim.

27

e.

Investigator

28

Petitioner claims that he was deprived of his Sixth Amendment rights because the trial
15

Appendix 20

United States District Court
Northern District of California

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 16 of 38

1

court prohibited defense counsel from discussing the sealed declarations and transcripts with an

2

investigator. As discussed above, Petitioner has not shown anything in the sealed documents that

3

could not have been readily discovered through other channels already known to the defense. The

4

defense knew about and had access to Petitioner, Flores, Rocha, the other witness who submitted

5

declarations in support of Petitioner’s habeas petitions, and others who who witnessed what

6

happened on the night of the shooting. The trial court’s order did not prevent Petitioner or defense

7

counsel from discussing these avenues of investigation with an investigator, only that counsel not

8

tell an investigator of the existence of the sealed documents or what they said. Because the order

9

did not prohibit investigation into the facts of the case, and all facts in the sealed documents were

10

otherwise accessible to the defense, Petitioner has not shown that he was deprived of his Sixth

11

Amendment right to an investigator.

12

2.

13

Confrontation Clause
Petitioner claims that his Sixth Amendment rights under the Confrontation Clause were

14

violated by the trial court’s limitations on the cross-examination of Flores by the attorney for his

15

co-defendant Carranco. The trial court sustained the prosecution’s objections to counsel’s cross-

16

examining Flores about: (1) omitting from his declaration their stop at an apartment twice on the

17

night of the shooting and that Carranco directed Flores to drive back to the apartment after the

18

shooting, (2) Flores’s possible use of methamphetamine on the night of the shooting, and (3) prior

19

drafts of the declaration and the title of the declaration indicating that Flores was not charged with

20

a crime. Petitioner’s counsel opposed admission of Flores’s declaration and indicated that he did

21

not wish to pursue the line of questioning by Carranco’s attorney.

22

The California Court of Appeal rejected this claim because the trial court did not limit

23

Petitioner’s own cross-examination of Flores, only that of co-defendant’s. This Court is aware of

24

no Supreme Court precedent, and Respondent cites none, providing that a defendant’s Sixth

25

Amendment rights are violated by limits upon a co-defendant’s cross-examination of a witness,

26

particularly where, as here, the defendant’s own attorney was allowed to complete his cross-

27

examination and showed either disinterest in or express disavowal of the disallowed portions of

28

his co-defendant’s cross-examination. Cf. generally Fenenbock v. Director of Corrections, 692
16

Appendix 21

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 17 of 38

1

F.3d 910, 919 (9th Cir. 2012) (generally speaking, a court violates the Confrontation Clause only

2

when it prevents a defendant from examining a particular and relevant topic). Consequently, there

3

is no “clearly established” federal law, as that term is used in Section 2254(d)(1) for purposes of

4

federal habeas relief, violated by the trial court’s limitations upon the cross-examination by the

5

attorney for Petitioner’s co-defendant.
Petitioner argues that his counsel did not seek cross-examination on the disallowed topics

6
7

because the trial court’s order granting an in limine motion forbade him to do so. The in limine

8

motion concerned Flores’s declaration and plea negotiations, not the above areas of Carranco’s

9

cross-examination about which the trial court sustained the prosecutor’s objections.
The state court opinion did not unreasonably apply or run contrary to “clearly established”

United States District Court
Northern District of California

10
11

federal law within the meaning of Section 2254(d)(1). Therefore, Petitioner cannot receive federal

12

habeas relief on this claim.

13

3.

Prosecutorial Misconduct

14

Petitioner claims that the prosecutor committed misconduct in various respects. This claim

15

was rejected by the California Court of Appeal on procedural and substantive grounds. The Court

16

does not address the procedural grounds because the claim does not warrant federal habeas relief

17

on its substantive grounds.
A defendant's due process rights are violated when a prosecutor's misconduct renders a

18
19

trial "fundamentally unfair." Darden v. Wainwright, 477 U.S. 168, 181 (1986). The first issue is

20

whether the prosecutor’s remarks were improper; if so, the next question is whether such conduct

21

infected the trial with unfairness. Tan v. Runnels, 413 F.3d 1101, 1112 (9th Cir. 2005). A

22

prosecutorial misconduct claim is decided “‘on the merits, examining the entire proceedings to

23

determine whether the prosecutor's remarks so infected the trial with unfairness as to make the

24

resulting conviction a denial of due process.’” Johnson v. Sublett, 63 F.3d 926, 929 (9th Cir.

25

1995).

26

When a curative instruction is issued, a court presumes that the jury has disregarded

27

inadmissible evidence and that no due process violation occurred. Greer v. Miller, 483 U.S. 756,

28

766 n.8 (1987). This presumption may be overcome if there is an "overwhelming probability" that
17

Appendix 22

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 18 of 38

1

the jury would be unable to disregard evidence and a strong likelihood that the effect of the

2

misconduct would be "devastating" to the defendant. Id. Other factors which a court may take

3

into account in determining whether misconduct rises to a level of due process violation are: (1)

4

the weight of evidence of guilt, see United States v. Young, 470 U.S. 1, 19 (1985); (2) whether the

5

misconduct was isolated or part of an ongoing pattern, see Lincoln v. Sunn, 807 F.2d 805, 809 (9th

6

Cir. 1987); (3) whether the misconduct relates to a critical part of the case, see Giglio v. United

7

States, 405 U.S. 150, 154 (1972); and (4) whether a prosecutor's comment misstates or

8

manipulates the evidence, see Darden, 477 U.S. at 182.

9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

a. Comments on Witness Credibility
The California Court of Appeal summarized the facts as follows:
In examining Sarah Oreb, the prosecutor attempted to bring
out the inconsistencies between her trial testimony and her prior
statements to the police. After an initial hearsay objection (without a
ruling) Oreb was permitted to describe the officers' tactics in trying
to persuade her to admit that she had heard Townley say he had “hit
a scrap.” The defense did not object as Oreb continued with this
testimony and denied that Sergeant Fish had accurately reported her
voluntary statement to him. However, at one point the prosecutor,
having repeatedly attempted to elicit Oreb's admission that she had
heard the “hit a scrap” statement, said, “I suppose you wouldn't be
surprised to hear I don't believe [you]. Which is why I am
continuing to ask the question.” Townley's counsel immediately
objected. The objection was sustained, and the court admonished the
jury to disregard the remark. The prosecutor then asked Oreb, “If
there's a recording of your interview with both Deputy Pintabona,
and a subsequent interview with Detective Henry Montes, they
edited those recordings?” Counsel's objection to this argumentative
question was also sustained.
Further into her testimony, Oreb was insisting that she had
lied every time she said she had heard the “hit a scrap” statement.
She maintained that it was not acceptable to lie, which was why she
was then telling the truth. The prosecutor asked, “Okay. So recently,
within the last two weeks, you decided that you shouldn't lie? [¶]
[Oreb]: No, not within the last two weeks. [¶] [The prosecutor]:
When did you decide you weren't going to lie? ... [¶] [Oreb]: I don't
know. [¶] [The prosecutor]: When did it become important to you
not to lie? [¶] [Oreb]: It's always been important to me not to lie. [¶]
[The prosecutor]: Apparently it wasn't so important each time you
talked to somebody in law enforcement?” Again both defense
attorneys objected to the question as argumentative, but this time the
court overruled the objection. However, just before playing the
recording of the first interview, the prosecutor asked why Oreb had
lied about hearing a knock at Gonzalez's apartment window. Oreb
recounted how she had merely told the interviewer what he wanted
18

Appendix 23

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 19 of 38

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14

to hear. The prosecutor asked, “Did it occur to you that he didn't
believe you?” Defense objections were sustained as argumentative
and calling for speculation.
Oreb also testified that she used Townley's name and the
words about hitting a scrap because that was what she had heard
from others. Defense objections were raised on hearsay grounds.
The trial court overruled one objection on the ground that it went to
credibility. When defense counsel affirmed that the questioning was
relevant to credibility only and not for the truth, the court explained
to the jurors that as to these questions about the source of Oreb's
information, they could use Oreb's testimony not for the truth of
what other people said but only to determine whether Oreb was
telling the truth about her recollection.
Anthony Gonzalez also recanted the statement he had made
about the shooting in police interviews. Like Oreb, he said he did
not remember what had happened that night and had simply told the
police what they wanted to hear because they had arrested him.
Gonzalez said he kept telling the detectives what he knew and they
kept telling him it wasn't true. Later, the prosecutor asked Detective
Ramsey about a subsequent interview with Gonzalez. Ramsey
testified that the purpose of the second interview was to “see if he'd
be a little bit more up front and cooperative” with the officers. The
prosecutor then asked, “And did you find that he was a little bit
more forthcoming?” Townley's attorney objected to the question as
irrelevant, and the objection was sustained.
Hernandez, 2013 WL 3939441 at **9-10.

15
The California Court of Appeal denied this claim based upon the following analysis:
16
17
18
19
20
21
22
23
24
25
26
27
28

“The standards governing review of misconduct claims are
settled. A prosecutor commits misconduct under the federal
Constitution when his or her conduct infects the trial with such ‘
“unfairness as to make the resulting conviction a denial of due
process.” ’ [Citations.] Under state law, a prosecutor who uses
deceptive or reprehensible methods to persuade the jury commits
misconduct even when those actions do not result in a
fundamentally unfair trial.” (People v. Hawthorne (2009) 46 Cal.4th
67, 90, citing People v. Frye, supra, 18 Cal.4th at p. 969.)
“ ‘[A] prosecutor is prohibited from vouching for the
credibility of witnesses or otherwise bolstering the veracity of their
testimony by referring to evidence outside the record.... However, so
long as a prosecutor's assurances regarding the apparent honesty or
reliability of prosecution witnesses are based on the “facts of [the]
record and the inferences reasonably drawn therefrom, rather than
any purported personal knowledge or belief,” [her] comments
cannot be characterized as improper vouching. [Citations.]’
[Citation.]” (People v. Ward(2005) 36 Cal.4th 186, 215.)
…
Townley contends that “clear misconduct” occurred when
the prosecutor commented on Oreb's lack of credibility. The court
19

Appendix 24

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 20 of 38

sustained the objection to that remark, however, and admonished the
jury accordingly, thus averting any prejudice. The reference to the
police impressions during opening statement and the questioning
about Oreb's lies likewise created no reversible misconduct. The
court properly ruled that the opening statement did not violate the in
limine order; and the court sustained defense counsel's objections to
argumentative questioning of Oreb with only one exception. That
exception could not have had a significant impact on the jurors'
perceptions of the case, as it only emphasized what they already
knew, that Oreb had lied during questioning by the police. The
subsequent jury instruction to ignore any question to which an
objection was sustained reinforced the court's admonition and thus
prevented any prejudice. It is also noteworthy that no requests to
admonish the jury followed the objections to the prosecutor's
questions.

1
2
3
4
5
6
7
8

Otherwise, the examination of Oreb proceeded without
objection on the ground now asserted. Townley has forfeited the
issue as to these questions, and does not present analysis to support
the bare assertion of ineffective assistance of counsel. In any event,
it is clear that Oreb's insistence that she had lied to the police
supported Townley's defense. Thus, allowing the prosecutor to elicit
this testimony was justified as a tactical choice by the defense.
Failing to object to asserted prosecutorial misconduct does not
warrant reversal on appeal for ineffective assistance of counsel
“except in those rare instances where there is no conceivable tactical
purpose for counsel's actions.” (People v. Lopez, supra, 42 Cal.4th at
p. 972.)

9
10

United States District Court
Northern District of California

11
12
13
14
15

As to the prosecutor's examination of Gonzalez, the only
objections made by the defense were for hearsay, leading, and
irrelevance. The recordings of both Oreb and Gonzalez were
allowed over the objection that they did not contain prior
inconsistent statements. The court properly ruled in both cases that
the witnesses had fabricated their testimony—in Oreb's case, that
she had heard nothing at the window, and in Gonzalez's case, that he
did not remember anything that had happened that night.

16
17
18
19

Hernandez, 2013 WL 3939441 at **9-10.
20
21

As a general rule, “a prosecutor may not express his opinion of the defendant’s guilt or his
belief in the credibility of [government] witnesses.” United States v. McKoy, 771 F.2d 1207, 1211

22
(9th Cir. 1985) Improper vouching for the credibility of a witness occurs when the prosecutor
23
places the prestige of the government behind the witness or suggests that information not
24
presented to the jury supports the witness's testimony. United States v. Young, 470 U.S. 1, 7 n.3,
25
11-12 (1985).
26
27

The Court of Appeal’s analysis was a reasonable application of federal law. The trial
court’s admonishments to the jury to ignore any remarks to which objections had been sustained

28
20

Appendix 25

United States District Court
Northern District of California

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 21 of 38

1

are presumptively followed under federal law. The admonishments thereby presumptively

2

neutralized the prosecutor’s improper comments about not believing Oreb, about the police editing

3

the recording of their interview of Oreb, about an officer not believing her, and about an officer

4

not believing Gonzalez. The objection that was overruled was to the prosecutor’s comment that

5

Oreb had lied to the police, but this was not misconduct because Oreb had just admitted to initially

6

lying to the police. As the state court correctly noted, her statement that she lied to the police

7

actually helped Petitioner because she was admitted that she lied to the police when she implicated

8

him. The state court also reasonably found that the questioning of Gonzalez was a proper

9

examination of his prior inconsistent statements. Like Oreb, he admitted to lying to the police

10

when they interviewed him, and therefore the prosecutor stating as much was permissible. Under

11

these circumstances, the prosecutor’s comments did not render the trial fundamentally unfair in

12

violation of due process. It was reasonable for the state courts to reject this claim.

13

b. References to Townley's Character

14

Petitioner claims that the prosecutor committed misconduct by portraying Petitioner as a

15
16
17
18
19
20
21
22
23
24
25
26
27
28

dangerous person.
1. Danger to Officers
The California Court of Appeal summarized the background to this claim as follows:
Detective Ramsey testified that while Detective Makdessian
was transporting Townley to the sheriff's station, Ramsey, who was
in the car ahead, received information from Sergeant Sulay that
caused him to alert Makdessian to stop the patrol car. The officers
asked Townley to step out of the car; then they handcuffed him and
examined his shoes. Inside the right shoe was an unloaded pistol; in
the left shoe was a bag containing cartridges. During the direct
examination of Ramsey, the prosecutor asked him to describe his
“degree of alertness” in this encounter. The witness replied,
“Extremely heightened.” The prosecutor then asked, “Did you feel
that your safety was in danger?” The witness answered, “Yes.” At
that point, however, Townley's attorney objected and moved to
strike. The court granted the motion and admonished the jury to
disregard the answer. The prosecutor's next question, whether
Ramsey had his gun out, was answered in the negative; but when
she asked why not, his answer --- “I didn't want to” --- was
interrupted by another objection on irrelevance grounds, which was
also sustained.
While Detective Makdessian was describing the same
events, he stated that while transporting Townley he received an
21

Appendix 26

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 22 of 38

1
2
3
4
5
6
7
8
9
10

urgent call from then-Deputy Fish over the car radio, which the
detective returned by cell phone. The prosecutor asked, “Did you
have a physiological response after you had that phone conversation
with Sergeant Fish?” Defense counsel objected to the question as
irrelevant, and the court sustained the objection. After describing
Detective Ramsey's removal of the gun from Townley's shoe,
Makdessian was asked, “Had you ever transported somebody
unhandcuffed with a gun before?” He answered, “Never.” The
prosecutor continued, “Do you anticipate ever doing that again?”
Another defense objection to the irrelevant question followed and
was sustained.
Sergeant Fish was also questioned about the discovery of the
gun. Hearsay and irrelevance objections were sustained to two
questions: about what a witness had told him and about whether
Sergeant Sulay's telephone call was related to officer safety.
Because the question about officer safety was answered (“Very
much”) before the objection was sustained, the court instructed the
jury to disregard the answer.
Hernandez, 2013 WL 3939441 at **11-12.

11
United States District Court
Northern District of California

As the California Court of Appeal correctly reasoned, id. at *12, the prosecutor did not
12

imply with her questions, nor did the witnesses’ answers suggest, that Petitioner had threatened

13
any officer. The only information the jury could have gleaned is that the officers were reasonably
14
alarmed and afraid when they found that Petitioner had a gun and ammunition while he rode in the
15
police car. That an officer would be afraid for their safety under those circumstances would not be
16
surprising to anyone. In any event, the trial court sustained objections and admonished the jury to
17

disregard statements conveying how the officers’ felt, which jury presumptively followed. Under

18
these circumstances, the state court reasonably applied federal law in denying the claim that the
19
prosecutor committed misconduct by questioning officers regarding the danger from Petitioner
20
when he had a gun and ammunition in the police car.
21

2. Questions About Witnesses’ Fear of Testifying

22
Petitioner claims that the prosecutor committed misconduct by asking questions of
23
witnesses that implied that the witnesses feared harm because they were testifying against
24
Petitioner. The California Court of Appeal summarized the relevant background as follows:
25
26
27
28

Townley further argues that the prosecutor tried to give the
jurors the impression that Flores was in protective custody because
the defendants were a threat to him. The prosecutor was permitted to
bring out Flores's statement that he was in “PC,” or protective
custody. When the prosecutor asked whether he was in protective
custody because he had given a statement to the sheriff's deputies,
22

Appendix 27

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 23 of 38

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

the objection as speculation was sustained. Then the prosecutor
asked, “Who is housed in protective custody?” Objections on
multiple grounds followed, and the court suggested that the
prosecutor move on to other questions until they could discuss the
issue later. After the jury had left for the day, the prosecutor
protested that it was important to present the evidence that he had to
be housed in protective custody and transported separately because
he was a snitch and had negative feelings about that “category.” The
court pointed out that Flores had said he was not afraid to be there
testifying. Following extensive debate on the issue, the court cited
the right to a fair trial and sustained the defense objection.
Flores eventually admitted that he did not want to tell the
police about what his companions had done the night of the shooting
because he did not want to get them in trouble. The prosecutor
questioned Flores further about what he thought of people who told
the police about crimes others had committed. Her questions about
why Flores did not want to tell the police what had happened the
night of the shooting were permitted; but the court sustained
relevancy objections to her question about what word was used to
describe a person who told the police what someone else had done,
as well as the questions about what Flores thought about
such people. The court overruled the objection to the question
whether he wanted to be such a person. Flores said he might get
hurt. The prosecutor was not so successful in asking whether Flores
felt like a Good Samaritan; he did not have an opinion about
whether a person who told the police about a crime was a Good
Samaritan, and he did not feel like one when he was talking to the
police. The question “Why not” was met with another objection,
which was sustained as irrelevant. At that point the court directed
the prosecutor to move on to another area, and she did.
The prosecutor later asked Flores whether he had wanted to
talk to the police; he said he had not. When she asked why, a
defense objection was overruled and Flores simply answered that he
had not wanted to get in trouble. Flores explained that he had
eventually told the truth to Sergeant Sulay, though he did not like
talking to him. The question “Why not?” was again met with an
irrelevance objection, which was sustained. Also sustained were
similar objections to the question, “Why did you ultimately tell
Sergeant Sulay the truth?” and the question, “What did you think
about yourself for [telling Sergeant Sulay what had happened the
night before].”
Ginger Weisel, the victim's neighbor at the Ocean Terrace
apartment complex, testified at length about what she had seen that
night. On redirect, the prosecutor asked whether she wanted to be
there testifying; she answered that she did not. The prosecutor asked
why; and the defense objection (“352”) was overruled. The witness
responded that she did not “need to be part of this” and did not
“want problems.” She then was allowed, over objection, to testify
that she was familiar with gangs and knew there were Surenos living
at the complex.
The jury subsequently heard from Detective Montes, the
gang investigator who related Oreb's statement that she had “heard
23

Appendix 28

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 24 of 38

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

somebody say they hit a scrap.” Oreb was not threatened with
custody, nor was Gonzalez in custody at the time of the detective's
interview with her. The prosecutor asked Detective Montes whether
it had appeared to him that Oreb “was at all reluctant” to tell him
that she did not remember looking out the window, but defense
objections were sustained. The prosecutor then asked whether Oreb's
demeanor had suggested any reluctance or timidity, and another
objection was sustained. The jury was instructed to disregard the last
two answers, but no answer to either question exists on the record.
When Gonzalez was describing his interview with sheriff's
deputies, he was asked whether he was “scared” while talking to
them. The court sustained defense counsel's objection to the
question as irrelevant. Also sustained were questions about whether
he remembered contrasting his concern about his freedom “with
something else” (irrelevant); whether he had wanted to speak with
the police officers (irrelevant), and whether he wanted to be there
testifying (asked and answered). Later the prosecutor asked, “Did
you feel that, or do you feel now that talking about what happened
that night is dangerous for you?” The objection (“irrelevant. 352.”)
was sustained. Then the prosecutor repeated the question, “Do you
want to talk about what happened that night?” The same objection
was sustained, along with the court's comment that this question had
been asked and answered.
Hernandez, 2013 WL 3939441 at **13-14.
The California denied the claim with the following explanation:
This record reveals that to the extent that the prosecutor
sought to portray witnesses as in fear of Townley, she was
unsuccessful. Whenever she asked a question that could have
suggested an answer revealing fear by a witness, defense counsel
interrupted with a timely objection, and if the witness had already
answered, the jury was instructed to disregard it. In addition, the
jurors were instructed at both the beginning and the end of trial that
the attorneys' remarks and questions were not evidence; only the
witnesses' answers were evidence. They also were told that if an
objection was sustained, they must ignore the question, refrain from
guessing what the answer might have been, and disregard any
answer that might have been given. (Cf. People v. Hamilton (2009)
45 Cal.4th 863, 928–929[instruction that attorneys' questions were
not evidence eliminated the possibility of jury's considering facts not
in evidence].) “As a general matter, we may presume that the jury
followed the instructions it was given ... and defendant has failed to
supply any persuasive reason to suppose the jury instead would have
accepted as evidence the insinuation allegedly implicit in the
prosecutor's questions.” (People v. Prince (2007) 40 Cal.4th 1179,
1295.) Accordingly, no prejudice could have resulted from any
improper questions posed by the prosecutor.
Hernandez, 2013 WL 3939441 at **14-15.

27

This analysis applies the correct federal standard in a reasonable manner. As explained

28

above, federal law provides a presumption that the jury follows a trial court’s contemporaneous
24

Appendix 29

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 25 of 38

1

admonition, as well as instructions at the beginning and end of trial. In this case, that presumption

2

would mean that the jury disregarded the prosecutor’s questions and any witness answers or

3

partial answers on this topic. Petitioner points to no reason to overcome this presumption, and

4

there is no apparent reason to do so.

5
6

Petitioner claims that during closing argument the prosecutor made improper comments

7

that “preyed upon” the jury’s fears. The California Court of Appeal summarized the relevant

8

background as follows:

9
10
11
United States District Court
Northern District of California

3. Closing Argument

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

One of the challenged remarks occurred in the context of the
prosecutor's discussion of the natural and probable consequences of
an assault: “Is somebody almost dying a natural and probable
consequence of assaulting a rival gang member in that rival gang
member[']s turf? Read about it all the time. You read ... about it all
the time. Gang fights where somebody ends up dead.” At this point
Carranco's attorney objected, but the prosecutor maintained that she
was only talking about natural and probable consequences. The
court cautioned her to be “careful about the intent issue” and
overruled the objection. The prosecutor then continued with the
point that one has to intend the assault, but “almost being killed
[was] a natural and probable consequence” of an attack by a rival
gang member.
During her closing argument, the prosecutor used the facts
that Lazaro was shot five times and that “there were additional
bullets brought” to show that Townley had premeditated and
planned to kill the victim. She queried, “Why did he need all those
bullets? Why did he need all those bullets? Maybe they were going
to go out and do another one. But why, if you don't mean to kill
somebody, do you need to have to [sic ] all that?” Carranco's
attorney objected that “[k]illing is an improper argument,” but the
objection was overruled.
Hernandez, 2013 WL 3939441 at **15.
The California Court of Appeal denied this claim with the following reasoning:
Townley contends that these comments, together with the
questions suggesting that the officers were in danger from the
defendants and that the witnesses feared the defendants, “were a
blatant plea to the fears and vulnerabilities of the jurors, and were
calculated ‘to induce a level of fear in the jurors so as to guarantee a
guilty verdict.’ ” He compares this situation to Commonwealth v.
Mendiola (9th Cir. 1992) 976 F.2d 475 (overruled on another
ground in George v. Camacho (9th Cir.1997) 119 F.3d 1391), where
the prosecutor's appeal to jury fears of the defendant's
dangerousness constituted clear misconduct from which prejudice
was “highly probable.” (Id. at p. 487.) This case, however, bears no
25

Appendix 30

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 26 of 38

resemblance to Mendiola. There the prosecutor's inflammatory
argument evoked an image of a dangerous criminal who, if freed,
would walk out of the courtroom “right behind” them and retrieve
the gun.[] (Id. at p. 486.) In this case the prosecutor's speculation
about the defendants' intentions on the night of the shooting was a
far cry from the clear attempt to evoke fear and alarm among
the Mendiola jurors, and the reference to gang fights was confined
to her discussion of the natural and probable consequences of a
gang-motivated assault.

1
2
3
4
5

Townley's further reliance on People v. Vance (2010) 188
Cal.App.4th 1182 and United States v. Sanchez (9th Cir. 2011) 659
F.3d 1252 is similarly misplaced. The prosecutor did not, as
in Vance, urge the jurors to view the crime through the victim's eyes
and imagine the victim's suffering, or comment derisively on either
defendant's courtroom demeanor. Nor did she suggest in some
version of the prosecutor's argument in Sanchez, that by
convicting Townley they would “ ‘protect community values,
preserve civil order, or deter future lawbreaking.’ ” (United States v.
Sanchez, supra, 659 F.3d at p. 1256.)

6
7
8
9
10

United States District Court
Northern District of California

11

Hernandez, 2013 WL 3939441 at **15-16 (footnote omitted).
The prosecutor’s first comments referring to media reports of gang violence was not

12
13

supported by evidence in the case or relevant to the natural and probable consequences doctrine.

14

However, it’s impact was substantially diminished because the prosecutor immediately discussed

15

the natural and probable consequences doctrine as it did in fact relate to the specific facts of the

16

case.6 This single isolated reference to outside media reports, while it was an improper reference

17

to facts not in evidence, was not sufficiently inflammatory or pervasive to render the trial as a

18

whole fundamentally unfair and amount to a violation of due process. The prosecutor’s later

19

speculation that the number of bullets indicated that the co-defendants might have intended to go

20

kill another person, while not supported by other evidence, is a rational inference that could be

21

argued from the fact that so many bullets were later found in Petitioner’s possession. As a result,

22

the remark about ammunition did not violate Petitioner’s right to due process. The California

23

Court of Appeal reasonably applied federal law in denying this claim.

24

c.

Racially Biased Remarks

25

Petitioner claims that the prosecutor made racially biased remarks by: (1) arguing that

26
27
28

6

The prosecutor argued that almost being killed was a natural and probable consequence of
attacking someone with three others, one with a gun, one with a bat, and challenging the victim if
he is a Norteno or a Sureno.
26
Appendix 31

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 27 of 38

1

Hispanic culture values thwarting law enforcement; and (2) inferring from one of Petitioner’s two

2

surnames that he spoke Spanish, despite testimony from two witnesses that he did not.

3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

The source of the challenged argument was the prosecutor's
characterization of the perpetrators' “culture” and the suggestion
that Townley was part of that culture. The prosecutor argued that
Flores was scared to identify his companions. “He didn't want to
dime people out. He didn't want to be a rat. Nobody wants to be a rat
in that culture. In our culture we generally call it a Good Samaritan
helping police solve a case. Different culture.” Then, referring the
jury to the “two different Spanish voices” that called out to the
victim, the prosecutor commented that Townley “may or may not”
speak Spanish, although Townley's girlfriend had testified that he
did not know Spanish. The prosecutor also pointed out that “one of
his sur names [sic ] is Hernandez.” She did not acknowledge Flores's
testimony that he had never heard Townley speak Spanish.
Townley contends that the prosecutor engaged in misconduct
by making the incorrect, racially biased suggestion
that Townley spoke Spanish and implying that he was part of a
culture that frustrates police investigation. Our reading of the
record, however, is more consonant with the People's interpretation.
The prosecutor's reference to a “different culture” occurred in the
context of her discussion of gang behavior, including the resistance
being a “snitch.” The prosecutor had already established during
examination of Flores that he had not wanted to tell the police about
what the group had done that night because he did not want to get
them in trouble. She repeatedly used the term “Good Samaritan” and
elicited Flores's statement that he did not feel like a Good Samaritan
by talking to the police. We see no impermissible racial or ethnic
insinuations in the challenged reference to being a “rat” on others.
At worst it was illogical, creating a false comparison between a “rat”
and a Good Samaritan. In addition, in further discussing Flores's
reluctant testimony, the prosecutor clarified her associations by
specifically referring to “the gang culture. That's where this
happened that night. That particular culture.”
As for the comment that Townley “may or may not” speak
Spanish, the prosecutor's erroneous suggestion was not clearly
deliberate. Moreover, it was corrected by Townley's attorney, who
pointed out that the prosecutor had incorrectly recalled or
misunderstood the evidence. He reminded the jury that two
witnesses, not just one, had explained that Townley did not speak
Spanish. This correction, together with the jury instruction to rely on
the evidence rather than argument, dispelled any potential prejudice
that conceivably could have resulted from the prosecutor's
misstatement.
Hernandez, 2013 WL 3939441 at **16-17 (footnote omitted).

26
The California Court of Appeal reasonably interpreted the record showing that
27

prosecutor’s remarks about a “culture” that devalues cooperation referred to gang culture, not

28
27

Appendix 32

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 28 of 38

1

Hispanic culture. Had the remarks referred to Hispanic culture, they would have been racist and

2

improper, but it was reasonable for the state court to determine that in the context of the

3

prosecutor’s other argument, the jury would have understood that she was discussing gang culture

4

and not Hispanic or any other particular ethnic culture. The prosecutor’s assumption that

5

Petitioner spoke Spanish based upon his surname constituted irrational and improper stereotyping.

6

However, any impact of this remark was effectively remediated because defense counsel reminded

7

the jury that the actual evidence showed that Petitioner did not speak Spanish, and the trial court

8

instructed that attorney argument is not evidence. Under these circumstances, the prosecutor’s

9

remarks did not render the trial fundamentally unfair in violation of his right to due process.

United States District Court
Northern District of California

10

Accordingly, the state court’s rejection of this claim was a reasonable application of federal law.

11

d.

12

Petitioner further argues that the prosecutor misstated the appropriate burden of proof with

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Misstating the Burden of Proof

three remarks. The relevant background and analysis is as follows:
Townley further challenges three statements the prosecutor
made during her argument to the jury. In her opening argument, she
said, “I want to highlight a couple of things about Townley being the
shooter. I suspect most of you don't have much doubt in your mind
about whether he is the shooter.” We do not regard this comment as
a claim that the prosecutor professed to have personal knowledge
of Townley's guilt, so the People's response is not helpful.
Instead, Townley merely asserts that the prosecutor suggested she
had a personal belief in his guilt and thus “lowered the burden to
overcome doubt about this factual question.” We disagree. The
remark was brief and did not suggest that Townley had to refute her
personal belief by presenting his own evidence. Moreover, the
defense objection to it was sustained. The prosecutor then rephrased
her comment to say, “Based on the evidence, all of the evidence you
heard, the evidence doesn't support you[r] having a reasonable doubt
as to whether ... Townley was the shooter.”
The prosecutor introduced her closing argument by revisiting
the concept of reasonable doubt: “[W]hat I want to tell you is [that]
juries have worked with this for hundreds of years. It's not superesoteric. It's a doubt to which you can assign a reason. And the
reason that's so important is because [sic ] jury deliberations are a
group activity. You all will deliberate together. And in order for you
to be able to effectively do that, it can't be a feeling, because it's very
difficult to put feelings into words so that all of you folks can talk
about it. So it has to be a reasonable doubt based on the evidence. So
remember, it isn't a feeling like I feel like maybe something's amiss.
It's something you can put your finger on and talk to your fellow
jurors about.”
28

Appendix 33

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 29 of 38

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Townley contends that this argument misstated the law in the
same manner that the Supreme Court condemned in People v. Hill,
supra, 17 Cal.4th at page 831. Reversal is not required, however.
First, he did not object to the prosecutor's statement, thus forfeiting
the issue. Secondly, the challenged remark was not comparable to
the argument rejected in Hill. There, the prosecutor stated that in
order to have reasonable doubt, “ ‘you have to have a reason for this
doubt. There has to be some evidence on which to base a doubt.’ ”
(Id. at p. 831. ) The trial court clouded the picture further by not
only overruling the defense attorney's objection, but also chastising
him, thereby appearing to endorse the prosecutor's incorrect position
and potentially biasing the jury against the defense. The prosecutor
then continued: “ ‘There must be some evidence from which there is
a reason for a doubt. You can't say, well, one of the attorneys said
so.’ (Italics added.)” (Id. at p. 831.)
Here the prosecutor did not affirmatively state that the
defendant must have produced evidence to support a reasonable
doubt; she said only that there must be a reasonable doubt based on
the jurors' evaluation of the evidence presented. It is not reasonably
likely that her statement would have been understood by the jury to
mean that Townley had the burden of producing evidence to
demonstrate a reasonable doubt of his guilt.
Later in her argument the prosecutor stated: “I want to
remind you that the evidence doesn't have to eliminate any possible
doubt. Just any reasonable doubt. That's all. That is all. There's
always going to be possible doubts. But what an abiding conviction
really is, what it boils down to, is it sits right in your gut. You feel
okay, you feel good about the decision you made. Maybe some of
you regret it later? Perhaps in a way. Perhaps some of you may feel
badly about being involved in this trial. Something very violent
happened to a nice guy. He was almost killed. Who wants to be a
part of that? The Defendants are young. That is tragic. It's nothing
short of tragic. But they made very adult decisions that night and, in
fact, they made a very adult decision with somebody's life hanging
in the balance. That is what they did that night.”
Townley argues that these statements lowered the burden of
proof by “equat [ing] abiding conviction to a moral certainty with
something that the jury feels ‘okay’ about or ‘good about the
decision’ even if ‘[m]aybe some of you regret it later.’ ” Again there
was no objection to the prosecutor’s explanation. Townley
misinterprets the prosecutor's reference to regret; she was suggesting
that some jurors might feel bad about convicting young
people involved in a tragic event; yet they were making adult
choices that almost cost an innocent person his life. Characterizing
“abiding conviction” as a conviction that “sits right in your gut” is
not equivalent to a mere hunch or “gut feeling.” Thus, even
if Townley had preserved this claim by a timely objection, we would
find no basis for reversal. (Cf. People v. Barnett (1998) 17 Cal.4th
1044, 1156 [describing “beyond a reasonable doubt” as “that
feeling, that conviction, that gut feeling that says yes, this man is
guilty” was not a purported definition of “moral certainty” and did
not cause a misunderstanding of the reasonable doubt instruction].)
29

Appendix 34

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 30 of 38

As in Barnett, the trial court's instructions, together with the correct
statements of the standard by both defense counsel, mitigated any
misstep in the prosecutor's characterization of the standard of proof
and emphasized the burden placed on the prosecution to prove every
element beyond a reasonable doubt. Hence, we find no reasonable
likelihood either that the jury construed the prosecutor's remarks as
requiring the defendant to carry any burden of proof or that the jury
misapplied the relevant law.

1
2
3
4
5
6

The California Court of Appeal reasonably applied federal law. The court correctly cited

7

the important principal of federal law that prosecutor’s mischaracterization of a jury instruction is

8

less likely to render a trial fundamentally unfair than if the trial court issues the instruction

9

erroneously:

10
11
United States District Court
Northern District of California

Hernandez, 2013 WL 3939441 at **17-18.

12
13
14
15
16

[A]rguments of counsel generally carry less weight with a
jury than do instructions from the court. The former are not
evidence, and are likely viewed as the statements of advocates; the
latter, we have often recognized, are viewed as definitive and
binding statements of the law. Arguments of counsel which misstate
the law are subject to objection and to correction by the court. This
is not to say that prosecutorial misrepresentations may never have a
decisive effect on the jury, but only that they are not to be judged as
having the same force as an instruction from the court.
Boyde v. California, 494 U.S. 370, 384-85 (1989) (citations omitted).
The trial court issued the correct instructions on the prosecutor’s burden of proof. The

17

prosecutor’s first comment during opening was especially weakened by the sustained objection to

18

it, and in any event did not refer to the burden or proof or state that the prosecutor did not have to

19

prove her case to the standard set forth by the trial court. The prosecutor’s remarks about the

20

juror’s feelings did not negate the jury’s duty to decide the case based upon evidence, and indeed

21

she reiterated in those remarks that they must do so in assessing reasonable doubt. Finally, the

22

state court accurately described the prosecutor’s remarks about regret as referring to regret over

23

convicting a young person, not over making a wrong decision. In addition, the state court

24

reasonably applied the principal set forth in Boyde in determining that even if characterizing an

25

abiding conviction as one that “sits in your gut” was erroneous, that isolated error was corrected

26

by the trial court’s instructions correctly conveying in detail the burden of proving guilt beyond a

27

reasonable doubt. The jury must be presumed to follow the trial court’s instructions over the

28

argument of a prosecutor. As a result, these remarks did not render the trial fundamentally unfair
30

Appendix 35

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 31 of 38

1
2

E.

3

Petitioner claims that the prosecutor misstated facts on two occasions. The California

4
5
6
7
8
9
10
11
United States District Court
Northern District of California

when the record as a whole is considered.

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

Misstating Facts

Court of Appeal analyzed this claim as follows:
First, during opening argument the prosecutor was
discussing Flores's declaration, and in particular his “mistake” about
what he was wearing the night of the shooting. She stated, “When he
was speaking with sheriff's deputies, they didn't make him any
promises. They didn't tell him we'll cut you some slack if you come
clean.” The prosecutor went on to emphasize how reluctant Flores
was to “come clean” and tell the officers what had happened. He did
so, she pointed out, without distancing himself or minimizing his
own role. She concluded, “There's nothing, nothing to suggest that
he was doing anything but telling the truth that day. [¶] No promises
from the D.A.'s office. He admitted that he understood what he had
to do if he was called as a witness was to tell the truth. There's no
evidence that he doesn't like these guys, that he'd want to set them
up for some reason. Nothing. He just met Carranco that night. There
was no suggestion that he had any ill-will toward Townley, so why
would he? Why would he set 'em up? He didn't get anything out of
it. Again, deputies didn't promise him anything.”
Townley again forfeited any challenge to this alleged
misstatement by failing to object. Were we to address the merits, we
would reject the People's assertion that the prosecutor spoke
accurately when she said Flores received no benefit from testifying.
Although his declaration contained the statement that he did not
have “an agreement to testify in exchange for telling the truth in this
declaration,” it also reflected the plea deal he had made with the
district attorney. Nevertheless, the jury was fully aware of the
negotiated disposition of Flores's case. At trial Flores acknowledged
that he had pleaded to a reduced charge, that he might be called to
testify, and that if called he would have the obligation to tell the
truth.
Townley also takes issue with the following statement by the
prosecutor: “When people talk about going to prison for life, they
are talking about killing somebody.” The prosecutor was referring
to Townley's statement to Fritts–Nash that he was “looking at 25 to
life.” Townley contends that the comment “not only misstated the
evidence, but ... suggested that the prosecutor had evidence beyond
the record to support her assertions.” The prosecutor's statement was
an illogical inference from the facts and an incorrect statement of the
law. Nevertheless, defense counsel's objection was sustained, thus
minimizing any harm.
Hernandez, 2013 WL 3939441 at **18-19.

27

The state court reasonably found no due process violation from the prosecutor’s first

28

remark that Flores was not promised anything in return for testifying. Although that was not
31

Appendix 36

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 32 of 38

1

accurate insofar as Flores did make a plea deal, Flores’s plea deal was well-known to the jury.

2

Thus, the jury’s understanding of the evidence was not harmed by the prosecutor’s inaccurate

3

statement. The prosecutor’s other erroneous statement was objected to, and the objection was

4

sustained. There is no showing as to why the court should not presume, in accordance with

5

federal law, that the jury abided by the court’s instructions to credit sustained objections and

6

disregard the attorney’s improper statement. Under these circumstances, the state court reasonably

7

applied federal law in finding that whatever harm was caused by the prosecutor’s two inaccurate

8

statements did not render the trial unfair as a whole so as to violate due process.

9

United States District Court
Northern District of California

10

F.

Sarcastic Remarks

Petitioner claims that the prosecutor committed misconduct by made “rude, obnoxious, and

11

sarcastic remarks” that violated Petitioner’s right to due process. The California Court of Appeal

12

decided this issue as follows:

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Finally, Townley argues that the prosecutor made “a host of
sarcastic comments in front of the jury,” directed at defense
witnesses as well as the attorneys. …
Townley specifically focuses on two incidents. The defense
had called Laurie Kaminski, an expert in gunshot residue, who had
watched a video showing Townley rubbing his hands together and
touching his shirt. Kaminski suggested that gunshot residue might
be transferred from the shirt to his hands. She also expressed the
opinion that it can be misleading to try to establish the meaning of
gunshot residue based on its location, because particles “redistribute
themselves.” Thus, residue on someone's hands could result from
being near a gun when fired, or from handling a fired gun or fired
ammunition. In cross-examining Kaminski, the prosecutor asked
what the odds would be of contamination ending with the right hand
having significantly more particles than the left hand or sleeve.
Kaminski explained that there would be no way to estimate those
odds. The prosecutor suggested, “Sure a curious coincidence,
wouldn't you say?” A defense objection, “argumentative,” was
sustained.
Even if this was an impermissible comment on the evidence,
it was brief and insignificant, and in any event it was tempered by
the ruling sustaining the objection. We find no harm from the
offhand remark.
The second comment occurred during closing argument,
when the prosecutor was going over Carranco's participation
and Townley's admissions to Fritts–Nash after the shooting. The
trial court overruled an objection by Carranco's counsel to the
depiction of Carranco as saving face by getting out of the car with
32

Appendix 37

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 33 of 38

the other two assailants. At that point the prosecutor said, “If I'm
lucky, I can be accused of misconduct one more time.” This
sarcastic remark was clearly gratuitous, but it had no bearing on the
issues, and it only cast the prosecutor in an even more pejorative
light, making her appear petty and querulous. And when Carranco's
attorney asked the court to strike her remark, the prosecutor
responded with yet more petulance: “Perhaps you should admonish
Counsel as [sic ] to stop objecting on that [misconduct] basis.” The
trial court appropriately curbed such fractiousness by telling the
prosecutor to “Just finish the argument.” No prejudice
to Townley resulted from the prosecutor's intemperate but selfdefeating conduct.

1
2
3
4
5
6
7

Hernandez, 2013 WL 3939441 at *19.
8

The California Court of Appeal reasonably found that the prosecutor’s remarks did not

9
cause a due process violation. While the remarks were unpleasant, the harm from them was
10
minimal in that objections to them were sustained, they were minor, and, as the state court
11
United States District Court
Northern District of California

correctly determined, self-defeating. Petitioner correctly notes that the prosecutor has been found
12
to commit misconduct in other cases. While this might indicate a lack of competence or
13

professionalism on her part, it does not, without more, establish that Petitioner’s trial was infected

14
with unfairness such that Petitioner was deprived of due process. The state court reasonably
15
concluded that he was not. Accordingly, habeas relief is not warranted on this claim.
16
17

4.

Trial Court's Comments on Witness Credibility
Petitioner claims that the trial court improperly commented on Flores’s credibility, and

18
thereby violated his rights to a jury, to confrontation and to present a defense. The California
19
Court of Appeal summarized the relevant facts as follows:
20
21
22
23
24
25
26
27
28

During cross-examination of Flores and later in closing
argument, defense counsel suggested that Flores had merely
assented to the detectives' leading questions without independently
recalling facts. In cross-examining Flores, counsel for both
defendants brought out Flores's initial denial to the police that he
had witnessed anything, along with questions apparently designed to
suggest that (a) Flores was manipulated into admitting his
participation in the crime and (b) Flores's plea bargain was an
incentive for testifying against Townley and Carranco. The
following colloquy took place in cross-examination by Carranco's
attorney: “Q. And early on when you're talking to Detective
Ramsey, you initially told him several times that you didn't know
anything about this; is that correct?” After the prosecutor's objection
was overruled, Flores answered “Yes” and counsel continued: “And
Detective Ramsey, during that interview, conveyed to you that they
already had some information about this situation; is that correct?
33

Appendix 38

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 34 of 38

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14

[¶] A. Yes. [¶] Q. Detective Ramsey also told you he didn't believe
your statement that you didn't know anything about this situation; is
that correct? [¶] A. Yes. [¶] Q. Detective Ramsey at one point called
you a stand-up guy; is that correct? [¶] [The prosecutor]: Your
Honor, objection. Hearsay. It exceeds—[¶] THE COURT: It's all
irrelevant. Sustained.” When Carranco's attorney tried to defend his
question as relevant to Flores's state of mind, the court responded
with the explanation challenged on appeal: “We've already
established by everyone's agreement that whatever—most of what
he told Detective Ramsey wasn't the truth, and that he told what he
thinks characterizes the truth to Sergeant Sulay later in the
interview. That's my understanding of the testimony in this case. I
don't know where you're going with characterization and police
tactics used by Detective Ramsey. And those aren't actually that
relevant.”
Shortly thereafter, Carranco's attorney brought out Flores's
acknowledgement that in the interrogation room he was nervous and
scared and afraid of being locked up. The next question—“And you
asked detectives if you were going to be able to go home; is that
correct?”—prompted an objection by the prosecutor on relevance
grounds. Counsel responded, “Goes to the credibility of the
statement that he's making.” But the court disagreed, explaining that
“[t]he credibility is what he's saying today, not what he said back
when he was interviewed. You all have to use his interview for
impeachment of different purposes, but the jury has to focus on
whether his testimony today is truthful or not, and on the other
indications here that they've heard.”

15

Hernandez, 2013 WL 3939441 at *20 (footnote omitted). The California Court of Appeal then

16

denied the claim based upon the following reasoning:

17
18
19
20
21
22
23
24
25
26
27
28

Townley contends that these rulings violated his Sixth
Amendment rights to present a defense and cross-examine
witnesses, because the court improperly commented on the evidence
and “cut-off [sic ] reasonable attempts to demonstrate that [Flores's]
testimony was the product of threats and promises of leniency.”
Even if Townley's attorney had made a proper objection, we would
reject his contention, as we find no impairment of Townley’s
constitutional rights. The court was not declaring the police tactics
irrelevant to Flores's credibility at trial; it was merely observing that
it had already been established that Flores had not told the truth to
the deputies when first interviewed. The colloquy did not
significantly add to the jury's understanding of the defense position.
The issue presented here is not comparable to the cases on
which Townley relies. He cites only one part of the holding in Crane
v. Kentucky (1986) 476 U.S. 683 (106 S.Ct. 2142), where the
Supreme Court explained that the right to a fair trial was violated by
the “blanket exclusion” of testimony about the circumstances of the
defendant's confession. (Id. at p. 690.) The high court cited its earlier
decision in which it had explained that while “ ‘the exposure of a
witness'[s] motivation in testifying is a proper and important
function of the constitutionally protected right of crossexamination,’ ” a defendant is not entitled to “ ‘cross-examination
34

Appendix 39

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 35 of 38

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

that is effective in whatever way, and to whatever extent, the
defense might wish.’ ” (Delaware v. Van Arsdall, supra, 475 U.S. at
pp. 678–679.) Accordingly, “trial judges retain wide latitude ... to
impose reasonable limits on such cross-examination based on
concerns about, among other things, ... interrogation that is
repetitive or only marginally relevant.” (Id. at p. 679.) California v.
Green (1970) 399 U.S. 149, 158 also is not helpful to Townley; the
cited holding merely confirms that “the Confrontation Clause is not
violated by admitting a declarant's out-of-court statements, as long
as the declarant is testifying as a witness and subject to full and
effective cross-examination.” People v. Fierro (1991) 1 Cal.4th 173,
221 only offers the reminder that a prior inconsistent statement is
admissible “not only to impeach credibility but also to prove the
truth of the matters stated.” And People v. Rodriguez (1986) 42
Cal.3d 730, 772 is inapposite because it addressed judicial
comments to a deadlocked jury; indeed, the court emphasized that
“accurate, temperate, nonargumentative, and scrupulously fair”
commentary is not tantamount to coercing the deadlocked jurors into
reaching a verdict. (Id. at p. 766.) “Accordingly, we have made clear
that the trial court has broad latitude in fair commentary, so long as
it does not effectively control the verdict. For example, it is settled
that the court need not confine itself to neutral, bland, and colorless
summaries, but may focus critically on particular evidence,
expressing views about its persuasiveness.” (Id. at p. 768.) The court
in this case did not even go that far; not only were the coercive
circumstances of a deadlocked jury absent here, but there was no
comment beyond pointing out a fact that had already been
established.
Nor is this case analogous to People v. Sturm (2006) 37
Cal.4th 1218. There the trial judge's comments during the penalty
phase of trial told the jury that the defendant had been convicted of
premeditated murder, which was not true. That inaccurate statement
not only advanced the prosecutor's argument that the defendant had
premeditated the murders, but “severely damaged” the defense
position that lack of premeditation and deliberation was a mitigating
factor in the penalty decision. (Id. at p. 1232.) No such damage
occurred here. The court's statement was accurate in that Flores's
credibility on the witness stand was the critical point the jury had to
determine. If his trial testimony was false, defense counsel could use
the circumstances of his prior statement for impeachment;
and Townley's attorney did so by bringing out the details of Flores's
plea agreement with the prosecution. Defense counsel also stated in
closing argument that Flores tended to agree with any suggestion
made to him about the facts. Only Carranco's attorney was curtailed
in his cross-examination of Flores on the veracity of the statements
made to Detective Sulay. The court acted to control the proceedings
and minimize jury confusion by limiting Carranco's crossexamination to testimony bearing on Flores's credibility at
trial. Townley himself was not deprived of a fair trial by the trial
court's ruling. Furthermore, any potential jury misunderstanding
would have been averted or corrected in the instruction
with CALCRIM No. 318, which told the jurors that they could use
the prior statement to evaluate whether Flores's trial testimony was
true and whether his statements to the detectives were true.
35

Appendix 40

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 36 of 38

1

Hernandez, 2013 WL 3939441 at **20-21 (footnote omitted).

2

The California Court of Appeal cited the correct standard for whether the trial court had

3

violated Petitioner’s Sixth Amendment rights. The appellate court also reasonably applied that

4

standard. The trial court’s comments at the end of the colloquy with Petitioner’s counsel merely

5

reiterated that Flores had initially lied to the police, as Flores had admitted, and stated that all the

6

parties agreed on this point. Stating that it was undisputed that a prosecution witness had admitted

7

to lying to the police does not in any conceivable way undermine the defense’s effort to impeach

8

that very witness. Nor was it necessary to allow further questioning on that point because the fact

9

was admitted by the witness and agreed upon by all parties.
The trial court’s second comment about Flores’s prior inconsistent statement was unclear

United States District Court
Northern District of California

10
11

and was therefore unlikely to convey to the jury that it could not be used for its truth. In any

12

event, the state appellate court correctly determined that the trial court clarified any ambiguity on

13

this point in its final jury instructions stating that prior inconsistent statements could be considered

14

for impeachment and for their truth. The state appellate court reasonably applied federal law in

15

denying this claim, and therefore it does not warrant federal habeas relief.

16

5.

Jury Instructions

17

Petitioner claims that the jury instructions failed to make clear that the general intent

18

element applied only to the assault charge. Petitioner argues that this confused the jury and

19

relieved the prosecution of its burden of proving the specific intent element for attempted murder,

20

the specific intent element of the gun-use charges, and the premeditation and deliberation element

21

of premeditated attempted murder.

22

To obtain federal collateral relief for errors in the jury charge, a petitioner must show that

23

the ailing instruction so infected the entire trial that the resulting conviction violates due process.

24

Estelle v. McGuire, 502 U.S. 62, 71-72 (1991). The instruction may not be judged in artificial

25

isolation but must be considered in the context of the instructions as a whole and the trial record.

26

Id. In other words, the court must evaluate jury instructions in the context of the overall charge to

27

the jury as a component of the entire trial process. United States v. Frady, 456 U.S. 152, 169

28

(1982).
36

Appendix 41

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 37 of 38

The jury instructions when read as a whole did not contain any ambiguity or confusion

United States District Court
Northern District of California

1
2

about the mental states that applied to each offense. The jury was instructed that the instruction

3

for each crime explained the intent or mental state required for that offense. The instructions for

4

attempted murder explained the specific intent element for that charge, the instruction for

5

premeditation explained the premeditation and deliberation element, and the instruction for the

6

gun charges explained the element of intent to discharge the firearm. There is no dispute that

7

these instructions accurately conveyed the correct mental state element for each offense. The jury

8

instructions explicitly differentiated the mental state elements for each charge and informed the

9

jury that each offense would have its own. There was no risk that the jury would think that they

10

should apply the element of general intent to anything but the assault charges. Therefore, the trial

11

record does not support Petitioner’s claim that the jury instructions violated his right to due

12

process. The state court’s rejection of this claim on these grounds was a reasonable application of

13

federal law.

14

6.

Ineffective Assistance of Counsel
Petitioner claims that to the extent trial counsel’s failure to object to any of the above

15
16

claimed errors resulted in the waiver of a claim based on such error, counsel provided ineffective

17

assistance in violation of Petitioner’s Sixth Amendment rights. For the reasons discussed above,

18

the claims are without merit.7 Therefore, even if counsel’s failure to object waived any the above

19

claims, no prejudice resulted because the failure to object on meritless grounds is neither

20

unreasonable nor prejudicial. See Juan H. v. Allen, 408 F.3d 1262, 1273 (9th Cir. 2005).

21

//

22

//

23
24
25
26
27
28

Because the Court has found the claims to be meritless, Respondent’s alternative arguments
based upon procedural default and exhaustion need not be addressed.
37
Appendix 42
7

Case 4:14-cv-01605-JSW Document 46 Filed 12/18/18 Page 38 of 38

1

CONCLUSION

2

For the foregoing reasons, the petition for writ of habeas corpus is DENIED. A certificate

3

of appealability will not issue. See 28 U.S.C. § 2253 (c). This is not a case in which “reasonable

4

jurists would find the district court’s assessment of the constitutional claims debatable or wrong.”

5

Slack v. Mcdaniel, 529 U.S. 473, 484 (2000).

6

The Clerk shall enter judgment in favor of the Respondent and close the file.

7

IT IS SO ORDERED.

8

Dated: December 18, 2018

9
JEFFREY S. WHITE
United States District Judge

10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
38

Appendix 43

APPENDIX D

Appendix 44

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

[1]
53 Cal.4th 1095
Supreme Court of California

Indigent defendant was not entitled
to select an attorney under Sixth
Amendment.
U.S.C.A.
Const.Amend. 6.

The PEOPLE, Plaintiff and Respondent,
v.
Jacob Townley HERNANDEZ, Defendant
and Appellant.
No. S178823.
|
April 19, 2012.

Criminal Law Choice of
appointed counsel

[2]

Criminal Law Conduct of trial in
general

Synopsis
Background: Defendant was convicted in
the Superior Court, Santa Cruz County, No.
F12934, John Jeffrey Almquist, J., of
attempted premeditated murder, with
findings that he personally used a gun and
personally inflicted great bodily injury.
Defendant appealed. The Court of Appeal
reversed. The Supreme Court granted
review, superseding the opinion of the Court
of Appeal.

[Holding:] The Supreme Court, Werdegar,
J., held that defendant had burden to show
prejudice from violation of his right to
counsel in gag order prohibiting discussion
of prosecution witness's declaration.
Reversed.

Opinion, 101 Cal.Rptr.3d 414, superseded.

West Headnotes (7)
© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 45

1

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

Defendant had the burden of
establishing prejudice from the
denial of his right to effective
assistance of counsel in a gag order
prohibiting defense counsel from
communicating with defendant
about cooperating witness's
declaration, to obtain reversal on
that ground, even if the gag order
barred discussion of matters
referenced in sealed documents that
were also referenced in unsealed
documents, since the violation was
not of such magnitude as to render
the adversarial process
presumptively unreliable; even
though defendant was not fully
informed about witness's probable
testimony before witness took the
stand, he was not prevented from
discussing how to respond to
witness's testimony after hearing it.
U.S.C.A. Const.Amend. 6.

A defendant claiming counsel failed
or was unable to subject the
prosecution's case to meaningful
adversarial testing in violation of
the Sixth Amendment is relieved
from the burden of showing
prejudice only if counsel entirely
fails to subject the prosecution's
case to meaningful adversarial
testing, but prejudice must be
shown if counsel has opposed the
prosecution throughout the relevant
proceeding, even if counsel failed or
was unable to do so at specific
points. U.S.C.A. Const.Amend. 6.

8 Cases that cite this headnote

[4]

Criminal Law Presumptions and
burden of proof in general

See 5 Witkin & Epstein, Cal.
Criminal Law (3d ed. 2000)
Criminal Trial, §§ 230, 235; 6
Witkin & Epstein, Cal. Criminal
Law (3d ed. 2000) Reversible Error,
§ 22; Cal. Jur. 3d, Criminal Law:
Rights of the Accused, §§ 106, 155.

6 Cases that cite this headnote
[3]

Criminal Law Exceptions to
two-pronged standard

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 46

2

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

Only when the court concludes that
the possibility of prejudice and the
corresponding difficulty in
demonstrating such prejudice are
sufficiently great compared to other
more customary assessments of the
detrimental effects of deficient
performance by defense counsel,
must the presumption of prejudice
be applied in order to safeguard the
defendant's fundamental right to
the effective assistance of counsel
under the Sixth Amendment.
U.S.C.A. Const.Amend. 6.

22 Cases that cite this headnote

[5]

Constitutional Law Witnesses
Although the suppression by the
prosecution of evidence that might
be used to impeach a prosecution
witness may violate due process, it
is unconstitutional only if the
evidence is “material” in the sense
that there is a reasonable
probability that, absent the error,
the fact finder would have had a
reasonable doubt respecting guilt.
U.S.C.A. Const.Amend. 14.

A violation of that aspect of the
Sixth Amendment right to counsel
defining the right to a fair trial
guaranteed through the due process
clause is not “complete” until the
defendant is prejudiced. U.S.C.A.
Const.Amends. 6, 14.

4 Cases that cite this headnote

[7]

Criminal Law Conduct of trial in
general
Criminal Law Prejudice and
presumptions
Where an interference with a
client's ability to consult with
counsel prevents counsel from
consulting with a client about a
specific piece of evidence, a
presumption of prejudice is not
justified under Sixth Amendment;
the error is reversible only upon a
showing of prejudice, as would be
the case if prosecutorial misconduct
suppressed the evidence altogether.
U.S.C.A. Const.Amend. 6.

3 Cases that cite this headnote

4 Cases that cite this headnote

Attorneys and Law Firms
[6]

Criminal Law Deprivation or
Allowance of Counsel

***607 Marc J. Zilversmit, San Francisco, for
Defendant and Appellant.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 47

3

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

Ann C. Moorman and John T. Philipsborn,
San Francisco, for California Attorneys for
Criminal Justice as Amicus Curiae on behalf
of Defendant and Appellant.
Edmund G. Brown, Jr., and Kamala D.
Harris, Attorneys General, Dane R. Gillette,
Chief Assistant Attorney General, Gerald A.
Engler, Assistant Attorney General, Seth K.
Schalit, Laurence K. Sullivan and Amy
Haddix, Deputy Attorneys General, for
Plaintiff and Respondent.
Opinion

young men in a white Honda sedan drove
into a neighborhood associated with the
Sureño criminal street gang. The driver
remained in the car, with the engine
running. The other men, each of whom was
wearing clothing suggesting an association
with the Norteño criminal street gang,
approached the victim, Javier Lazaro, who
was walking on the sidewalk across the
street. Lazaro was not associated with any
gang, but was wearing blue, a color linked
with the Sureño criminal street gang. One of
the men shot Lazaro five times, injuring but
not killing **1115 him. The men then ran
back to the car, jumped in, and sped away.

WERDEGAR, J.
*1099 **1114 Defendant Jacob Townley
Hernandez (Townley), 1 convicted of
attempted ***608 murder, contends the trial
court violated his right to counsel as
guaranteed by the Sixth Amendment to the
United States Constitution, by barring his
attorney from discussing with him the
existence or contents of a sealed transcript of
a witness's plea agreement proceedings and
a sealed declaration executed by the witness
as part of those proceedings. We *1100 hold
that Townley can obtain relief on that claim
only by establishing that the trial court's
order affected the reliability of the trial
process, a question not addressed by the
Court of Appeal. We reverse the judgment of
the Court of Appeal and remand the matter
for further proceedings.

BACKGROUND
On the evening of February 17, 2006, four

A short time later, police located the Honda
near an apartment known to be a gang
hangout, where they found a number of
people, including Townley. Officers
determined Townley was a possible witness
and transported him to the police station.
During the trip, the transporting officer
received information Townley had been seen
secreting a small gun in one of his shoes and
a small bag of bullets in the other. The
officer stopped the car and searched
Townley, finding a .25-caliber handgun in
one of Townley's shoes and in the other a
velvet sack containing 20 live cartridges.
Townley's hands and jacket sleeves tested
positive for gun residue. It was later
determined that bullet casings found at the
scene of the shooting had been fired from the
gun.

Townley invoked his right not to speak with
the authorities. Investigators, however, took
statements from three other men thought to
have been involved in the crime: Jesse

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 48

4

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

Carranco, Reuben Rocha, and Noe Flores.
Each admitted some involvement, and each
reported Townley was the fourth participant.
Each man, including Townley, was charged
with premeditated attempted murder with
enhancements for personal use of a firearm,
discharge of a firearm, discharge of a firearm
causing injury, and infliction of great bodily
injury. (Pen.Code, §§ 187, 664, 12022.5,
subd. (a)(1), 12022.53, subds. (b), (c), (d),
12022.7, subd. (a).)

Townley successfully moved to sever his trial
from that of his codefendants. Later, during
closed proceedings, Flores and Rocha
pleaded guilty to assault with a deadly
weapon. (Pen.Code, § 245, subd. (a)(2).) The
other charges against them were dismissed.
As part of the plea agreements, the
prosecutor required each man to execute a
short declaration about the events of
February 17, 2006. It does not appear the
prosecutor sought the declarations to use
against Townley or Carranco; rather, she
sought to impress on *1101 each declarant
that he could be charged with perjury if he
attempted to undermine the prosecution's
case against Townley or Carranco by
testifying contrary to the facts recited in his
declaration. The trial court, concerned that
Flores and Rocha would be vulnerable
***609 to retaliation if the existence or
contents of their declarations were revealed
outside of the plea proceedings, ordered that
the declarations and transcripts of the plea
proceedings be sealed. It ordered, further,
that they were to remain sealed unless
either man appeared as a witness in the trial
of Townley or Carranco, at which point the
sealed materials relating to that man's plea
were to be made available to defense counsel
and could be used by either the defense or

the prosecution
impeachment.

for

purposes

of

Townley's and Carranco's cases were then
consolidated and tried to a jury. The defense
attorneys were provided with summaries of
police interviews of Rocha and Flores and a
copy of Flores's tape-recorded interview, but
they were not given anything related to the
plea proceedings. The attorneys, who
nonetheless knew of the declarations, asked
the court to revoke the order forbidding their
discovery. The court denied the request.
Observing that the sealing order had been
entered in other proceedings, the court
expressed doubt it had the power to modify
or revoke the order in the absence of the
declarants and their attorneys and without
their consent. The court then ordered the
attorneys not to disclose the existence or the
contents of the declarations to their clients,
investigators, or any other persons, but
indicated it would revisit the matter if Rocha
or Flores testified.

Rocha did not appear at the trial, but Flores
appeared as a witness for the prosecution
and provided testimony that was essentially
consistent with, but more detailed than, the
information he had provided to police
investigators. At the end of the first day of
Flores's testimony, in the jury's absence, the
court ordered the prosecution to provide
copies of Flores's sealed declaration to
defense counsel “to provide for adequate
cross-examination of Mr. Flores.” But it
again prohibited counsel from sharing the
statements with their clients, investigators,
or other attorneys and further ordered that
the statements be used solely “for purposes
of cross-examination.” Both defense

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 49

5

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

attorneys used Flores's declaration to
impeach
him,
establishing
discrepancies**1116 between it and his trial
testimony. For example, witnesses to the
shooting reported that the man who shot
Lazaro wore a red-and-black plaid shirt or
jacket. Flores testified he had worn a blue or
black shirt and Townley had worn a
red-and-black flannel shirt. Defense counsel
brought out that in his declaration Flores
had asserted he had worn a red-and-black
Pendleton shirt.

The jury returned a verdict finding Townley
guilty of attempted premeditated murder. It
also found true the enhancement allegations
of personal use of a firearm and infliction of
great bodily injury.

*1102 The Court of Appeal reversed. It found
an absence of good cause for the order
sealing Flores's declaration and the
transcript of his plea proceedings, concluding
the order therefore unjustifiably interfered
with Townley's access to his attorney.2 The
court then held that the trial court's order
barring defense counsel from discussing the
declaration with Townley violated Townley's
right to counsel under the Sixth Amendment
to the United States Constitution, requiring
automatic reversal without a showing of
prejudice resulting from the trial court's
error. We disagree.

DISCUSSION

I.
The Sixth Amendment to the United States
Constitution provides: “In all criminal
***610 prosecutions, the accused shall enjoy
the right ... to have the assistance of counsel
for his defense.” As the Supreme Court has
stated: “An accused's right to be represented
by counsel is a fundamental component of
our criminal justice system. Lawyers in
criminal cases ‘are necessities, not luxuries.’
Their presence is essential because they are
the means through which the other rights of
the person on trial are secured. Without
counsel, the right to a trial itself would be ‘of
little avail’ .... ‘Of all the rights that an
accused person has, the right to be
represented by counsel is by far the most
pervasive for it affects his ability to assert
any other rights he may have.’ ” (United
States v. Cronic (1984) 466 U.S. 648,
653–654, 104 S.Ct. 2039, 80 L.Ed.2d 657,
fns. omitted (Cronic ).)

In Geders v. United States (1976) 425 U.S.
80, 96 S.Ct. 1330, 47 L.Ed.2d 592 (Geders ),
the Supreme Court held that a trial court's
order violated the Sixth Amendment when it
barred the defendant from discussing the
case with his attorney during a 17-hour
overnight recess called after the first day of
the defendant's testimony. The court
recognized valid reasons exist for
sequestering a witness3 but held that when
the purpose served by sequestration conflicts
with “the defendant's right to consult with
his attorney during a long overnight recess
in the trial, ... the conflict must, under the
Sixth Amendment, be resolved in favor of the
right to the assistance and guidance of
counsel.” (Geders, at p. 91, 96 S.Ct. 1330.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 50

6

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

Turning to the order before it, the court
explained: “It is common practice during
such recesses for an accused and counsel to
discuss the events of the day's trial. Such
recesses are often *1103 times of intensive
work, with tactical decisions to be made and
strategies to be reviewed. The lawyer may
need to obtain from his client information
made relevant by the day's testimony, or he
may need to pursue inquiry along lines not
fully explored earlier. At the very least, the
overnight recess during trial gives the
defendant a chance to discuss with counsel
the significance of the day's events. Our
cases recognize that the role of counsel is
important precisely because ordinarily a
defendant is ill-equipped to understand and
deal with the trial process without a lawyer's
guidance.”(Id. at p. 88, 96 S.Ct. 1330.) The
court has since clarified that in Geders it
established a rule of reversal per se. (E.g.,
Mickens v. Taylor (2002) 535 U.S. 162, 166,
122 S.Ct. 1237, 152 L.Ed.2d 291 [“We have
spared the **1117 defendant the need of
showing probable effect upon the outcome,
and have simply presumed such effect,
where assistance of counsel has been denied
entirely or during a critical stage of the
proceeding.”].)

Geders left two questions unanswered. By
emphasizing the length of the sequestration
order and the complete ban on
attorney-client communications during a
critical period of the trial proceedings, the
Supreme Court left open the possibility that
the Sixth Amendment might not be violated
by some lesser interference with a client's
ability to consult with counsel. With respect
to this point, it is perhaps significant that
the majority opinion did not embrace the
expansive view of the concurring justices

that “the general principles adopted by the
Court today are fully applicable to the
analysis of any order barring communication
between a defendant and his attorney, at
least where that communication would not
interfere with ***611 the orderly and
expeditious progress of the trial.” (Geders,
supra, 425 U.S. at p. 92, 96 S.Ct. 1330 (conc.
opn. of Marshall, J., joined by Brennan, J.).)
The high court also did not discuss whether
reversal without inquiry into resulting
prejudice is appropriate in all cases of
unwarranted interference with the right to
counsel.

In Cronic, supra, 466 U.S. 648, 104 S.Ct.
2039, the Supreme Court provided a partial
answer to both questions. The district court
in that case had appointed an inexperienced
attorney to represent the defendant after the
defendant's first attorney had withdrawn,
and had allowed the new attorney only 25
days to prepare for trial. (Id. at p. 649, 104
S.Ct. 2039.) The Tenth Circuit reversed the
defendant's conviction, finding the
circumstances mandated an inference that
counsel had been unable to discharge his
duties and thus the district court's actions
violated the defendant's constitutional right
to counsel. (Id. at pp. 650, 658, 104 S.Ct.
2039.) The Supreme Court reversed. It
affirmed that the Sixth Amendment
guarantees not only the right to the
assistance of counsel but also the right to
*1104 the effective assistance of counsel
(Cronic, at pp. 654–656, 104 S.Ct. 2039),
which is “the right of the accused to require
the prosecution's case to survive the crucible
of meaningful adversarial testing” (id. at p.
656, 104 S.Ct. 2039), but the court also
explained that not every unwarranted
imposition on an attorney's ability to fully

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 51

7

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

represent his or her client violates the Sixth
Amendment. Thus, “the right to the effective
assistance of counsel is recognized not for its
own sake, but because of the effect it has on
the ability of the accused to receive a fair
trial. Absent some effect of challenged
conduct on the reliability of the trial process,
the Sixth Amendment guarantee is generally
not implicated.” (Cronic, at p. 658, 104 S.Ct.
2039.)

The Supreme Court explained that in most
cases the defendant bears the burden of
showing that the challenged conduct affected
the reliability of the trial process. (Cronic,
supra, 466 U.S. at p. 658, 104 S.Ct. 2039.)
But it further held: “There are, however,
circumstances that are so likely to prejudice
the accused that the cost of litigating their
effect in a particular case is unjustified. [¶]
Most obvious, of course, is the complete
denial of counsel. The presumption that
counsel's assistance is essential requires us
to conclude that a trial is unfair if the
accused is denied counsel at a critical stage
of his trial. Similarly, if counsel entirely fails
to subject the prosecution's case to
meaningful adversarial testing, then there
has been a denial of Sixth Amendment
rights that makes the adversary process
itself presumptively unreliable.” (Id. at pp.
658–659, 104 S.Ct. 2039, fns. omitted.)

In a supporting footnote, the court observed
it had “uniformly found constitutional error
without any showing of prejudice when
counsel was either totally absent, or
prevented from assisting the accused during
a critical stage of the proceeding.” (Cronic,
supra, 466 U.S. at p. 659, fn. 25, 104 S.Ct.
2039.) It provided examples of instances

where the government's interference with
counsel's ability to render effective
assistance justified a presumption of
prejudice: Geders, supra, 425 U.S. 80, 96
S.Ct. 1330 (bar on attorney-client
consultation during overnight recess);
Herring v. New York (1975) 422 U.S. 853, 95
S.Ct. 2550, 45 L.Ed.2d 593 (bar on
summation at bench trial); Brooks v.
Tennessee (1972) 406 U.S. 605, 612–613, 92
S.Ct. 1891, 32 L.Ed.2d 358 (requirement
that defendant **1118 be the first defense
witness); White v. Maryland (1963) 373 U.S.
59, 60, 83 S.Ct. 1050, 10 L.Ed.2d 193 (denial
of counsel at preliminary hearing); ***612
Hamilton v. Alabama (1961) 368 U.S. 52, 55,
82 S.Ct. 157, 7 L.Ed.2d 114 (denial of
counsel at arraignment); Ferguson v. Georgia
(1961) 365 U.S. 570, 593–596, 81 S.Ct. 756,
5 L.Ed.2d 783 (defense counsel barred from
questioning defendant at trial); Williams v.
Kaiser (1945) 323 U.S. 471, 475–476, 65
S.Ct. 363, 89 L.Ed. 398 (guilty plea taken
after defendant requested but was denied
counsel). (Cronic, at p. 659, fn. 25, 104 S.Ct.
2039.) In the following footnote the court
explained: “Apart from circumstances of that
magnitude, however, there is generally no
basis for finding a Sixth Amendment
violation unless the accused can show how
specific errors of counsel undermined the
reliability of the finding of guilt.” (Id. at p.
659, fn. 26, 104 S.Ct. 2039.) It further
observed: “Circumstances of that magnitude
may be present on some occasions when
although counsel is available to assist the
accused during trial, the likelihood that any
lawyer, even a fully competent one, could
provide effective assistance is so small that
a presumption of prejudice is *1105
appropriate without inquiry into the actual
conduct of the trial.” (Id. at pp. 659–660, 104

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 52

8

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

S.Ct. 2039.) The Cronic court concluded the
circumstances before it did not justify a
presumption of prejudice. It therefore
remanded the matter to allow the defendant
to identify specific instances of
ineffectiveness that could then be evaluated
under the standards the court enunciated
the same day in Strickland v. Washington
(1984) 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (Strickland ). (Cronic, at pp.
662–666 & fn. 41, 104 S.Ct. 2039.)

In Strickland, the court stated the now
familiar test that a defendant claiming the
ineffective assistance of counsel is required
to show both that counsel's performance was
deficient and that counsel's errors prejudiced
the defense. (Strickland, supra, 466 U.S. at
p. 687, 104 S.Ct. 2052.) The court explained:
“This requires showing that counsel's errors
were so serious as to deprive the defendant
of a fair trial, a trial whose result is
reliable.” (Ibid.) Further, also relevant to the
issue presented here, the court again
explained prejudice is presumed in certain
Sixth Amendment contexts, such as those it
had identified in Cronic, supra, 466 U.S. at
page 659, footnote 25, 104 S.Ct. 2039,
because “[p]rejudice in these circumstances
is so likely that case-by-case inquiry into
prejudice is not worth the cost. [Citation.]
Moreover, such circumstances involve
impairments of the Sixth Amendment right
that are easy to identify and, for that reason
and because the prosecution is directly
responsible, easy for the government to
prevent.” (Strickland, at p. 692, 104 S.Ct.
2052.)

In United States v. Gonzalez–Lopez (2006)
548 U.S. 140, 126 S.Ct. 2557, 165 L.Ed.2d

409, the Supreme Court clarified the reason
for requiring a showing of resulting prejudice
when the claim is a deprivation of the
effective assistance of counsel. It explained
that the Sixth Amendment right to counsel
has two aspects: the right to counsel derived
from the “root meaning” of the amendment
(id. at pp. 147–148, 126 S.Ct. 2557), which
includes the right to counsel of choice, and
the right to a fair trial guaranteed through
the due process clause but defined through
the Sixth Amendment. The high court
explained that where the right to be assisted
by counsel of one's choice is wrongly denied,
inquiry into resulting prejudice is
unnecessary to establish a Sixth Amendment
violation. (Gonzalez–Lopez, at pp. 146–148,
126 S.Ct. 2557.) But, “[c]ounsel cannot be
‘ineffective’ unless his mistakes have harmed
the defense (or, at least, unless it is
reasonably likely that they have). Thus, a
violation of the Sixth Amendment right to
effective representation is not ‘complete’ until
the defendant is prejudiced.” ***613 (Id. at
p. 147, 126 S.Ct. 2557; and see Strickland,
supra, 466 U.S. at p. 685, 104 S.Ct. 2052.)

II.
[1] Turning to the present case, Townley was
provided with appointed counsel, who
appeared at all critical times and actively
represented him throughout the *1106
proceedings. As an indigent defendant,
Townley was not entitled to select an
attorney (People v. Jones (2004) 33 Cal.4th
234, 244, 14 Cal.Rptr.3d 579, 91 P.3d 939;
Drumgo v. Superior Court (1973) 8 Cal.3d
930, 934, 106 Cal.Rptr. 631, 506 P.2d 1007),
and he makes no claim he **1119 was

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 53

9

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

deprived of his counsel of choice.
Accordingly, there was no violation of the
right to counsel derived from the root
meaning of the Sixth Amendment to the
United States Constitution. The trial court's
order, which implicated only that aspect of
the Sixth Amendment protecting Townley's
right to the effective assistance of counsel,
amounts to constitutional error only if
Townley suffered resulting prejudice.

[2] The burden of establishing prejudice falls
on Townley unless the circumstances are
comparable in magnitude to those presented
in Geders, supra, 425 U.S. 80, 96 S.Ct. 1330,
by rendering the adversarial process
presumptively unreliable, such as where an
accused is denied counsel at a critical stage
of trial, or counsel entirely fails or is unable
to subject the prosecution's case to
meaningful adversarial testing. (Cronic,
supra, 466 U.S. at p. 659 & fns. 25, 26, 104
S.Ct. 2039.) The circumstances of this case
do not rise to that standard.

The Supreme Court has explained that the
phrase “ ‘a critical stage’ ” was used in
Cronic “to denote a step of a criminal
proceeding, such as arraignment, that held
significant consequences for the accused.”
(Bell v. Cone (2002) 535 U.S. 685, 695–696,
122 S.Ct. 1843, 152 L.Ed.2d 914.) Here,
defense counsel was present during all
critical stages of the trial and Townley at all
times had access to his attorney, including
during and after Flores's testimony. In
contrast to the situation in Geders, supra,
425 U.S. 80, 96 S.Ct. 1330, where the
defendant was prevented from discussing the
events of a day's trial, Townley was at all

times free to consult with his attorney
generally about trial tactics and defense
strategy, and although he was not fully
informed about Flores's probable testimony
before Flores took the stand, he was not
prevented from discussing how to respond to
Flores's testimony after hearing it.

[3] A defendant claiming counsel failed or
was unable to subject the prosecution's case
to meaningful adversarial testing is relieved
from the burden of showing prejudice only if
“ ‘counsel entirely fails to subject the
prosecution's case to meaningful adversarial
testing.’ ” (Bell v. Cone, supra, 535 U.S. at p.
696, 122 S.Ct. 1843, italics added, quoting
Cronic, supra, 466 U.S. at p. 659, 104 S.Ct.
2039.) Prejudice must be shown if counsel
has opposed the *1107 prosecution
throughout the relevant proceeding, even if
counsel failed or was unable to do so at
specific points. (Bell, at pp. 696–697, 122
S.Ct. 1843.)4 Townley's ***614 attorney
opposed the prosecution throughout the
proceedings. That he was unable to discuss
Flores's sealed declaration and the sealed
transcript of the related plea proceedings
does not mean he entirely failed to subject
the prosecution's case to adversarial testing
and therefore does not justify reversal
without a showing of prejudice.

[4] Finally, the circumstances present here
do not render it so likely Townley was
deprived of the effective assistance of counsel
as to entitle him to a presumption of
prejudice without inquiry into the actual
conduct of the trial. (Cronic, supra, 466 U.S.
at p. 659, 104 S.Ct. 2039.) “As the high court
pointed out in Mickens, the presumption of
prejudice is a prophylactic measure

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Appendix 54

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

established to address ‘situations where
Strickland[, supra, 466 U.S. 668, 104 S.Ct.
2052,] itself is evidently inadequate to
assure vindication of the defendant's Sixth
Amendment right to counsel.’ (Mickens[ v.
Taylor ], supra, 535 U.S. at p. 176 [122 S.Ct.
1237].) Only when the court concludes that
the possibility of prejudice and the
corresponding difficulty in demonstrating
such prejudice are sufficiently great
compared to other more customary
assessments of the detrimental effects of
deficient performance by defense counsel,
must the presumption be applied in order to
safeguard the defendant's fundamental right
to the effective assistance of **1120 counsel
under the Sixth Amendment.” (People v.
Rundle (2008) 43 Cal.4th 76, 173, 74
Cal.Rptr.3d 454, 180 P.3d 224.)

Here, in contrast to the above mentioned
examples provided by the court in Cronic,
supra, 466 U.S. at page 659, footnote 25, 104
S.Ct. 2039 (see ante, 139 Cal.Rptr.3d at p.
611, 273 P.3d at p. 1117), where the nature
of the imposition on the right to counsel
made it difficult to assess its effect on the
outcome of the trial, Townley's complaint is
susceptible to harmless error analysis. The
primary value of the sealed materials to
Townley was their usefulness as tools of
impeachment during cross-examination,
either to highlight discrepancies between the
facts Flores recited in his declaration and his
testimony at trial, or to support the
argument Flores had fashioned a declaration
favorable to himself and must have then felt
compelled to testify in accordance with that
declaration. Counsel's inability to consult
with Townley about the materials would not
have hampered his ability to make either
point.5

*1108 [5] We observe that the Supreme
Court has held prejudice will not be
presumed for purposes of due process
through t he Si x t h Am endm e nt's
confrontation clause even when the
defendant has been denied any opportunity
to impeach a witness for bias. (Delaware v.
Van Arsdall (1986) 475 U.S. 673, 684, 106
S.Ct. 1431, 89 L.Ed.2d 674 [trial court
barred all inquiry into the possibility that a
prosecution witness would be biased as a
result of the state's dismissal of a pending
charge against him].) As the court explained
there: “Whether such an error is harmless in
a particular case depends upon a host of
factors, all readily accessible to reviewing
courts. These factors include the importance
of the witness' testimony in the prosecution's
case, whether the testimony was cumulative,
the presence or absence of evidence
corroborating or contradicting the ***615
testimony of the witness on material points,
the extent of cross-examination otherwise
permitted, and, of course, the overall
strength of the prosecution's case.” (Ibid. at
p. 684, 106 S.Ct. 1431.) It also has been held
that under some circumstances an order
limiting the ability of a defendant to consult
with his attorney about some portion of the
evidence may be justified. (See U.S. v.
Moussaoui (4th Cir.2010) 591 F.3d 263, 289,
and cases cited there.) That holding is
inconsistent with the conclusion such a
restriction presumptively deprives a
defendant of a fair trial. Finally, although
the suppression by the prosecution of
evidence that might be used to impeach a
prosecution witness may violate due process
(Brady v. Maryland (1963) 373 U.S. 83, 87,
83 S.Ct. 1194, 10 L.Ed.2d 215), it is
unconstitutional only if the evidence is

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Appendix 55

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

“material” under the Strickland formulation:
there is a reasonable probability that, absent
the error, the fact finder would have had a
reasonable doubt respecting guilt. (Kyles v.
Whitley (1995) 514 U.S. 419, 433, 115 S.Ct.
1555, 131 L.Ed.2d 490; United States v.
Bagley (1985) 473 U.S. 667, 682, 105 S.Ct.
3375, 87 L.Ed.2d 481; Strickland, supra, 466
U.S. at p. 694, 104 S.Ct. 2052.) There is no
reason in logic to require a showing of
prejudice to establish reversible error when
impeaching evidence is withheld from a
defendant and the defendant's attorney, but
to presume prejudice when impeaching
evidence is withheld only from the
defendant, even if it was the trial court and
not the prosecution that prevented the
defendant from learning about the evidence.

We find, for the above stated reasons, that
the circumstances present here are not
comparable in magnitude to those in Geders,
supra, 425 U.S. 80, 96 S.Ct. 1330, or to the
other cases cited in Cronic, supra, 466 U.S.
at page 659, footnote 25, 104 S.Ct. 2039, and
thus do not justify a presumption of
prejudice.

Townley, however, asserts that settled law
establishes a rule of reversal per se for any
improper restriction on attorney-client
communications. To support this assertion,
he chiefly relies on language from Perry v.
Leeke (1989) 488 U.S. 272, 109 S.Ct. 594,
102 L.Ed.2d 624. The Supreme Court in that
case found a complete ban on attorney-client
communication during a 15-minute recess at
**1121 the end of the defendant's direct
testimony was *1109 not an unwarranted
imposition on the right to counsel. (Id. at pp.

280–285, 109 S.Ct. 594.) But in so finding, it
distinguished Geders, supra, 425 U.S. 80, 96
S.Ct. 1330, explaining: “The interruption in
Geders was of a different character because
the normal consultation between attorney
and client that occurs during an overnight
recess would encompass matters that go
beyond the content of the defendant's own
testimony—matters that the defendant does
have a constitutional right to discuss with
his lawyer, such as the availability of other
witnesses, trial tactics, or even the
possibility of negotiating a plea bargain.It is
the defendant's right to unrestricted access to
his lawyer for advice on a variety of
trial-related matters that is controlling in the
context of a long recess.” (Perry, at p. 284, 109
S.Ct. 594, italics added.) Townley reads this
explanation to state that any and all
unwarranted court-imposed restrictions on
communications between attorney and client
violate Geders. We disagree.

The word “unrestricted” was used in the
context of Geders's complete bar to access to
counsel for any and all purposes. Geders thus
can be interpreted to explain that the Sixth
Amendment is violated when the restriction
on access to counsel was so profound as to
create an inference that the defendant's
attorney was unable to perform the essential
functions of trial counsel. ***616 This
interpretation is confirmed by the Perry
court's explanation, at a different point in
the opinion, that the disposition in Geders
was consistent with the court's later decision
in Strickland, supra, 466 U.S. 668, 104 S.Ct.
2052, where it cited Geders as an example of
a case where a defendant was able to
establish a Sixth Amendment violation
without a showing of actual prejudice. The

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Appendix 56

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

court explained: “Our citation of Geders in
this context was intended to make clear that
‘[a]ctual or constructive denial of the
assistance of counsel altogether,’ [citation], is
not subject to the kind of prejudice analysis
that is appropriate in determining whether
the quality of a lawyer's performance itself
has been constitutionally ineffective.” (Perry
v. Leeke, supra, 488 U.S. at p. 280, 109 S.Ct.
594, italics added.) The order here, which at
most prevented defense counsel from fully
discussing the anticipated testimony of a
single prosecution witness, albeit one key to
the prosecution, cannot reasonably be
characterized as the denial of the assistance
of counsel altogether.

Townley nevertheless asserts that
unrestricted communication about the sealed
material might have led to changes in
strategy or identification or production of
other witnesses, or might have altered plea
negotiations. He complains that requiring
him to show the existence of such matters
would of necessity reveal strategy and other
privileged information, and thus would
unfairly prejudice him upon retrial. But the
same argument can be made in many cases
of claimed attorney ineffectiveness. In
Cronic, for example, the court-imposed
limitations on counsel's ability to prepare for
trial likely affected trial strategy, witness
preparation, and plea negotiations. Yet the
Supreme Court declined to presume a Sixth
Amendment violation and remanded the
case so the defendant might specify exactly
how the trial *1110 court's order had
deprived him of the effective assistance of
counsel. (Cronic, supra, 466 U.S. at pp.
666–667, 104 S.Ct. 2039.)

Townley further observes that several
appellate courts have applied Geders' s rule
of reversal per se in cases where the trial
court, although not restricting the
defendant's access to his or her attorney
during a recess from the proceedings, barred
any discussion of the defendant's ongoing
testimony. (E.g., Martin v. U.S. (D.C.2010)
991 A.2d 791, 793; U.S. v. Cobb (4th
Cir.1990) 905 F.2d 784, 791–792; Mudd v.
U.S. (D.C.Cir.1986) 798 F.2d 1509,
1512–1515.) We need not address the merits
of these decisions because they are
distinguishable. The harm from preventing
an accused from speaking with his or her
attorney about his or her own testimony
extends further than that attending
court-imposed limitations
on
communications about a nondefendant
witness, and is also more difficult to
quantify. As the Fourth Circuit explained, to
remove from the accused “the ability to
discuss with his attorney any aspect of his
ongoing testimony effectively eviscerated his
ability to discuss and plan trial strategy. To
hold otherwise would defy reason. How can
competent counsel not take **1122 into
consideration the testimony of his client in
deciding how to try the rest of the case?”
(Cobb, at p. 792.) And in Mudd, the District
of Columbia Circuit observed: “Even though
[the defendant] was free to discuss strategy
and tactics, there are obvious, legitimate
reasons he may have needed to consult with
counsel
about
his
upcoming
cross-examination. For example, [the
defendant's] lawyer may have wanted to
warn defendant about certain questions that
would raise self-incrimination concerns, or
questions that could lead [the defendant] to
mention excluded evidence. More generally,
defendant may have needed advice on
demeanor or speaking style, a task made

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Appendix 57

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

more difficult if specific testimony could not
be mentioned.” ***617 (Mudd, at p. 1512.)
Such considerations are not present here.

CONCLUSION
[6] [7] The Court of Appeal found the trial
court erred by prohibiting Townley's
attorney from discussing Flores's sealed
declaration with Townley or any other
person. No party has challenged that
finding, and we therefore accept and express
no opinion on it. As we have explained,
however, the appellate court's further
conclusion that the error violated Townley's
right to counsel under the Sixth Amendment
to the United States Constitution without
any showing of resulting prejudice was
incorrect. The trial court's order implicated
only that aspect of the Sixth Amendment
right to counsel defining the right to a fair
trial guaranteed through the due process
clause. Because a violation of that aspect of
the Sixth Amendment is not “complete” until
the defendant is prejudiced, an inquiry into
resulting prejudice is required unless the
circumstances are so likely to have
undermined the reliability of the *1111
finding of guilt as to justify a presumption of
prejudice. As we have also explained, not all
unwarranted interference with a client's
ability to consult with counsel justifies a
presumption of prejudice, requiring per se
reversal. Where, as here, the interference
prevents counsel from consulting with a
client about a specific piece of evidence, a
presumption of prejudice is not justified; the
error is reversible only upon a showing of
prejudice, as would be the case if
prosecutorial misconduct suppressed the

evidence altogether. Townley therefore may
obtain reversal only by showing, in
accordance with the standard stated in
Strickland, supra, 466 U.S. at pages
686–687, 104 S.Ct. 2052, that the trial
court's order deprived him of the effective
assistance of counsel and there is a
reasonable probability that, but for the error,
the result of the trial would have been
different.

DISPOSITION
The judgment of the Court of Appeal is
reversed. The case is remanded to that court
to conduct further proceedings consistent
with this opinion.

Cantil–Sakauye, C.J., Kennard, J. Baxter, J.
Chin, J. Corrigan, J. and Liu, J.

All Citations
53 Cal.4th 1095, 273 P.3d 1113, 139
Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv.
4257, 2012 Daily Journal D.A.R. 4970

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Appendix 58

People v. Hernandez, 53 Cal.4th 1095 (2012)
273 P.3d 1113, 139 Cal.Rptr.3d 606, 12 Cal. Daily Op. Serv. 4257...

Footnotes
1

In accordance with the parties' practice, we refer to defendant as Townley.

2

We accept and express no opinion on the appellate court's conclusions on these points,
as no party has challenged them.

3

The court explained that sequestration may restrain witnesses from tailoring their
testimony to that of earlier witnesses, may aid in detecting testimony that is less than
candid, and may prevent improper attempts to influence a witness's testimony in light
of the testimony already given. (Geders, supra, 425 U.S. at p. 87, 96 S.Ct. 1330.)

4

Because a defendant is relieved from the burden of showing prejudice only if counsel
entirely fails to subject the prosecution's case to meaningful adversarial testing, we
need not consider whether, as Townley contends, the trial court's order might have
been interpreted to bar defense counsel from discussing anything referenced in the
sealed documents, even if the same material also appeared in unsealed materials such
as Flores's statement to the police. The order, even if so broadly construed, did not
prevent counsel from opposing the prosecution throughout the proceedings. Nor was
counsel prevented from vigorously cross-examining Flores or from mentioning Flores's
declaration during the course of that cross-examination.

5

Townley asserts that Flores's declaration contains at least 22 distinct details not
contained in the police reports. But the very ease with which these details may be
identified works against his argument that it would be difficult to assess the
prejudicial effect of the trial court's order.

End of Document

© 2020 Thomson Reuters. No claim to original
U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Appendix 59

APPENDIX E

Appendix 60

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

that:

KeyCite Red Flag - Severe Negative
Treatment
Judgment Reversed by People v. Hernandez,
Cal., April 19, 2012
101 Cal.Rptr.3d 414
Review Granted
Previously published at: 178 Cal.App.4th
1510
(Cal.Const. art. 6, s 12; Cal. Rules of Court,
Rules 8.500, 8.1105 and 8.1110,
8.1115, 8.1120 and 8.1125)
Court of Appeal, Sixth District, California.

The PEOPLE, Plaintiff and Respondent,
v.
Jacob Townley HERNANDEZ, Defendant
and Appellant.
No. H031992.
|
Nov. 9, 2009.
|
Review Granted Feb. 24, 2010.

Synopsis
Background: Defendant was convicted in
the Superior Court, Santa Cruz County, No.
F12934, Jeff Almquist, J., of premeditated
attempted murder, with findings that he
personally used a gun and personally
inflicted great bodily injury. Defendant
appealed.

Holdings: The Court of Appeal, Elia, J., held

gag order regarding cooperating witness's
declaration violated defendant's right to
consult with counsel;

such violation of defendant's right to consult
with counsel required reversal even without
showing of prejudice; but

plea bargain requiring cooperating witness
to tell judge that his declaration was
truthful did not place witness under strong
compulsion rendering his testimony
inadmissible;

unsigned early drafts of accomplices'
witness declarations were not subject to
disclosure;

defendant's absence from hearings at which
witness declarations were discussed did not
violate defendant's right to be present
during proceedings;

any error was harmless beyond reasonable
doubt in admitting witness's assertedly
coerced statement;

statement by witness who had been
arrested for denying knowledge of the
attempted murder was not unduly coerced;

trial court had no duty to instruct jury sua
sponte on voluntary intoxication;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 61

1

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

jury instructions on lesser offenses did not
eliminate prosecution's burden of proof on
intent for attempted murder;

gang evidence was not unduly prejudicial;
and

valid probation search condition attenuated
any illegality in arrest that led to discovery
of concealed gun.
Reversed.

Attorneys and Law Firms

subdivision (c); § 12022.7, subd. (a).) On
appeal, he raises numerous issues bearing
on his right to consult with counsel,
admission of statements made by witnesses
in police interviews, prosecutor misconduct,
improper judicial comments, admission of
gang evidence, and jury instructions. He
further challenges the denial of his pretrial
motion to suppress evidence obtained as a
result of his detention. On July 23, 2009,
this court filed an unpublished opinion
affirming the judgment. On August 14,
2009, we granted Townley's petition for
rehearing to give more attention to a gag
order that prevented defense counsel from
discussing the contents of two declarations
by witnesses with Townley. Upon further
*419 review, for the reasons stated below,
we will reverse the judgment.1

*418 Marc J. Zilversmit, San Francisco, for
Appellant.
Edmund G. Brown, Jr., Attorney General,
Dane R. Gillette, Chief Assistant Attorney
General, Gerald A. Engler, Sr. Assistant
Attorney General, Laurence K. Sullivan and
Amy Haddix, Deputy Attorneys General, for
Respondent.
Opinion
ELIA, J.
After a jury trial defendant Jacob Townley
Hernandez (Townley) was convicted of
premeditated attempted murder, in
violation of Penal Code sections 187,
subdivision (a), and 664. The jury also found
true the allegations that Townley had
personally used a gun and had personally
inflicted great bodily injury in committing
the crime. (Pen.Code, § 12022.53,

I. Background
Seventeen-year-old Townley was accused by
information with attempted murder,
committed with three accomplices:
18–year–old Jose Ruben Rocha, 16–year–old
Jesse Carranco, and 18–year–old Noe
Flores. The charges arose from the shooting
of Javier Zurita Lazaro around 9:00 p.m. on
February 17, 2006. In a telephone call at
about 7:00 p.m. that night, Townley asked
Flores to “do a ride.” Flores drove his 1992
white Honda Accord to pick up Townley and
his girlfriend, Amanda Johnston, in Santa
Cruz. Once in the car, Townley showed
Flores a small black handgun, which Flores
handled and returned to Townley.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 62

2

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Townley directed Flores to drive to
Watsonville, where they picked up Carranco
(known as “Little Huero”) and Rocha
(known as “Listo”), whom Flores had not
met before. Townley was wearing People's
Exhibit 23, a red and black plaid flannel
jacket, which Johnston had given him as a
gift. Carranco wore a red hooded sweatshirt;
he had four dots tattooed on his knuckles,
signifying his association with the Norteno
gang. Flores wore black sweatpants, a white
T-shirt, gloves, and a black zip-up hooded
sweatshirt. Rocha wore a black flannel
jacket with white in it.

The group then drove back to Santa Cruz,
dropping Johnston off before heading
downtown. They went to an apartment on
Harper Street where Anthony Gonzalez
lived. About 20 minutes later, the four drove
toward the Ocean Terrace apartments,
located at the corner of Merrill Street and
17th Avenue in an area known as Sureno
gang territory. As they were moving down
17th Avenue, they saw Javier Lazaro on the
sidewalk across the street, walking back to
his apartment at the Ocean Terrace
complex. Lazaro, aged 29, was not
associated with any gang, but the
sweatshirt he wore was blue, the color
associated with the Surenos. Carranco told
Flores in a “[k]ind of urgent” voice to turn
around and pull over, and Flores did so.
Grabbing a T-ball bat that Flores kept in
the front passenger area, Carranco jumped
out of the car, along with Townley and
Rocha. Flores waited in the driver's seat
with the engine running. He heard what
sounded like firecrackers; then the three
others ran back to the car and Carranco told

him “urgently” to go. Flores drove away
rapidly with his passengers and followed
Carranco's directions back to Gonzalez's
apartment.

Lazaro testified that as he was walking
back to his apartment he heard three or four
voices from inside Flores's car, and then
someone yelled, “Come here.” He thought it
was directed at someone else, so he
continued walking without turning around.
Just as he reached the parking lot of the
apartment complex, he saw the group get
out of the car and run across the street
toward him. They asked him whether he
was Norteno or Sureno. At that point
Lazaro was frightened and ran, until he felt
something push him to the ground. Lazaro
received five gunshot wounds, including a
fractured rib and a bruised lung. Two
bullets remained in his body.

Lazaro did not see who shot him, but Ginger
Weisel, Lazaro's neighbor, was in the
parking lot when Lazaro walked away from
the group. She heard them call out “fucking
scrap” and ask where Lazaro was from
before seeing one of them shoot Lazaro six
to eight times. Lazaro fell after *420 about
four shots. Weisel recalled that the shooter
was about five feet, nine inches tall 2 and
wore a red and black plaid Pendleton shirt.
Weisel called 911 from her apartment and
returned to help Lazaro.

David Bacon was driving on 17th Avenue
when he saw Flores's car parked in a
no-parking zone. He saw what appeared to
be two Latino males of high school age,
about five feet 10 inches tall. Seconds later

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 63

3

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

he heard snapping sounds and saw one of
the group standing in a “classic shooting
position,” holding a gun. He heard a total of
five or six shots from what appeared to be a
small-caliber gun. Bacon had the impression
that the shooter wore a plaid jacket, which
could have been People's Exhibit 22. The
second man appeared to be a lookout. Bacon
then saw two people run back to the car,
which sped away. He parked his car, called
911, and returned to help Lazaro, who was
lying on the ground with two women
tending to him. Emergency personnel
arrived within a minute after the last shot.

Susan Randolph stepped outside her home
on 17th Avenue when she heard the
gunshots. She described the three as young
Latinos between 16 and 20 years old,
ranging from five feet, six inches to five feet,
nine inches.

Julie Dufresne was driving on 17th Avenue
with Jeanne Taylor when she heard popping
noises that sounded like fireworks, followed
immediately by three people running across
the street in front of her car. They were all
about her height, five feet nine or 10 inches,
or probably shorter, and they appeared to be
between 15 and 20 years old. One wore a
thin, red and black plaid flannel jacket.

Taylor thought there were five popping
sounds, followed by the “three young men”
running across the street in front of the car.
One of them was less than five feet, five
inches and wore what looked like a plaid
Pendleton shirt in black and red. He
appeared to be staggering as if he were
drunk or “having difficulty with his

coordination.” The other two were taller;
one wore a white and black plaid shirt,
People's Exhibit 22, and the other a hooded
sweatshirt. When they reached the white
car, one went to the backseat on the driver's
side, and the other two went around to the
passenger side. Taylor thought that People's
Exhibit 23 looked like the red and black
shirt the “shorter person” had been wearing;
Dufresne “couldn't say for sure.”

Randi Fritts–Nash was one of the teenagers
drinking at the Harper Street apartment.
Sitting in Gonzalez's bedroom with five
others, she heard a car pull into the parking
lot, followed by a couple of knocks at the
window. Gonzalez went to the window and
then left the room. Before he left,
Fritts–Nash heard the anxious voices of two
people outside, one of whom said the words
“hit” and “scrap.”

When Gonzalez reappeared, Townley and
the other three were with him. Townley was
wearing a red and black plaid jacket,
People's Exhibit 23. Fritts–Nash heard
Townley say something to Gonzalez about
Watsonville Nortenos. She also saw
Townley pull a small handgun out of his
pocket and wipe off the prints with a
blanket. Townley moved the gun several
times from one pocket to another, saying, “I
need to hide this gun.” He also told her he
was “looking at 25 to life.” Rejecting
Fritts–Nash's suggested hiding place,
Townley put the gun in his shoe and a small
black velvet bag of bullets into his *421
other shoe. Townley told her to cross her
fingers for good luck. Fritts–Nash asked
him if he had shot someone; his head
movement indicated an affirmative answer.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 64

4

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Townley and Carranco were tried together
as adults under Welfare and Institutions
Code section 707, subdivision (d)(2). On
January 25, 2007, the court granted
Townley's motion to sever his trial from that
of his codefendants. Before trial both Flores
and Rocha entered into plea agreements in
which the prosecution would reduce the
charges in exchange for their declarations
under penalty of perjury. Flores thereafter
pleaded guilty to assault with a firearm
subject to a three-year prison term, and the
prosecutor dismissed the attempted murder
charge against him. Rocha pleaded guilty to
assault with force likely to produce great
bodily injury, with an expected sentence of
two years. On the same date that Flores and
Rocha entered their pleas, April 17, 2007,
the prosecution filed a motion to
reconsolidate the cases against Carranco
and Townley, which the court subsequently
granted on April 26, 2007.

The jury found Townley guilty of attempted
premeditated murder and found the People's
allegations of firearm use and great bodily
injury to be true. (Pen.Code, § 12022.53,
subds. (b), (c), (d); § 12022.5, subd. (a); §
12022.7, subd. (a).) On September 12, 2007,
he was sentenced to life in prison with the
possibility of parole for the attempted
murder, with a consecutive term of 25 years
to life for the section 12022.53 firearm
enhancement.

II. Discussion

A. Issues Related to Witness Declaration

1. Restriction on Attorney–Client Discussion
of the Flores Declaration
The guilty pleas in Flores's and Rocha's
cases were taken in closed proceedings and
the reporter's transcripts were sealed by
trial court order.3 At Flores's plea hearing
the prosecutor stated that Flores would be
permitted to serve his sentence out of state
“because he was previously stabbed in the
jail. There are very serious concerns about
his physical well-being.”

Rocha's declaration stated that he
understood that he had “to tell the judge in
open court and under oath what I myself did
on February 17, 2006.” In Flores's
declaration, on the other hand, he stated: “I
understand that I have to tell the judge in
open court and under oath that the contents
of this declaration are true.” He also stated,
“I do understand that I may be called as a
witness in any hearing related to the events
that transpired on February 17, 2006.”

At each change-of-plea hearing, the court
ordered the declaration to be filed under
seal, to be opened only if the prosecution
called him to testify about any of the
matters covered in the declaration. Defense
counsel were permitted to look at the
document, but they were “prohibited from
discussing the contents or the existence of
the document with their client or any other
person.” Defense counsel also were not

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 65

5

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

permitted to have a copy of the declarations.
As the Attorney General *422 notes, Flores's
counsel emphasized that, even if the
declaration was opened under those
circumstances, it “will not ultimately be
part of the paperwork that follows Mr.
Flores to his prison commitment.”
Thereafter, the prosecution provided a
written copy to the defense counsel.4

Counsel for Townley and Carranco were
unsuccessful in moving to withdraw the
order not to discuss the contents or
existence of the document with their clients.
At a hearing from which the defendants
were excluded, the court reasoned that it
would be improper to rescind the order
without Flores's and Rocha's counsel being
present. The court did advise defense
counsel that if the witnesses testified
inconsistently with their statements, then
the sealing order “would be undone” and
counsel would be free to cross-examine them
with the declarations. When the prosecutor
asserted that defense counsel had a right to
use the documents to cross-examine and
impeach them, the court stated, “That's
going a little beyond what we put on the
record, those plea agreements. The
agreement was for their protection.” The
court agreed with the prosecutor's
statement, “So once they take the stand, the
order would necessarily disappear because
it doesn't make sense anymore.”

Neither Flores nor Rocha was on the
prosecutor's list of proposed witnesses filed
April 27, 2007. Rocha was not called as a
witness at trial. Flores was called as a
witness on the second day of trial testimony.
At the end of the day, in the jury's absence,

his attorney was called in to a hearing at
which the court explained that, “in order to
provide for adequate cross-examination of
Mr. Flores ... that Counsel be provided with
copies of his statement.... [T]he statement
may not be shared with the clients. We've
already talked about that.” “They're subject
to the same nondisclosure to clients, to
investigator, to other attorneys[. I]t's only to
be used by” defense counsel for purposes of
cross-examination. “They have to be
returned.” Carranco's counsel asked again
to be able to discuss it with his client. The
court denied the request, pointing out that
counsel had a lengthy statement from
Flores to the police. The court added, “Put
that in your briefcase and do not share it
with Mr. Carranco. Put it in [your] briefcase
right now.”

Direct examination of Flores resumed two
trial days later. He was the sole witness on
the fifth day of testimony. During
Carranco's cross-examination of Flores, the
prosecutor successfully objected to defense
counsel's reading the title of the document.
Carranco's counsel tried to ask Flores about
the requirement that he sign the
declaration in order to obtain the three-year
sentence; again the prosecutor's objection
was sustained, as was a *423 question
about Flores's methamphetamine use on the
night of the shooting. In the jury's absence,
the court explained that it also sustained
some of the prosecutor's objections because
they were “questions about things that
weren't in the document ... suggesting to the
jury that we'd intentionally omitted facts.
And that's misleading.” The court stated
that “[t]he document is sealed for protection
of Mr. Flores.” The examination of Flores
concluded on the sixth day of testimony.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 66

6

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Eventually the trial court took judicial
notice of the fact that the declaration was
part of the plea bargain and accordingly
instructed the jury.

On appeal, Townley contends that the
court's restrictions before trial and during
examination of Flores violated Townley's
Sixth Amendment right to consult with his
attorney. Finding no California authority
directly on point, we review federal
authority.

Maine v. Moulton (1985) 474 U.S. 159, 106
S.Ct. 477, 88 L.Ed.2d 481 recognized at
pages 168 and 169, 106 S.Ct. 477: “The
right to the assistance of counsel
guaranteed by the Sixth and Fourteenth
Amendments is indispensable to the fair
administration of our adversarial system of
criminal justice. [Fn. omitted.] Embodying
‘a realistic recognition of the obvious truth
that the average defendant does not have
the professional legal skill to protect
himself’ (Johnson v. Zerbst [ (1938) ] 304
U.S. 458, 462–463[, 58 S.Ct. 1019, 82 L.Ed.
1461] ), the right to counsel safeguards the
other rights deemed essential for the fair
prosecution of a criminal proceeding.”

“The special value of the right to the
assistance of counsel explains why ‘[i]t has
long been recognized that the right to
counsel is the right to the effective
assistance of counsel.’ ” (U.S. v. Cronic
(1984) 466 U.S. 648, 654, 104 S.Ct. 2039, 80
L.Ed.2d 657, quoting McMann v.
Richardson (1970) 397 U.S. 759, 771, fn. 14,
90 S.Ct. 1441, 25 L.Ed.2d 763.)

Courts have recognized that legal assistance
can be more effective when attorneys and
clients are allowed to confer, consult, and
communicate. Inevitably, there are practical
limitations that restrict the opportunities of
criminal defendants to consult with their
attorneys, including the defendant's
custodial status, technological means
available, the attorney's other
commitments, the availability of
courtrooms, the needs for orderly and timely
court proceedings. In the context of a
request for continuance, the United States
Supreme Court has recognized, “Not every
restriction on counsel's time or opportunity
to investigate or to consult with his client or
otherwise to prepare for trial violates a
defendant's Sixth Amendment right to
counsel.” (Morris v. Slappy (1983) 461 U.S.
1, 11, 103 S.Ct. 1610, 75 L.Ed.2d 610.) But
when the government unjustifiably
interferes with attorney-client
communication, the result may be
determined to be a violation of a criminal
defendant's constitutional “right to the
assistance of counsel.” (Geders v. United
States (1976) 425 U.S. 80, 91, 96 S.Ct. 1330,
47 L.Ed.2d 592 [Geders ].)

In Perry v. Leeke (1989) 488 U.S. 272, 109
S.Ct. 594, 102 L.Ed.2d 624 (Perry ), the
United States Supreme Court discussed 20
cases from federal and state courts (but not
California) in footnote 2 on page 277, 109
S.Ct. 594 in support of the proposition:
“Federal and state courts since Geders have
expressed varying views on the
constitutionality of orders barring a
criminal defendant's access to his or her
attorney during a trial recess.” (Cf. Annot.,
*424 Trial court's order that accused and his
attorney not communicate during recess in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 67

7

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

trial as reversible error under Sixth
Amendment guaranty of right to counsel
(1989) 95 A.L.R. Fed. 601; Annot., Scope
and extent, and remedy or sanctions for
infringement, of accused's right to
communicate with his attorney (1966) 5
A.L.R.3d 1360.)

In Geders, the United States Supreme Court
held “that an order preventing petitioner
from consulting his counsel ‘about anything’
during a 17–hour overnight recess between
his direct- and cross-examination impinged
on his right to the assistance of counsel
guaranteed by the Sixth Amendment.”
(Geders, supra, 425 U.S. 80, 91, 96 S.Ct.
1330.) In Perry, the United States Supreme
Court held “that the Federal Constitution
does not compel every trial judge to allow
the defendant to consult with his lawyer
while his testimony is in progress if the
judge decides that there is a good reason to
interrupt the trial for a few minutes.”
(Perry, supra, 488 U.S. 272, 284–285, 109
S.Ct. 594.) “[W]hen a defendant becomes a
witness, he has no constitutional right to
consult with his lawyer while he is
testifying.” (Id. at p. 281, 109 S.Ct. 594.) In
Perry, “[a]t the conclusion of his direct
testimony, the trial court declared a
15–minute recess, and, without advance
notice to counsel, ordered that petitioner not
be allowed to talk to anyone, including his
lawyer, during the break.” (Id. at p. 274,
109 S.Ct. 594.)

California decisions are in accord. People v.
Zammora (1944) 66 Cal.App.2d 166, 152
P.2d 180 (Zammora ) appears to have been
a gang case of sorts (though not a criminal
street gang) involving 22 defendants, 12 of

whom were convicted of murder and assault
with a deadly weapon. (Id. at pp. 173–174,
152 P.2d 180.) On appeal, the defendants
asserted “that the right of appellants to
defend in person and with counsel was
unduly restricted by the seating
arrangement of the appellants in the
courtroom, which, together with certain
rulings of the court, prevented the
defendants from consulting with their
counsel during the course of the trial or
during recess periods.” (Id. at p. 226, 152
P.2d 180.) The defendants were seated in a
group in the courtroom at sufficient distance
from the five defense counsel as to be unable
to confer except by walking the distance
between their locations. (Id. at pp. 227, 234,
152 P.2d 180.) The court had ordered that
counsel not talk to the defendants during
court recesses.(Id. at p. 227, 152 P.2d 180.)

The appellate court observed: “To us it
seems extremely important that, during the
progress of a trial, defendants shall have
the opportunity of conveying information to
their attorneys during the course of the
examination of witnesses. The right to be
represented by counsel at all stages of the
proceedings, guaranteed by both the federal
and state Constitutions, includes the right
of conference with the attorney, and such
right to confer is at no time more important
than during the progress of the trial.”
(Zammora, supra, 66 Cal.App.2d 166, 234,
152 P.2d 180.) “The Constitution primarily
guarantees a defendant the right to present
his case with the aid of counsel. That does
not simply mean the right to have counsel
present at the trial, but means that a
defendant shall not be hindered or
obstructed in having free consultation with
his counsel, especially at the critical

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 68

8

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

moment when his alleged guilt is being
made the subject of inquiry by a jury sworn
to pass thereon.” (Id. at pp. 234–235, 152
P.2d 180.) The convictions were reversed on
this basis. (Id. at pp. 235–236, 152 P.2d
180.)

People v. Miller (1960) 185 Cal.App.2d 59, 8
Cal.Rptr. 91 presented a different situation.
In that case the trial court denied a
defendant's request to confer with his
attorney in the middle of the defendant's
cross-examination. The appellate court
concluded, “The refusal of the trial *425
court to permit the defendant to speak to his
counsel in the midst of his
cross-examination did not constitute an
infringement upon his constitutionally
guaranteed right to counsel. This right
assures a defendant of every reasonable
opportunity to consult with his counsel in
the preparation and presentation of his
defense [citations], but does not confer upon
him the right to obstruct the orderly
progress of a trial.” (Id. at pp. 77–78, 8
Cal.Rptr. 91.)

The court orders in the cases above involved
a total ban, though limited temporally, on
attorney-client communication, not what we
may call a topical ban. None of the above
cases involved an order preventing an
attorney from talking with a defendant
about a part of the evidence.5 The same
distinction applies to Jones v. Vacco (2d
Cir.1997) 126 F.3d 408, on which Townley
relies. In that case, the trial judge ordered
the defendant not to talk to his attorney
during an overnight break in his
cross-examination. (Id. at p. 411.) The court
found Geders controlling. (Id. at p. 416.)

Townley also invokes precedent involving
court orders containing topical bans of
varying durations. In four cases, trial courts
barred defense attorneys from discussing
the defendant's testimony, though explicitly
or implicitly allowing consultation on other
topics. In Mudd v. United States
(D.C.Cir.1986) 798 F.2d 1509 (Mudd ), the
restriction was imposed during a weekend
recess between the defendant's direct and
cross-examination. (Id. at p. 1510.) In U.S.
v. Cobb (4th Cir.1990) 905 F.2d 784 (Cobb ),
the restriction was imposed during a
weekend recess in the cross-examination of
the defendant. (Id. at p. 790.) In U.S. v.
Santos (7th Cir.2000) 201 F.3d 953 (Santos
), the restriction was imposed during an
overnight recess between the defendant's
direct and cross-examination. The court also
essentially told defense counsel to comply
with Perry. (Id. at p. 965.) In U.S. v.
Sandoval–Mendoza (9th Cir.2006) 472 F.3d
645 (Sandoval–Mendoza ), the restriction
was imposed during two morning recesses,
a lunch recess, and an overnight recess in
the defendant's cross-examination.(Id. at p.
650.)

In Mudd, which predated Perry, the court
concluded that, “While the order in this case
was indeed more limited than the one in
Geders, the interference with [S]ixth
[A]mendment rights was not significantly
diminished.” (Mudd, supra, 798 F.2d at p.
1512.) “[A]n order such as the one in this
case can have a chilling effect on cautious
attorneys, who might avoid giving advice on
non-testimonial matters for fear of violating
the court's directive.” (Ibid.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 69

9

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

an overnight recess.” (Id. at p. 652.)6
The court in Cobb had “no difficulty in
concluding that the trial court's order,
although limited to discussions of Cobb's
ongoing testimony, effectively denied him
access to counsel.” (Cobb, supra, 905 F.2d at
p. 792.)

Santos concluded, “Perry makes clear, as do
the cases before and after it (though some of
the ‘before’ cases go too far, by forbidding
any limit on discussions between lawyer
and client), that while the judge may
instruct the lawyer not to coach his client,
he may not forbid all ‘consideration of the
defendant's ongoing testimony’ during a
substantial recess, *426 488 U.S. at 284[,
109 S.Ct. 594], since that would as a
practical matter preclude the assistance of
counsel across a range of legitimate legal
and tactical questions, such as warning the
defendant not to mention excluded
evidence.” (Id. at p. 965.) The appellate
court concluded that defense counsel in that
case “was given confusing marching orders
that may well have inhibited the exercise of
Sixth Amendment rights” (Id. at p. 966.)

In 2006, the Ninth Circuit, in reliance on
Geders and Perry, concluded in
Sandoval–Mendoza “that trial courts may
prohibit all communication between a
defendant and his lawyer during a brief
recess before or during cross-examination,
but may not restrict communications during
an overnight recess.” (Sandoval–Mendoza,
supra, 472 F.3d at p. 651, fn. omitted.) In
view of this rule, the trial court “erred in
prohibiting Sandoval–Mendoza and his
lawyer from discussing his testimony during

Perry explained that a criminal defendant's
right to the assistance of counsel does not
include obtaining advice during short trial
recesses about how to answer ongoing
cross-examination. However, it does protect
“the normal consultation between attorney
and client that occurs during an overnight
recess [which] would encompass matters
that go beyond the content of the
defendant's own testimony—matters that
the defendant does have a constitutional
right to discuss with his lawyer, such as the
availability of other witnesses, trial tactics,
or even the possibility of negotiating a plea
bargain.” (Perry, supra, 488 U.S. 272, 284,
109 S.Ct. 594; our italics.)

Despite this language in Perry, one decision,
on which the Attorney General heavily
relies, has upheld an order barring a
defense attorney from identifying to the
defendant one of the witnesses anticipated
the following day at trial. In Morgan v.
Bennett (2d Cir.2000) 204 F.3d 360 (Morgan
), the Second Circuit Court of Appeals
concluded “that Geders and Perry stand for
the principle that the court should not,
absent an important need to protect a
countervailing interest, restrict the
defendant's ability to consult with his
attorney, but that when such a need is
present and is difficult to fulfill in other
ways, a carefully tailored, limited
restriction on the defendant's right to
consult counsel is permissible.” (Id. at p.
367.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Appendix 70

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

In Morgan, the defendant was charged with
murder as well as the attempted murder of
a former girlfriend. The girlfriend was a
potential witness. Before trial, she declined
to testify because two associates of the
defendant had made threatening
statements while visiting her in jail. The
defendant had also been making comments
to the witness in the courthouse halls. (Id.
at pp. 362–363.) It was apparently to *427
avoid further witness intimidation that the
trial court made its order. (Id. at p. 368.)

The court upheld the order, observing that
its impact was quite limited. The attorney
and client could discuss everything except
the expected appearance of one witness.
Since the witness had already been
scheduled to testify, defense counsel
presumably was already prepared to
cross-examine her, so there was no impact
on counsel's preparation. (Id. at p. 368.)

accord. At issue in Alvarado v. Superior
Court (2000) 23 Cal.4th 1121, 99
Cal.Rptr.2d 149, 5 P.3d 203 (Alvarado ) was
not an order confining information to
defense counsel, but “the validity of an
order, entered prior to trial in a criminal
action, that authorizes the prosecution to
refuse to disclose to the defendants or their
counsel, both prior to and at trial, the
identities of the crucial witnesses whom the
prosecution proposes to call at trial, on the
ground that disclosure of the identities of
the witnesses is likely to pose a significant
danger to their safety.” (Id. at p. 1125, 99
Cal.Rptr.2d 149, 5 P.3d 203; first italics
ours.) The court concluded that it violated
neither the right of confrontation nor due
process to keep a witness's identity secret
before trial for good cause. (Id. at pp.
1134–1136, 99 Cal.Rptr.2d 149, 5 P.3d 203.)
“ ‘Good cause’ is limited to threats or
possible danger to the safety of a victim or
witness, possible loss or destruction of
evidence, or possible compromise of other
investigations by law enforcement.”
(Pen.Code, § 1054.7.) The court noted that,
included in California discovery statutes in
the Penal Code, “is the requirement that a
prosecutor disclose the names and addresses
of the individuals whom he or she intends to
call at trial. (§ 1054.1, subd. (a).) The
disclosure may be made to defense counsel,
who is prohibited from revealing, to the
defendant or others, information that
identifies the address or telephone number
of the prosecution's potential witnesses,
absent permission by the court after a
hearing and a showing of good cause. (§
1054.2.)” (Alvarado, supra, at p. 1132, 99
Cal.Rptr.2d 149, 5 P.3d 203.)

Again, we find California law in general

The Supreme Court found that “the

The appellate court stated: “In the present
case, the problem addressed by the state
trial court's limited gag order was far more
troubling than the possibility of witness
coaching involved in Geders and Perry, for
intimidation of witnesses raises concerns for
both the well-being of the witness and her
family and the integrity of the judicial
process.” (Id. at p. 367.) The court concluded
“that valid concerns for the safety of
witnesses and their families and for the
integrity of the judicial process may justify
a limited restriction on a defendant's access
to information known to his attorney.” (Id.
at p. 368.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Appendix 71

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

evidence presented to the trial court clearly
justified its order protecting the witnesses'
identities before trial.” (Alvarado, supra, 23
Cal.4th at p. 1136, 99 Cal.Rptr.2d 149, 5
P.3d 203.) In issuing its order after a series
of in camera hearings from which the
defense was excluded, the trial court
explained in part: the charged crime was
apparently an organized jailhouse murder of
a snitch ordered by the Mexican Mafia
prison gang; the Mexican Mafia is known
for ordering the murders of other snitches
and
it
has
an
excellent
intelligence-gathering network; before such
a murder is ordered, the gang has an
informal trial based in part on paperwork
identifying the snitch; and one of the three
prospective witnesses had been cut while in
jail and warned not to testify.(Id. at pp.
1128–1129, 99 Cal.Rptr.2d 149, 5 P.3d 203.)

As to precluding pretrial disclosure to the
defense, the court stated: “we are keenly
aware of the serious nature and *428
magnitude of the problem of witness
intimidation. [Fn. omitted.] Further, we
agree that the state's ability to afford
protection to witnesses whose testimony is
crucial to the conduct of criminal
proceedings is an absolutely essential
element of the criminal justice system. As
we have explained, a trial court has broad
discretion to postpone disclosure of a
prospective witness's identity in order to
protect his or her safety, and may restrict
such pretrial disclosure to defense counsel
(and ancillary personnel) alone.” (Alvarado,
supra, 23 Cal.4th at pp. 1149–1150, 99
Cal.Rptr.2d 149, 5 P.3d 203.)

different conclusion about the impact on the
rights of confrontation and
cross-examination of keeping a witness
anonymous during trial. The court reviewed
United States Supreme Court authority
requiring witnesses in criminal trials in
general to provide their names and
residences during cross-examination and a
number of California and federal appellate
opinions considering whether danger to the
witness changed those requirements. (Id. at
pp. 1141–1146, 99 Cal.Rptr.2d 149, 5 P.3d
203.) It summarized precedent as follows on
page 1146, 99 Cal.Rptr.2d 149, 5 P.3d 203.
“In short, although the People correctly
assert that the confrontation clause does not
establish an absolute rule that a witness's
true identity always must be disclosed, in
every case in which the testimony of a
witness has been found crucial to the
prosecution's case the courts have
determined that it is improper at trial to
withhold information (for example, the name
or address of the witness) essential to the
defendant's ability to conduct an effective
cross-examination. (Accord, Roviaro v.
United States [ (1957) ] 353 U.S. 53[, 77
S.Ct. 623, 1 L.Ed.2d 639] [when an
informant is a material witness on the issue
of guilt, the prosecution must disclose his or
her identity or incur a dismissal]; Eleazer v.
Superior Court (1970) 1 Cal.3d 847,
851–853[, 83 Cal.Rptr. 586, 464 P.2d 42] ...
[when an informant is a material witness to
the crime of which the defendant is accused,
the prosecution must disclose the
informant's name and whereabouts]; People
v. Garcia (1967) 67 Cal.2d 830[, 64 Cal.Rptr.
110, 434 P.2d 366] ... [same].) [Fn.
omitted.]”

However, the Supreme Court reached a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Appendix 72

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

The court concluded in Alvarado, “the
state's legitimate interest in protecting
individuals who, by chance or otherwise,
happen to become witnesses to a criminal
offense cannot justify depriving the
defendant of a fair trial. Thus, when
nondisclosure of the identity of a crucial
witness will preclude effective investigation
and cross-examination of that witness, the
confrontation clause does not permit the
prosecution to rely upon the testimony of
that witness at trial while refusing to
disclose his or her identity.” (Id. at p. 1151,
99 Cal.Rptr.2d 149, 5 P.3d 203.) “[W]e
conclude that the trial court erred in ruling,
on the record before it, that the witnesses in
question may testify anonymously at trial.”
(Id. at p. 1149, 99 Cal.Rptr.2d 149, 5 P.3d
203, fn. omitted.)

It is also relevant to our analysis that a
criminal defendant in California is
generally entitled to discover before trial
“[r]elevant written ... statements of
witnesses ... whom the prosecutor intends to
call at the trial.” (Pen.Code, § 1054.1, subd.
(f); cf. Funk v. Superior Court (1959) 52
Cal.2d 423, 424, 340 P.2d 593.) People v.
Fauber (1992) 2 Cal.4th 792, 9 Cal.Rptr.2d
24, 831 P.2d 249 stated on page 821, 99
Cal.Rptr.2d 149, 5 P.3d 203: “[T]he
existence of a plea agreement is relevant
impeachment evidence that must be
disclosed to the defense because it bears on
the witness's credibility. (Giglio v. United
States (1972) 405 U.S. 150, 153–155[, 92
S.Ct. 763, 31 L.Ed.2d 104]) Indeed, we have
held that ‘when an accomplice testifies *429
for the prosecution, full disclosure of any
agreement affecting the witness is required
to ensure that the jury has a complete
picture of the factors affecting the witness's

credibility.’ (People v. Phillips (1985) 41
Cal.3d 29, 47[, 222 Cal.Rptr. 127, 711 P.2d
423])”7

With the foregoing precedent in mind, we
examine the order at issue and the parties'
contentions. Absent countervailing
considerations, Flores's written statement
should have been disclosed to the defense
during pretrial discovery once the
prosecutor determined to call him as a
witness, particularly because it reflected a
plea agreement that was potentially
relevant to his credibility. In this case, there
were apparently some countervailing
considerations that motivated the trial court
to order the conditional sealing of the
statement as well as the reporter's
transcript of Flores's change of plea hearing
that contained the court's sealing order.
Flores's counsel expressed his concern that
the paperwork not follow him into prison.
The court several times stated that the
order was made for the protection of Flores.

On appeal, the Attorney General asserts
that “[t]his state's policy of protecting
witnesses from bodily harm and
intimidation is in accord with the principles
in Morgan.” “[T]he trial court's order here
was narrowly tailored to address a
compelling need to protect witness Flores's
life. Flores was a cooperating witness in a
gang-motivated attempted murder. He had
been assaulted and stabbed with a knife
while in pretrial custody.” Citing a web site
and the facts in People v. Reyes (2008) 165
Cal.App.4th 426, 429, 80 Cal.Rptr.3d 619,
the Attorney General claims, “[i]t is well
established that a cooperating witness's
assistance to law enforcement is severely

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Appendix 73

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

punished (usually with death) when the
‘paperwork’ documenting the individual's
cooperation becomes known to the gang
community.”

*430 This assertion is an attempt to create
a record that was not made in this case to
justify a restriction broader than the one
upheld in Morgan, supra, 204 F.3d 360. In
that case, defense counsel was prohibited
from disclosing that the attempted murder
victim would be appearing as a witness the
following day. In this case, defense counsel
was prohibited, as best we can tell, from
both showing Flores's written declaration to
Townley and discussing its contents with
him, whether before, during, or after
Flores's testimony at trial. Contrary to the
Attorney General's characterization, this
went well beyond “simply prevent[ing] the
documentary evidence of Flores's
cooperation ... from being circulated through
[Townley] into jail and prison populations.”
If that were the court's objective, it could
have been served by a much more limited
order prohibiting counsel from providing
Townley with a copy, while permitting
discussion of its contents.

The Attorney General asserts that the
“order did not materially impede
defendant's ability to consult with his
attorney about Flores's knowledge of the
crime and his statements.” After all,
Townley and his counsel had access to a
police report of an interview of Flores.
According to the Attorney General, “[t]hese
statements were substantially similar.”
According to a part of Townley's petition for
rehearing that was filed under seal, there
are 23 different details in the declaration.

Since the declaration remains under seal, it
would be improper for us to discuss
purported differences in an opinion that will
become part of the public record. To the
extent there was no difference between the
report and the declaration, we perceive no
need to prohibit defense counsel from
discussing the contents of the declaration
with Townley. But we have to wonder why
the prosecutor drafted a declaration for
Flores to sign if his other pretrial
statements were equally incriminatory.

The Attorney General further points out
that Townley did eventually learn at trial
about the existence and contents of Flores's
sealed declaration, at least to the extent
that its contents were brought out during
direct and cross examination of Flores. The
Attorney General asserts that “nothing in
the court's order prevented counsel from
discussing fully with his client Flores's
testimony at trial.”

We do not believe that the scope of the
court's order was that clear. During in
limine motions, the court acceded to the
prosecutor's statement that “the order
would necessarily disappear” once Flores or
Rocha took the witness stand. But later,
during the direct examination of Flores, the
court denied a request by Carranco's counsel
to discuss the statement with his client and
instructed counsel to put the written
statement in his briefcase immediately. The
court had initially explained the terms and
conditions of the sealing order at Flores's
change of plea hearing, but Townley's
attorney was not present at that hearing
and its transcript was itself sealed, at least
initially. As restated by the court during the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Appendix 74

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

trial, the order could be reasonably
interpreted as prohibiting counsel from
discussing the contents of the declaration
with Townley even after Flores testified to
the contents. Any ambiguity in the sealing
order could well encourage defense counsel
to err on the side of caution to avoid the risk
of “inviting the judge's wrath, and possibly
even courting sanctions for contempt of
court, in disobeying the judge's instruction.”
(U.S. v. Santos, supra, 201 F.3d 953, 966.)

For the sake of discussion, we will accept
the holding of Morgan, supra, 204 F.3d 360,
“that the court should not, absent an
important need to protect a countervailing
interest, restrict the defendant's *431
ability to consult with his attorney, but that
when such a need is present and is difficult
to fulfill in other ways, a carefully tailored,
limited restriction on the defendant's right
to consult counsel is permissible.” (Id. at p.
367.)

Even under this test, the challenged order
exhibits fatal defects. As indicated above, it
was not carefully tailored to serve the
objective of keeping “paperwork” out of the
hands of prison gangs. Instead, it appears to
have been tailored to allow the prosecution
to produce trial testimony that was a
surprise to Townley, if not his counsel. It
was also tailored to impede counsel's
investigation of the accuracy of the
declaration, as he was prohibited from
discussing its contents with Townley, his
investigator, and anyone else.

In addition, assuming that such a
nondisclosure order could be justified based

on an “important need” for witness
protection, there was no express finding or
showing of this kind of good cause. Rule
2.550 of the California Rules of Court
provides in part: “Unless confidentiality is
required by law, court records are presumed
to be open.” (Subd. (c).) “The court may
order that a record be filed under seal only
if it expressly finds facts that establish: [¶]
(1) There exists an overriding interest that
overcomes the right of public access to the
record; [¶] (2) The overriding interest
supports sealing the record; [¶] (3) A
substantial probability exists that the
overriding interest will be prejudiced if the
record is not sealed; [¶] (4) The proposed
sealing is narrowly tailored; and [¶] (5) No
less restrictive means exist to achieve the
overriding interest.” (Subd. (d).)8

We do not discount the evidence that Flores
was stabbed in jail. But we see neither
evidence nor a finding in the record that
this assault was directed or intended by
Townley or his codefendant or the Mexican
Mafia or any other gang to silence Flores in
this case. There is no allusion in the sealed
record to other hearings at which Flores or
the prosecution made such a showing. On
this point, the record pales in comparison to
the evidence of witness intimidation before
the trial courts in Morgan and in Alvarado.
And we note that, despite the compelling
showing made in Alvarado, the California
Supreme Court concluded that it did not
justify allowing witnesses in a prison gang
case to testify anonymously at trial. In that
case, the court discussed a number of other
ways by which the government could
attempt to ensure witness safety and
prevent witness intimidation. (Alvarado,
supra, 23 Cal.4th 1121, 1150–1151, 99

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Appendix 75

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Cal.Rptr.2d 149, 5 P.3d 203.) In seeking to
accomplish these worthy objectives, trial
courts should consider the entire range of
available alternatives before imposing
orders that restrict open communication
and consultation between criminal
defendants and their counsel about the
written pretrial statements of prosecution
witnesses against the defendant.

Without more evidence of good cause for a
court order barring defense counsel from
*432 discussing the contents of Flores's
written declaration with Townley, we
conclude that this order unjustifiably
infringed on Townley's constitutional right
to the effective assistance of counsel.

The remaining question is what standard of
prejudice applies to such a constitutional
violation. That was the question on which
the United States granted certiorari in
Perry, supra, 488 U.S. 272, 109 S.Ct. 594,
102 L.Ed.2d 624. (Id. at p. 277, 109 S.Ct.
594.) The court concluded, “[t]here is merit
in petitioner's argument that a showing of
prejudice is not an essential component of a
violation of the rule announced in Geders. In
that case, we simply reversed the
defendant's conviction without pausing to
consider the extent of the actual prejudice,
if any, that resulted from the defendant's
denial of access to his lawyer....” (Id. at pp.
278–279, 109 S.Ct. 594.) The court
distinguished its later discussion in
Strickland v. Washington (1984) 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 of “the
standard for determining whether counsel's
legal assistance to his client was so
inadequate that it effectively deprived the
client of the protections guaranteed by the

Sixth Amendment.” (Perry, supra, at p. 279,
109 S.Ct. 594.) Strickland's citation of
Geders “was intended to make clear that
‘[a]ctual or constructive denial of the
assistance of counsel altogether’ [citation], is
not subject to the kind of prejudice analysis
that is appropriate in determining whether
the quality of a lawyer's performance itself
has been constitutionally ineffective.”(Id. at
p. 280, 109 S.Ct. 594.)

Despite this clear holding, the Attorney
General argues that the automatic reversal
rule adopted by Perry does not qualify under
later United States Supreme Court rules for
identifying structural error.

U.S. v. Gonzalez–Lopez (2006) 548 U.S. 140,
126 S.Ct. 2557, 165 L.Ed.2d 409 explained
this concept at pages 148 and 149, 126 S.Ct.
2557. “In Arizona v. Fulminante, 499 U.S.
279[, 111 S.Ct. 1246, 113 L.Ed.2d 302]
(1991), we divided constitutional errors into
two classes. The first we called ‘trial error,’
because the errors ‘occurred during
presentation of the case to the jury’ and
their effect may ‘be quantitatively assessed
in the context of other evidence presented in
order to determine whether [they were]
harmless beyond a reasonable doubt.’ (Id.,
at 307–308[, 111 S.Ct. 1246] (internal
quotation marks omitted).) These include
‘most constitutional errors.’ (Id., at 306[, 111
S.Ct. 1246].) The second class of
constitutional error we called ‘structural
defects.’ These ‘defy analysis by
“harmless-error” standards' because they
‘affec[t] the framework within which the
trial proceeds,’ and are not ‘simply an error
in the trial process itself.’ (Id., at 309–310[,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

Appendix 76

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

111 S.Ct. 1246] [fn. omitted.] See also Neder
v. United States, 527 U.S. 1, 7–9[, 119 S.Ct.
1827, 144 L.Ed.2d 35] (1999).) Such errors
include the denial of counsel, see Gideon v.
Wainwright, 372 U.S. 335[, 83 S.Ct. 792, 9
L.Ed.2d 799] (1963), the denial of the right
of self-representation, see McKaskle v.
Wiggins, 465 U.S. 168, 177–178, n. 8[, 104
S.Ct. 944, 79 L.Ed.2d 122] (1984), the denial
of the right to public trial, see Waller v.
Georgia, 467 U.S. 39, 49, n. 9[, 104 S.Ct.
2210, 81 L.Ed.2d 31] (1984), and the denial
of the right to trial by jury by the giving of
a defective reasonable-doubt instruction, see
Sullivan v. Louisiana, 508 U.S. 275[, 113
S.Ct. 2078, 124 L.Ed.2d 182] (1993).” To
that list of structural errors, U.S. v.
Gonzalez–Lopez, supra, 548 U.S. 140, 126
S.Ct. 2557 added “erroneous deprivation of
the right to counsel of choice.” (Id. at p. 150,
126 S.Ct. 2557.)

The United States Supreme Court has not
expressly considered whether Geders
involved a structural defect or a trial error.
*433 Some federal courts have avoided
answering this question by finding other
reversible
error.
(U.S.
v.
Sandoval–Mendoza, supra, 472 F.3d 645,
652; U.S. v. Santos, supra, 201 F.3d 953,
966.) However, Geders was among the cases
cited in footnote 25 of U.S. v. Cronic, supra,
466 U.S. 648, 104 S.Ct. 2039 for the
proposition, “The Court has uniformly found
constitutional error without any showing of
prejudice when counsel was either totally
absent, or prevented from assisting the
accused during a critical stage of the
proceeding.” (Id. at p. 659, fn. 25, 104 S.Ct.
2039.) Jones v. Vacco, supra, 126 F.3d 408
stated, “Inherent in Geders, and later made

explicit, is the presumption that prejudice is
so likely to follow a violation of a
defendant's Sixth Amendment right to
counsel that it constitutes a structural
defect which defies harmless error analysis
and requires automatic reversal.” (Id. at p.
416.)

Mudd, supra, 798 F.2d 1509, which was
decided before Perry, reasoned: “We find
that a per se rule best vindicates the right to
the effective assistance of counsel. To
require a showing of prejudice would not
only burden one of the fundamental rights
enjoyed by the accused [citation], but also
would create an unacceptable risk of
infringing on the attorney-client privilege.
[Citation.] The only way that a defendant
could show prejudice would be to present
evidence of what he and counsel discussed,
what they were prevented from discussing,
and how the order altered the preparation of
his defense.”(Id. at p. 1513.)

We need not wander far afield to determine
whether the United States Supreme Court
meant what it said in Perry. The Attorney
General provides no authority that the
United States Supreme Court has retreated
from that holding. The Attorney General's
attempts to minimize the impact of the
restriction in this case of “counsel's ability
to confer with his client on one very limited
topic” do not alter our conclusion that on
this topic—the written declaration of an
accomplice who was a significant witness at
trial—Townley was deprived by court order
of the effective assistance of counsel. It
follows that Townley is entitled to reversal
without making a showing of prejudice
resulting from this error. In light of this

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

Appendix 77

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

conclusion, we consider other issues only to
the extent necessary to provide guidance in
the event of a retrial. We need not and do
not reach Townley's claims of prosecutorial
misconduct and improper judicial comment.

2. Testimony by Flores to a Particular
Version of Facts
“A prosecutor may grant immunity from
prosecution to a witness on condition that
he or she testify truthfully to the facts
involved. (People v. Green (1951) 102
Cal.App.2d 831, 838–839[, 228 P.2d 867] )”
(People v. Boyer (2006) 38 Cal.4th 412, 455,
42 Cal.Rptr.3d 677, 133 P.3d 581.) “[A]n
agreement [that] requires only that the
witness testify fully and truthfully is valid,
and indeed such a requirement would seem
necessary to prevent the witness from
sabotaging the bargain.” (People v. Fields
(1983) 35 Cal.3d 329, 361, 197 Cal.Rptr.
803, 673 P.2d 680.) “But if the immunity
agreement places the witness under a
strong compulsion to testify in a particular
fashion, the testimony is tainted by the
witness's self-interest, and thus
inadmissible. (People v. Medina (1974) 41
Cal.App.3d 438, 455 [, 116 Cal.Rptr. 133])
Such a ‘strong compulsion’ may be created
by a condition ‘ “that the witness not
materially or substantially change her
testimony from her tape-recorded statement
already given to ... law enforcement
officers.” ’ (People v. Medina, supra, 41
Cal.App.3d at p. 450[, 116 Cal.Rptr. 133].)”
*434 (People v. Boyer, supra, 38 Cal.4th at
p. 455, 42 Cal.Rptr.3d 677, 133 P.3d 581.)

In this case Townley contends that Flores's
declaration compelled him to testify to the
version of facts contained in that document
or risk being prosecuted for perjury and
losing the benefit of his plea bargain. That
compulsion, Townley insists, “tainted”
Flores's testimony, resulting in error that
was prejudicial in light of the importance
the prosecutor placed on this testimony. We
disagree. In the declaration Flores averred
that the statements he was making in the
document were “true under penalty of
perjury.” He had discussed his statement
with his attorney and had not been
threatened or offered an agreement to
testify in exchange for telling the truth in
the declaration, aside from the plea
agreement his attorney had negotiated.
Flores's understanding that he would be
expected to—indeed, “have to”—tell the
judge that he had made truthful statements
in the declaration did not nullify his claim
in the declaration itself that he was telling
the truth. The trial court properly
interpreted Flores's statement to mean that
if he testified, he must do so truthfully.
Furthermore, we have taken judicial notice
of a subsequent modification of Flores's
declaration. The challenged sentence was
replaced with the following: “I understand
that I have to acknowledge to the Judge in
open court and under oath that the contents
of this declaration are true at the time of
the entrance of my plea.” Also added was
Flores's handwritten statement, “I
understand if called as a witness I must tell
the truth.” Flores was cross-examined on
these changes at trial.

In these procedural circumstances we find
no error. The declaration at issue does not
compare to People v. Medina, supra, 41
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

Appendix 78

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Cal.App.3d at page 450, 116 Cal.Rptr. 133,
where accomplice witnesses were given
immunity on the condition that they not
“materially or substantially” alter their
testimony from the recorded account they
had given to the police. Also clearly
distinguishable is People v. Green, supra,
102 Cal.App.2d at pages 838–839, 228 P.2d
867, where the accomplice was promised
dismissal of the case against him if his
testimony resulted in the defendant's being
held to answer for the same charges. It was
not improper to require the witness to tell
the truth in court.

3. Earlier Versions of Witness Declarations
Townley next contends that he should have
been afforded the opportunity to inspect
previous versions of Flores's and Rocha's
declarations, which they had declined to
sign, along with correspondence between
the prosecutor and Flores about factual
scenarios Flores refused to confirm. In
Townley's view, these materials were
discoverable under section 1054 and its
predecessor authority, People v.
Westmoreland (1976) 58 Cal.App.3d 32, 129
Cal.Rptr. 554. In Westmoreland, the court
held that the prosecutor must disclose to the
defense “any discussions he may have had
with the potential witness as to the
possibility of leniency in exchange for
favorable testimony even though no offer
actually was made or accepted.” (58
Cal.App.3d at pp. 46–47, 129 Cal.Rptr. 554.)
Townley further argues that the
withholding of these “discussions of
leniency” denied him his constitutional
rights to due process and confrontation of
witnesses.

The trial court expressed the view that prior
drafts of the witnesses' plea agreements
were “not evidence of anything.” It did,
however, query whether an unsigned
version might allow the jury to find a
discrepancy worth exploring at trial. The
prosecutor maintained that this was work
product, a “creature of [her] head” which
*435 was not discoverable, and the People
adhere to this position on appeal. After
extensive discussion among counsel and the
court, the court reiterated its opinion that
an unsigned declaration was not evidence of
anything and that no obligation to produce
it arose under Brady v. Maryland (1963)
373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215.

We find no error in this ruling. Even
discounting the People's position that the
prosecutor's suggested version represented
her work product, we nonetheless agree
with the court that the unsigned declaration
was not relevant or material evidence. This
case does not present facts similar to those
in Westmoreland, where the prosecutor
remained silent while the witness falsely
testified that he had not been offered the
opportunity to plead guilty to a lesser
offense. Here there was no attempt to
mislead the jury or any arrangement that
was not disclosed to the defense. Flores was
not promised leniency beyond the
negotiated disposition of his case. And here
the witness did not agree to any version of
the document except the one he signed.
That was the relevant evidence that was
material to Flores's credibility, and on that
document defense counsel were permitted to
cross-examine the witness.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

Appendix 79

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Furthermore, even if any prior draft was
material evidence favorable to the defense,
any error in excluding it was harmless
beyond a reasonable doubt. (Cf. People v.
Phillips, supra, 41 Cal.3d 29, 48, 222
Cal.Rptr. 127, 711 P.2d 423 [failure to
disclose agreement between prosecution and
witness's attorney but not communicated to
witness harmless error].) The jury was fully
informed of the details of the plea bargain
between Flores and the prosecution. He was
cross-examined on the discrepancy between
his testimony and his declaration, including
the statement in the declaration that he had
been wearing a “red and black Pendleton
shirt” on the night of the shooting. In
addition, the court instructed the jury that
Flores's declaration was part of his plea
agreement with the prosecution. The
withholding of the earlier versions offered to
Flores was not prejudicial to Townley.

B. Exclusion of Defendants
Discussions of Declarations

during

Townley next claims that his exclusion
from hearings at which the declarations
were discussed violated his constitutional
right to be present at critical stages of the
proceedings against him. “The rule is
established that a defendant has a federal
constitutional right that emanates not only
from the confrontation clause of the Sixth
Amendment but also from the due process
clause of the Fourteenth Amendment to be
present at any stage of the criminal
proceedings ‘ “that is critical to its outcome
if his presence would contribute to the
fairness of the procedure.” ’ [Citations.]”
(People v. Marks (2007) 152 Cal.App.4th

1325, 1332–1333, 62 Cal.Rptr.3d 322.) It is
also settled, however, that “a defendant
does not have a right to be present at every
hearing held in the course of a trial. ‘During
trial, a defendant is not entitled to be
personally present at the court's discussions
with counsel occurring outside the jury's
presence on questions of law or other
matters unless the defendant's presence
bears a reasonable and substantial relation
to a full opportunity to defend against the
charges. [Citation.] A defendant claiming a
violation of the right to personal presence at
trial bears the burden of demonstrating that
personal presence could have substantially
benefited the defense. [Citation.]’ ” (People v.
Price (1991) 1 Cal.4th 324, 407–408, 3
Cal.Rptr.2d 106, 821 P.2d 610.)

*436 Townley has not met that burden. He
has not shown that his physical presence
would have contributed to his attorney's
efforts to secure a retraction of the order to
withhold the declarations from him. Nor
does he offer argument to support the bare
assertion that “the error was not harmless
beyond a reasonable doubt.”

C. Admission of Witness Statements for
Impeachment
At trial the prosecution called Anthony
Gonzalez and Sarah Oreb, who were among
the teenagers at Gonzalez's Harper Street
apartment when Townley arrived with
Flores, Carranco, and Rocha. Oreb, who was
Gonzalez's girlfriend at the time, said that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20

Appendix 80

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

she was “pretty drunk” when sheriffs
arrived. To one of the officers, Stefan Fish,
however, Oreb appeared to be sober. Several
of the teenagers were taken to the sheriff's
office for interrogation.

During her first interview by Detective
Pintabona, Oreb said she saw the white
Honda, a statement she denied at trial.
Oreb contributed no further information to
Pintabona; she swore “on [her] life up and
down” that she did not hear anyone say
what Pintabona quoted four others as
saying, that the visitors to Gonzalez's
apartment had “just shot some scraps.”
Even when Pintabona insinuated that she
could be treated as an accessory, she
insisted that she was telling him the truth
and that he was “badgering” her to get her
to lie. While sitting with the others in the
hallway, Oreb saw Gonzalez being taken
into custody. A short time later, angry and
frustrated, she was re-interviewed. This
time Oreb said she heard the words “hit” or
“scrap.” At trial, she explained that she had
told that to Pintabona only so that she could
go home. By that time it was almost 7:00
a.m.; she had not slept and had not eaten
since the evening.

Stefan Fish, a sergeant by the time of trial,
testified that the day after the shooting,
Oreb contacted him by telephone and agreed
to meet with him because she “felt bad” that
she had not previously told the investigator
what she had heard the night before. Oreb
said that she was at the window in
Gonzalez's apartment when she heard one
of the people outside say that a “Scrap got
hit.”

At trial Oreb recanted much of her
statement to the police. During examination
as a hostile witness by the prosecution, she
denied hearing the words “I hit a scrap”
spoken outside the window. She testified
that the police took her and her friends to
the police station, where she told the officers
that she had not heard anything outside the
window. The police did not believe her, and
they kept threatening to lock her up “just
like [her] boyfriend,” so she eventually lied
and told the officer what he wanted to hear.
Oreb denied telling Sergeant (then Deputy)
Fish that she felt bad about lying the day
before; she initiated the contact only to ask
him why Gonzalez had been arrested.

In light of Oreb's adamant retraction, the
prosecutor sought to play for the jury a
recording of the first police interview
between Officer Pintabona and Oreb. Over
defense objections, the court allowed the
evidence, finding that Oreb's trial testimony
was “a fabrication ... It was really shocking.”
Based on a draft prepared jointly by
Townley's counsel and the prosecutor, the
trial court gave the jury a cautionary
instruction about the use of that evidence.
The court explained that any opinion,
conclusion, or summary of the facts by the
officer was an interviewing technique which
could not be used as evidence of either
defendant's guilt. The jury was admonished
to “totally discount what the police officer
says,” particularly those statements that
the officers “know *437 things” about the
defendants. Instead, the jurors were
permitted to weigh what they heard in the
taped interview against what Oreb had said
on the witness stand “about how that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21

Appendix 81

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

interview was conducted.”

On appeal, Townley contends that Oreb's
incriminating statements should not have
been admitted because they were coerced:
She was only 16 years old, she was
intoxicated, she was deprived of food and
sleep for six hours, and she was threatened
without Miranda warnings before she
finally told the officer what he wanted to
hear to avoid being arrested.

The evidence on these points was not so
straightforward, however. Oreb did not
appear to be inebriated to Deputy Fish
when he arrived at the apartment. At trial
Oreb said she arrived at 1:00 or 2:00 in the
morning; yet during the interview—which
appears to have lasted between 30 minutes
and an hour—Pintabona mentioned that it
was 3 a.m. After listening to the CD
recording, Oreb conceded that she was not
threatened, but only felt threatened. She
also admitted that she was not threatened
during the second interview when she told
the detective “what he wanted to hear.” The
trial court found that “Oreb's statements
about what happened during the interview
were quite consistent with what happened
during the interview.” The transcripts of her
trial testimony and the recorded interview
support this factual conclusion. Oreb
resisted the officer's attempt to persuade
her to accede to his account of the statement
about shooting a “scrap.” She admitted that
there was no badgering or threats in the
second interview, at which she voluntarily
admitted hearing the reference to “scraps.”
And even if the second interview was a
product of the earlier pressure, the effect did
not carry over to the contact with Deputy

Fish the next day, which she initiated by
asking specifically for him. Oreb told the
deputy that she had heard the words “hit”
and “scrap,” and that she felt bad for not
having admitted this earlier. There is no
evidence that this disclosure was
precipitated by trauma or the fear of arrest;
Oreb herself denied having repeated those
words and explained that she had contacted
the deputy only to discuss Gonzalez's arrest.

Additionally, almost six weeks after the
shooting, while Gonzalez was out of custody,
Oreb met with Detective Montes, who
investigated gang-related cases for the
district attorney's office. Montes showed a
photo spread to Oreb. In the course of their
meeting, she told him that at the window of
Gonzalez's apartment she had overheard
“somebody say they hit a scrap.” Oreb was
not threatened with custody, nor was
Gonzalez in custody at that time. She
mentioned the statement three times, and
her demeanor was “[c]alm, patient, soft
spoken[, and] pleasant.” She was
cooperative, “[j]ust fine.”

Finally, in none of the interviews did she
attribute the “scrap” reference to Townley.
Taking all of these circumstances into
account, we find no conceivable prejudice
from Oreb's statements. Any error in
admitting the assertedly coerced statement
was harmless beyond a reasonable doubt.
(Cf. People v. Cahill (1993) 5 Cal.4th 478,
510, 20 Cal.Rptr.2d 582, 853 P.2d 1037
[adopting the federal standard prejudice
standard for evaluating admission of
defendant's coerced confession]; Arizona v.
Fulminante (1991) 499 U.S. 279, 306–312,
111 S.Ct. 1246, 113 L.Ed.2d 302; see also

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

Appendix 82

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

People v. Lee (2002) 95 Cal.App.4th 772,
789, 115 Cal.Rptr.2d 828 [coerced
identification of defendant not harmless
beyond a reasonable doubt where other
evidence of defendant's guilt insufficient].)

When police officers arrived at the Harper
Street apartment, they saw that Gonzalez
was drunk and was being held up *438 by
Oreb. Sergeant Sulay thought Gonzalez was
“probably still under the influence” when he
was at the station being interviewed, an
impression reinforced by Gonzalez at trial.
During the interview, however, he said he
did not think he was still drunk.

The transcript of the interview with
Gonzalez reflected his persistent denials of
knowledge. Eventually, the interviewer
arrested Gonzalez “for accessory to
attempted murder” because he was
“covering up.” At that point he was read his
Miranda rights. That interview lasted about
45 minutes in the early morning of
February 18, 2006. In a second conversation
with Detective Sulay, Gonzalez offered the
statement that Townley had come to his
house and said, “We beat up some scrap,”
and shortly afterward the police showed up
and started “harassing” him and the rest of
the group. At trial Gonzalez said that he did
not recall making this statement.

Townley contends that Gonzalez, like Oreb,
was coerced into giving the inculpatory
statement. We disagree. The first interview
was not unduly prolonged, nor, contrary to
Gonzalez's claim at trial, did the
interviewer tell him what he wanted
Gonzalez to say. The evidence of Gonzalez's

degree of inebriation was conflicting. The
bare fact that the interviewer advised
Gonzalez that if he withheld information he
could be considered an accessory after the
fact did not in itself make his later
statement involuntary. “There is nothing
improper in confronting a suspect with the
predicament he or she is in, or with an offer
to refrain from prosecuting the suspect if
the witness will cooperate with the police
investigation. More is needed to show that
testimony is the inadmissible product of
coercion....” (People v. Daniels (1991) 52
Cal.3d 815, 863, 277 Cal.Rptr. 122, 802 P.2d
906.) Unlike the defendant in People v. Lee,
supra, 95 Cal.App.4th 772, 115 Cal.Rptr.2d
828, on which Townley relies, neither Oreb
nor Gonzalez was threatened with an
accusation of the charged crime itself. Our
independent review reveals no coercion in
violation of Townley's due process rights.

D. Instruction on Voluntary Intoxication
Jeanne Taylor, who was the passenger in
the car driven by Julie Dufresne, testified at
trial that she saw three young men running
across the street in front of the car. The
shorter one in the red and black plaid
Pendleton jacket (which she recognized
when shown People's Exhibit 23) was
memorable because he had a “staggered
ga[it]” and was “almost stumbling.” Having
been professionally involved in body
mechanics, Taylor thought the gait “looked
like a staggering drunk in an attempt to
run.... Not losing his balance, just having
difficulty with his coordination.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23

Appendix 83

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Townley contends that in light of this
testimony, the trial court had a duty to
instruct the jury on voluntary intoxication
with CALCRIM No. 626. Recognizing that
he did not request such instruction, he
argues that it should have been given sua
sponte because there was substantial
evidence that the shooter was voluntarily
intoxicated. If the jury had received the
instruction, Townley maintains, the jury
might not have found intent to kill or
premeditation and deliberation.

Townley's argument cannot succeed. The
Supreme Court has repeatedly held that “an
instruction on voluntary intoxication,
explaining how evidence of a defendant's
voluntary intoxication affects the
determination whether defendant had the
mental states required for the offenses
charged, is a form of pinpoint instruction
that the trial court is not required to give
*439 in the absence of a request.” (People v.
Bolden (2002) 29 Cal.4th 515, 559, 127
Cal.Rptr.2d 802, 58 P.3d 931, citing People
v. Saille (1991) 54 Cal.3d 1103, 1120, 2
Cal.Rptr.2d 364, 820 P.2d 588; see also
People v. Rundle (2008) 43 Cal.4th 76, 145,
74 Cal.Rptr.3d 454, 180 P.3d 224,
disapproved on another point in People v.
Doolin (2009) 45 Cal.4th 390, 421, fn. 22, 87
Cal.Rptr.3d 209, 198 P.3d 11.) Nor would it
have been error to refuse the instruction
had there been a request. “A defendant is
entitled to such an instruction only when
there is substantial evidence of the
defendant's voluntary intoxication and the
intoxication affected the defendant's ‘actual
formation of specific intent.’ ” (People v.
Williams (1997) 16 Cal.4th 635, 677, 66
Cal.Rptr.2d 573, 941 P.2d 752; accord,
People v. Roldan (2005) 35 Cal.4th 646, 715,

27 Cal.Rptr.3d 360, 110 P.3d 289.) Jeanne
Taylor was the only witness who suggested
that the person wearing Exhibit 23 “looked
like a staggering drunk” as he ran across
the street; no other witness made any
observation or reported that he had been
drinking, much less that he was incapable
of forming the requisite intent for attempted
murder. It is not remotely probable that the
jury could have had a reasonable doubt on
the question of whether Townley was “not
conscious of his actions or the nature of
those actions,” within the meaning of
CALCRIM No. 626. Thus, no pinpoint
instruction on voluntary intoxication was
necessary.

E. Instruction on Intent to Kill
The trial court instructed the jury with
CALCRIM Nos. 875 and 915, which defined
the lesser offenses of assault with a deadly
weapon and simple assault. Townley
recognizes that these were proper
instructions in themselves, but he asserts
error in the failure of the court to state
clearly that these instructions applied only
to the assault crimes. By giving
“[c]ontradictory instructions,” Townley
argues, the court “eliminated the
prosecution's burden of proving intent to use
force and intent to kill in the attempted
murder, premeditation and enhancement
instructions.”

This contention requires no expansive
analysis, because the record discloses no
ambiguity in the instructions given. The

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24

Appendix 84

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

trial court introduced each crime and
associated element and enhancement by
clearly stating what the prosecution had to
prove for that specific concept. In defining
attempted murder, for example, the court
explicitly stated that the People must
affirmatively prove the defendant's specific
intent to kill the victim. In defining
premeditation and deliberation, the court
twice stated that it was the prosecution's
burden to prove the allegation and that
these elements could not be inferred merely
from the commission of an assault with a
deadly weapon. The explanations of the
assault charges were clearly distinguished
from the instructions pertaining to
attempted murder. We find no reasonable
likelihood that the jury was confused or
misled into incorrectly applying the intent
instructions. (Cf. People v. Kelly (2007) 42
Cal.4th 763, 791, 68 Cal.Rptr.3d 531, 171
P.3d 548 [no reasonable likelihood the jury
would have interpreted instruction not to
require intent]; People v. Coffman (2004) 34
Cal.4th 1, 123, 17 Cal.Rptr.3d 710, 96 P.3d
30 [no reasonable likelihood the jury was
confused by lack of instruction defining
implied malice].)

F. Holding Case for Medina
Townley requested that this court “defer
consideration of the appeal” pending the
Supreme Court's decision in People v.
Medina, No. S155823 regarding the
“natural and probable consequences”
doctrine. The Supreme Court's opinion in
Medina has now been filed, and it offers no
ground for reversal in this case.

*440 G. Admission of Gang Evidence
Townley next asserts prejudicial error in
admitting evidence of gang membership,
vocabulary, and behavior, because he was
not a gang member. “Even if the evidence
had some relevance to Carranco's case, the
court should have denied the prosecutor's
11th-hour motion to consolidate their cases,”
presumably for the same reason, that it was
irrelevant to Townley's. We find no error.

“In cases not involving the gang
enhancement, we have held that evidence of
gang membership is potentially prejudicial
and should not be admitted if its probative
value is minimal. (E.g., People v. Cardenas
(1982) 31 Cal.3d 897, 904–905[, 184
Cal.Rptr. 165, 647 P.2d 569] ) But evidence
of gang membership is often relevant to,
and admissible regarding, the charged
offense. Evidence of the defendant's gang
affiliation—including evidence of the gang's
territory, membership, signs, symbols,
beliefs and practices, criminal enterprises,
rivalries, and the like—can help prove
identity, motive, modus operandi, specific
intent, means of applying force or fear, or
other issues pertinent to guilt of the charged
crime.”(People v. Hernandez (2004) 33
Cal.4th 1040, 1049, 16 Cal.Rptr.3d 880, 94
P.3d 1080.)

Here there was abundant evidence that the
shooting was gang related and that Townley
had participated for the benefit of the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25

Appendix 85

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

Norteno gang, even though he was not a
member. Codefendant Carranco clearly was
a Norteno member; the occupants of the car
talked about finding a Sureno; the victim
happened to be wearing blue, the color of
the rival Sureno gang and was walking
outside an apartment complex associated
with the Surenos; the assailants demanded
to know whether the victim was a Norteno
or a Sureno and one yelled the word “scrap”;
and later at Gonzalez's apartment—a
Norteno-safe refuge—one of them
mentioned having “hit a scrap,” a slang
reference to assaulting a Sureno. Given the
irrefutable motivation for the shooting, this
evidence was unquestionably probative. It
made no difference that Townley was not a
formal member of the Norteno gang. Thus,
even without the evidence recovered from a
search of his bedroom (which included items
reflecting a Norteno association), the record
unambiguously supports the trial court's
admission of testimony explaining the
practices, culture, and parlance of these
rival gangs. Likewise, it was neither error
nor prejudicial to admit testimony from
Sergeant Fish and Detective Montes that
the Ocean Terrace apartments were
associated with the Surenos. Because the
admission of the gang evidence was proper
as to Townley, his assertion of prejudice
from the joint trial with Carranco must also
fail.

H. Detention and Transportation
Before trial the defense moved to suppress
the evidence of the gun and ammunition
found in Townley's shoes while being
transported to the sheriff's station. The

defense argued that the evidence was the
fruit of an unlawful detention; although
Townley was subject to a probation search,
the scope of that condition did not
encompass consent to any detention for
questioning. The trial court denied the
motion, relying on the probation search
condition and the evidence the officers had
gathered from interviewing witnesses in
Gonzalez's bedroom.9 The court agreed *441
with the prosecutor's suggestion that the
officers had probable cause to arrest
Townley based on these interviews, but the
prosecutor insisted that the transportation
was only a detention. The court found that
the officers had “probable cause to accuse
him of something” when they decided to
transport Townley, and they “certainly had
probable cause to arrest him” once they had
the information from Fritts–Nash about the
gun in his shoe.

The People concede that the decision to
transport Townley was a “de facto” arrest,
but they maintain that it was supported by
probable cause. Alternatively, they argue,
the probation search condition, along with
the information supplied by Fritts–Nash,
provided an independent source for the
search of the shoes, thereby attenuating any
illegality of the transportation. Even if
probable cause to arrest was lacking, we
agree that the valid probation search
condition attenuated the connection
between the transportation to the sheriff's
station and the subsequent discovery of the
concealed gun and ammunition. (Cf. People
v. Brendlin (2008) 45 Cal.4th 262, 272, 85
Cal.Rptr.3d 496, 195 P.3d 1074
[outstanding warrant sufficiently
attenuated connection between unlawful

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26

Appendix 86

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

traffic stop and subsequent discovery of
drug paraphernalia].)

Disposition
The judgment is reversed.

WE CONCUR:
PREMO, J.

RUSHING,

P.J.,

and

All Citations
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv.
13,605, 2009 Daily Journal D.A.R. 15,880

Footnotes
1

Since we have focused on this one issue on rehearing, our opinion has remained the
same on other issues to the extent they remain relevant to this appeal and opinion.

2

One of the detectives who investigated the case testified that Townley was about five
feet, seven inches. Carranco was about five feet, six inches; and Rocha, about five feet,
nine inches.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27

Appendix 87

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

3

The sealed transcripts and declarations are in the record on appeal and have been
provided to appellate counsel, but, on April 15, 2008, this court denied Townley's
request to unseal these documents. Accordingly, they remain sealed and should not be
disclosed in a document filed publicly. (Cal. Rules of Court, rule 8.160(g).) Though the
Attorney General opposed the request to unseal the documents, the Attorney General's
later brief quoted from the sealed transcripts, possibly recognizing that the court's
orders cannot be justified without reference to the sealed record.

4

The Attorney General asserts that counsel “received both Flores's sealed declaration
and his plea hearing transcript with ample time to prepare for cross-examination.” It
is unclear from the record what happened with the reporter's transcripts of the change
of plea hearings. The court did provide counsel with copies in order to explain its denial
of an in limine motion. After this ruling, the court stated, “you need to give those back
to the court reporter.” The prosecutor asserted to have understood that the court had
ordered that “the copies of the transcript would be made available with the same
understanding and under the same conditions as were the declarations.” The court
responded, “I think I did, actually, and they're—and it actually would be more
prophylactic if we just left them sealed and took the plea if all he agrees to do is testify
truthfully.... [¶] So you can keep those. You can't show those to your client. You can't
show them to anybody else.” We are not sure whether “those” referred to the
declarations or the transcripts, or how it “would be more prophylactic” to allow counsel
to retain copies of the transcripts.

5

In Moore v. Purkett (8th Cir.2001) 275 F.3d 685, the court restricted the criminal
defendant's method of communicating, telling him if he had anything to say to his
attorney while court was in session, he should write a note, and not speak, no matter
how quietly. The attorney objected that the defendant's writing skills were limited. (Id.
at p. 687.) The appellate court concluded that “Moore was actually or constructively
denied the assistance of counsel altogether during trial court proceedings.” (Id. at p.
689.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28

Appendix 88

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

6

In United States v. Triumph Capital Group, Inc. (2d Cir.2007) 487 F.3d 124, the
Second Circuit Court of Appeals claimed to “join our sister circuits and hold that a
restriction on communication during a long recess can violate the Sixth Amendment
even if the restriction bars discussion only of the defendant's testimony.” (Id. at p. 133.)
This purported holding was dictum, however. In that case, the trial court rescinded its
order after three hours, so it was only in effect between 5 p.m. and 8 p.m. (Ibid.) The
appellate court's actual conclusion was that “the court's restriction was trivial and did
not meaningfully interfere with the defendant's Sixth Amendment rights to effective
assistance of counsel.” (Id. at p. 135.) The defense counsel was on notice within 20
minutes of the court order that the Government might seek rescission of the order and
was aware within two hours that the rescission was likely.(Ibid.) Moreover, the
following day, the defendant was given all the time he needed to confer with his
attorney before resuming the witness stand for cross-examination. (Id. at p. 136.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29

Appendix 89

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

7

In contrast, under the federal Constitution, “[a] criminal defendant is entitled to rather
limited discovery, with no general right to obtain the statements of the Government's
witnesses before they have testified. (Fed. Rules Crim. Proc. 16(a)(2), 26.2.)” (Degen v.
U.S. (1996) 517 U.S. 820, 825, 116 S.Ct. 1777, 135 L.Ed.2d 102.) The rule providing
for such discovery is sometimes referred to in federal law as the Jencks rule.
It is because of this critical difference between federal and California law that we do
not attach much significance to the decision in Harris v. United States (D.C.App.1991)
594 A.2d 546, which is otherwise factually most similar. In that case, two days before
a witness testified, the government gave defense counsel the witness's taped
confession, which discussed a number of crimes with which the defendant had not been
charged. Before ruling on the government's request for a protective order limiting
disclosure, the trial court gave defense counsel a chance to review the tape, but barred
counsel from giving the tape or a transcript of its contents to the defendant. “[I]t was
unclear whether counsel could discuss its contents with him.” (Id. at p. 547.) The
following day, the government limited its request to allow counsel to discuss the
contents without giving the defendant a physical copy. Defense counsel said he might
have no objection to that approach, and did not object thereafter. (Id. at p. 548.)
On appeal the defendant contended “that his right to effective assistance of counsel
was violated by the trial court's ruling temporarily prohibiting full discussion of the
tape between him and defense counsel.” (Ibid.) The appellate court concluded, “[a]
restriction on defense counsel that prevents him from revealing what is possibly
Jencks material does not materially interfere with counsel's duty to advise a defendant
on trial-related matters.” (Id. at p. 549.) It was reasonable of the trial court to “place
a temporary and limited restriction on defense counsel's use of what was possibly
Jencks material” while the court itself completed screening the tape. (Ibid.) Since the
defense got the tape earlier than required by the Jencks rule, the court found “no
violation of Harris's right to effective assistance of counsel.” (Ibid.)

8

Similar rules are applied in determining when “public access to a criminal proceeding
may be denied: (1) there must be ‘an overriding interest that is likely to be prejudiced’
if the proceeding is left open; [fn. omitted] (2) ‘the closure must be no broader than
necessary to protect that interest’; (3) ‘the trial court must consider reasonable
alternatives to closing the proceeding’; and (4) the trial court must articulate the
interest being protected and make specific findings sufficient for a reviewing court to
determine whether closure was proper.” (People v. Baldwin (2006) 142 Cal.App.4th
1416, 1421, 48 Cal.Rptr.3d 792, quoting Waller v. Georgia (1984) 467 U.S. 39, 45, 48,
104 S.Ct. 2210, 81 L.Ed.2d 31.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30

Appendix 90

People v. Hernandez, 178 Cal.App.4th 1510 (2009)
101 Cal.Rptr.3d 414, 09 Cal. Daily Op. Serv. 13,605, 2009 Daily Journal D.A.R. 15,880

9

These interviews gave the officers reason to suspect Townley as a participant in the
crime or at least an accessory after the fact. Sergeant Sulay in particular believed that
Townley's nervous behavior and evasive responses to questioning indicated that he
knew more than he was saying. He also admitted ownership of the red and black plaid
jacket, People's Exhibit 23. Once Sulay obtained information about the gun and
ammunition from Fritts–Nash, he considered it urgent to contact the deputy
transporting Townley, who was riding in the patrol car unhandcuffed.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government
Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31

Appendix 91

APPENDIX F

Appendix 92

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

Appellant Jacob Townley Hernandez,
California Substance Abuse Treatment Fac,
P. O. Box 7100, Corcoran, CA 93212.
KeyCite Red Flag - Severe Negative
Treatment
Unpublished/noncitable July 29, 2013
2013 WL 3939441
Not Officially Published
(Cal. Rules of Court, Rules 8.1105 and
8.1110, 8.1115)
Only the Westlaw citation is currently
available.

California Rules of Court, rule 8.1115,
restricts citation of unpublished opinions in
California courts.
Court of Appeal, Sixth District, California.

The PEOPLE, Plaintiff and Respondent,
v.
Jacob Townley HERNANDEZ, Defendant
and Appellant.
H031992
|
Filed July 29, 2013
(Santa Cruz County Super. Ct. No. F12934)

Attorneys and Law Firms
Bridget Billeter, Office of the Attorney
General, 455 Golden Gate Avenue, Room
11000, San Francisco, CA 94102, for
Plaintiff and Respondent the People.
Marc J. Zilversmit, 523 Octavia Street, San
Francisco, CA 94102, for Defendant and

Opinion
ELIA, J.
*1 This case returns to us on remand from
the California Supreme Court in People v.
Hernandez (2012) 53 Cal.4th 1095
(Hernandez ). This court had found error in
the superior court's refusal to permit trial
counsel to show his client, defendant Jacob
Townley Hernandez (Townley), a sealed
declaration by a prosecution witness
attesting to his own participation in an
attempted murder, along with a sealed
transcript of the witness's plea agreement
proceeding. We held that the trial court had
deprived Townley of his Sixth Amendment
right to effective assistance of counsel by
denying him access to these materials. That
holding was unchallenged by the People,
and the high court expressed no opinion on
this point. It did, however, reject this court's
conclusion that the error was a structural
defect subject to automatic reversal under
Perry v. Leeke (1989) 488 U.S. 272. On the
contrary, our Supreme Court held that an
analysis of prejudice was required under the
standard articulated in Strickland v.
Washington (1984) 466 U.S. 668, and it
accordingly remanded the case for that
purpose.

Having received post-remand written [and
oral] argument from the parties, we now
conclude that no prejudice appears on the
record before us. We also consider Townley's
assertions that (1) he was deprived of his

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 93

1

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

Sixth Amendment right of confrontation
during cross-examination of the prosecution
witness; (2) the prosecutor engaged in
“egregious” misconduct at trial; and (3) the
trial judge improperly commented on
Flores's credibility. We find no prejudicial
error on these grounds, however, and
therefore must affirm the judgment.

Background
Seventeen-year-old Townley was accused by
information with attempted murder,
committed with three accomplices:
18–year–old Jose Ruben Rocha, 16–year–old
Jesse Carranco, and 18–year–old Noe
Flores. The charges arose from the
gang-related shooting of Javier Lazaro
around 9:00 p.m. on February 17, 2006. In
a telephone call at about 7:00 p.m. that
night, Townley asked Flores to “do a ride.”
Flores drove his 1992 white Honda Accord
to pick up Townley and his girlfriend,
Amanda Johnston, in Santa Cruz. Once in
the car, Townley showed Flores a small
black handgun, which Flores handled and
returned to Townley.

Townley directed Flores to drive to
Watsonville, where they picked up Carranco
(known as “Little Huero”) and Rocha
(known as “Listo”), whom Flores had not
met before. Townley was wearing People's
Exhibit 23, a red and black plaid Pendleton
shirt-jacket, which Johnston had given him
as a gift. Carranco wore a red hooded
sweatshirt; he had four dots tattooed on his
knuckles, signifying his association with

Northside, a Norteno gang.1 Rocha wore a
black flannel jacket with white in it. Flores
wore black sweatpants, a white T-shirt,
gloves, and a black zip-up hooded
sweatshirt. In his car he carried a T-ball bat
(smaller than a regular baseball bat), as he
had been “tagged” by some Surenos, whom
he called “scraps,” in downtown Santa Cruz
on December 31, 2005.

*2 The group then drove back to Santa
Cruz, dropping Johnston off before heading
downtown. Carranco said, “How's that
Norte life?” to a pedestrian.

Carranco told Flores where to drive. The
group went to an apartment on Harper
Street where Anthony Gonzalez lived. About
20 minutes later, Townley, Carranco,
Flores, and Rocha left the apartment,
Carranco again directing Flores. The
passengers in the car were talking about
finding a Sureno and saying there would be
violence. Flores later told Detective Sulay
that Carranco was doing most of the
talking. According to Flores, there was no
talk about shooting anyone as they drove
around.

As they were moving down 17th Avenue,
they saw Javier Lazaro on the sidewalk
across the street, walking back to his
apartment at the Ocean Terrace complex,
which was located in an area known as
Sureno gang territory. Lazaro, aged 29, was
not associated with any gang, but the
sweatshirt he wore was blue, the color
associated with the Sureno gang. Carranco
told Flores in a “[k]ind of urgent” voice to
turn around and pull over, and Flores did

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 94

2

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

so. Grabbing the T-ball bat that Flores kept
in the front passenger area, Carranco
jumped out of the car, along with Townley
and Rocha. The three crossed the street and
ran after Lazaro as Flores waited in the
driver's seat with the engine running. He
heard what sounded like firecrackers; then
the three others ran back to the car and
Carranco told him “urgently” to go. Flores
drove away rapidly with his passengers and
followed Carranco's directions back to
Gonzalez's apartment.

Lazaro testified that as he was walking
back to his apartment he heard three or four
voices from inside Flores's car, and then
someone yelled, “Come here.” He thought it
was directed at someone else, so he
continued walking without turning around.
Just as he reached the parking lot of the
apartment complex, he saw the group get
out of the white Honda and run across the
street toward him. They asked him whether
he was Norteno or Sureno. At that point
Lazaro was frightened and ran, until he felt
something push him to the ground. Lazaro
received five gunshot wounds, including one
that fractured a rib and bruised a lung. Two
bullets remained in his body.

Lazaro did not see who shot him, but Ginger
Weisel, Lazaro's neighbor, was in the
parking lot when Lazaro walked away from
the group. She heard them call out “fucking
scrap” and ask where Lazaro was from
before seeing one of them shoot Lazaro six
to eight times. Lazaro fell after about four
shots. Weisel recalled that the shooter was
about five feet, nine inches tall2 and wore a
red and black plaid Pendleton shirt. Weisel
called 911 from her apartment and returned

to help Lazaro.

David Bacon was driving on 17th Avenue
when he saw Flores's car parked in a
no-parking zone. He saw what appeared to
be two Latino males of high school age,
about five feet 10 inches tall. Seconds later
he heard snapping sounds and saw one of
the group standing in a “classic shooting
position,” holding a gun. He heard a total of
five or six shots from what appeared to be a
small-caliber gun. Bacon had the impression
that the shooter wore a plaid jacket, which
could have been People's Exhibit 23. The
second man appeared to be a lookout. Bacon
then saw two people run back to the car,
which sped away. He parked his car, called
911, and returned to help Lazaro, who was
lying on the ground with two women
tending to him. Emergency personnel
arrived within a minute after the last shot.

*3 Susan Randolph stepped outside her
home on 17th Avenue when she heard the
gunshots. She described the three as young
Latinos between 16 and 20 years old,
ranging from five feet, six inches to five feet,
nine inches.

Julie Dufresne was driving on 17th Avenue
with Jeanne Taylor when she heard popping
noises that sounded like fireworks, followed
immediately by three people running across
the street in front of her car. They were all
about her height, five feet nine or 10 inches,
or probably shorter, and they appeared to be
between 15 and 20 years old. One wore a
thin, red and black plaid flannel jacket.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 95

3

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

Taylor thought there were five popping
sounds, followed by the “three young men”
running across the street in front of the car.
One of them was less than five feet, five
inches and wore what looked like a plaid
Pendleton shirt in black and red. He
appeared to be staggering as if he were
drunk or “having difficulty with his
coordination.” The other two were taller;
one wore a white and black plaid shirt,
People's Exhibit 22, and the other a hooded
sweatshirt. When they reached the white
car, one went to the backseat on the driver's
side, and the other two went around to the
passenger side. Taylor thought that People's
Exhibit 23 looked like the red and black
shirt the “shorter person” had been wearing;
Dufresne “couldn't say for sure.”

Randi Fritts–Nash was one of the teenagers
drinking at the Harper Street apartment.
Sitting in Gonzalez's bedroom with five
others, she heard a car pull into the parking
lot, followed by a couple of knocks at the
window. Gonzalez went to the window and
then left the room. Before he left,
Fritts–Nash heard the anxious voices of two
people outside, one of whom said the words
“hit” and “scrap.”

When Gonzalez reappeared, Townley and
the other three were with him. Townley was
wearing a red and black plaid jacket,
People's Exhibit 23. Fritts–Nash heard
Townley say something to Gonzalez about
Watsonville Nortenos. She also saw
Townley pull a small handgun out of his
pocket and wipe off the prints with a
blanket. Townley moved the gun several
times from one pocket to another, saying, “I
need to hide this gun.” He also told her he

was “looking at 25 to life.” Rejecting
Fritts–Nash's suggested hiding place,
Townley put the gun in his shoe and a small
black velvet bag of bullets into his other
shoe. Townley told her to cross her fingers
for good luck. Fritts–Nash asked him if he
had shot someone; his head movement
indicated an affirmative answer.

Townley and Carranco, 17 and 16
respectively at the time of the shooting,
were tried together as adults under Welfare
and Institutions Code section 707,
subdivision (d)(2). Flores and Rocha
originally were also charged as
codefendants with attempted murder, but
their cases were severed on Townley's
motion. Before trial in this case, both Flores
and Rocha entered into plea agreements in
which the prosecution would reduce the
charges in exchange for their declarations
under penalty of perjury. Flores thereafter
pleaded guilty to assault with a firearm
subject to a three-year prison term, and the
prosecutor dismissed the attempted murder
charge against him. Rocha pleaded guilty to
assault with force likely to produce great
bodily injury, with an expected sentence of
two years. On the same date that Flores and
Rocha entered their pleas, April 17, 2007,
the prosecution filed a motion to
reconsolidate the cases against Carranco
and Townley, which the court granted on
April 26, 2007.

*4 The jury found Carranco and Townley
guilty of attempted premeditated murder. It
further found that both were minors who
were at least 14 years old at the time of the
offense within the meaning of Welfare and
Institutions Code section 707, subdivision

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 96

4

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

(d)(2), and were at least 16 years old at the
time of the offense within the meaning of
Welfare and Institutions Code section 707,
subdivision (d)(1). Townley was also found
to have been armed with a handgun and to
have personally used it to inflict great
bodily injury on Lazaro. (Pen. Code, §§
12022.53, subds (b), (c), (d); 12022.5, subd.
(a); 12022.7, subd. (a).) Townley was
sentenced to life in prison with the
possibility of parole for the attempted
murder, with a consecutive term of 25 years
to life for the section 12022.53 firearm
enhancement. Carranco was sentenced to
the aggravated term of nine years for the
attempted murder, plus one year for a
principal's being armed during the crime.

Discussion

1. Issues Related to Flores's Declaration

a. Restriction on Attorney–Client Discussion
of the Flores Declaration

The guilty pleas in Flores's and Rocha's
cases were taken in closed proceedings and
the reporter's transcripts were sealed by
trial court order. At Flores's plea hearing
the prosecutor stated that Flores would be
permitted to serve his sentence out of state
“because he was previously stabbed in the
jail. There are very serious concerns about
his physical well-being.”

Rocha's declaration stated that he
understood that he had “to tell the judge in
open court and under oath what I myself did
on February 17, 2006.” In Flores's
declaration, on the other hand, he stated: “I
understand that I have to tell the judge in
open court and under oath that the contents
of this declaration are true.” He also stated,
“I do understand that I may be called as a
witness in any hearing related to the events
that transpired on February 17, 2006.”

At each change-of-plea hearing, the court
ordered the declaration to be filed under
seal, to be opened only if the prosecution
called him to testify about any of the
matters covered in the declaration. Defense
counsel were permitted to look at the
document, but they were “prohibited from
discussing the contents or the existence of
the document with their client or any other
person.” Defense counsel also were not
permitted to have a copy of the declarations.
As the Attorney General notes, Flores's
counsel emphasized that, even if the
declaration was opened under those
circumstances, it “will not ultimately be
part of the paperwork that follows Mr.
Flores to his prison commitment.” The
prosecutor thereafter provided a written
copy to the defense attorneys.

Counsel for Townley and Carranco were
unsuccessful in moving to withdraw the
order not to discuss the contents or
existence of the document with their clients.
At a hearing from which the defendants
were excluded, the court reasoned that it

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 97

5

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

would be improper to rescind the order
without Flores's and Rocha's counsel being
present. The court did advise defense
counsel that if the witnesses testified
inconsistently with their statements, then
the sealing order “would be undone” and
counsel would be free to cross-examine them
with the declarations. When the prosecutor
asserted that defense counsel had a right to
use the documents to cross-examine and
impeach them, the court stated, “That's
going a little beyond what we put on the
record, those plea agreements. The
agreement was for their protection.” The
court agreed with the prosecutor's
statement, “So once they take the stand, the
order would necessarily disappear because
it doesn't make sense anymore.”

Rocha did not testify at trial, but Flores was
called as a witness on the second day of
testimony. His testimony, the Supreme
Court noted, was “essentially consistent
with, but more detailed than, the
information he had provided to police
investigators.” (Hernandez, supra, 53
Cal.4th at p. 1101.) At the end of that day,
in the jury's absence, the court ordered the
prosecution to give defense counsel copies of
Flores's sealed declaration “in order to
provide for adequate cross-examination of
Mr. Flores.” But the document was to be
used only for cross-examination, and
counsel were still not permitted to share the
statement or its contents with their clients,
or with investigators or other attorneys.

*5 During cross-examination of Flores,
“[b]oth defense attorneys used [his]
declaration to impeach him, establishing
discrepancies between it and his trial

testimony. For example, witnesses to the
shooting reported that the man who shot
Lazaro wore a red-and-black plaid shirt or
jacket. Flores testified he had worn a blue
or black shirt and Townley had worn a
red-and-black flannel shirt. Defense counsel
brought out that in his declaration Flores
had asserted he had worn a red-and-black
Pendleton shirt.” (Hernandez, supra, 53
Cal.4th at p.1101.)

For purposes of discussion the Supreme
Court accepted the premise that the trial
court unjustifiably had interfered with
Townley's access to his attorney by sealing
Flores's declaration and the transcript of his
plea proceedings. The focus of the high
court's review was the question of whether
Townley was denied his right to effective
assistance of counsel by the trial court's
order forbidding counsel from discussing the
declaration with his client. That question
could be answered in the affirmative,
thereby requiring reversal, only if Townley
demonstrated prejudice from the asserted
error, because this case did not present
“circumstances that are so likely to
prejudice the accused that the cost of
litigating their effect in a particular case is
unjustified.” (Id. at p. 1104, quoting U.S. v.
Cronic (1984) 466 U.S. 648, 658.) Thus,
prejudice would not be presumed in this
case, because the challenged order had not
rendered “the adversarial process
presumptively unreliable, such as where an
accused is denied counsel at a critical stage
of trial, or counsel entirely fails or is unable
to subject the prosecution's case to
meaningful adversarial testing.” (Id. at p.
1106.) In contrast to the situation presented
in Geders v. United States (1976) 425 U.S.
80, where petitioner was not allowed to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 98

6

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

consult with his attorney “about anything”
during a 17–hour overnight recess between
his direct- and cross-examination, “Townley
was at all times free to consult with his
attorney generally about trial tactics and
defense strategy, and although he was not
fully informed about Flores's probable
testimony before Flores took the stand, he
was not prevented from discussing how to
respond to Flores's testimony after hearing
it.” (Hernandez, supra, at p. 1106.) In
addition, Townley's attorney opposed the
prosecution throughout the proceedings,
thereby vitiating any conclusion that
counsel “entirely failed to subject the
prosecution's case to adversarial testing.”
(Id. at p. 1107; see also U.S. v. Cronic,
supra, 466 U.S. at p. 659 [“if counsel
entirely fails to subject the prosecution's
case to meaningful adversarial testing, then
there has been a denial of Sixth
Amendment rights that makes the
adversary process itself presumptively
unreliable”]; compare Bell v. Cone (2002)
535 U.S. 685, 697 [counsel's failure to
oppose prosecution “at specific points”
during sentencing required showing of
prejudice under Strickland ].) The court also
rejected any inference that the ban in this
case violated Townley's right to “
‘unrestricted access to his lawyer for advice
on a variety of trial-related matters.’ ”
(Hernandez, supra, 53 Cal.4th at p. 1109,
quoting Perry v. Leeke (1989) 488 U.S. 272
[in a short recess during which defendant's
testimony will likely be discussed, court
may deny access to attorney, contrasting
Geders, supra, 425 U.S. at p. 91].)

with his right to consult with his attorney
“deprived him of the effective assistance of
counsel and there is a reasonable
probability that, but for the error, the result
of the trial would have been different.”
(Hernandez, supra, 53 Cal.4th at p. 1111.)

We therefore address first the question
consigned to us upon remand, whether
Townley can show that the interference

“Surmounting Strickland's high bar is never
an easy task.” (Padilla v. Kentucky (2010)
559 U.S. 356, ––––, 130 S.Ct 1473, 1485.)

*6 To establish prejudice in accordance with
the Supreme Court's decision, Townley must
adhere to the standard enunciated in
Strickland— that is, he must show that the
interference “actually had an adverse effect
on the defense.” (Strickland, supra, 466 U.S.
at p. 693.) More precisely, there must be a
“reasonable probability” that without the
error, “the result of the proceeding would
have been different.” (Id. at p. 694.) “The
purpose of the Sixth Amendment guarantee
of counsel is to ensure that a defendant has
the assistance necessary to justify reliance
on the outcome of the proceeding.” (Id. at
pp. 691–692.) “[T]he ultimate focus of
inquiry must be on the fundamental
fairness of the proceeding whose result is
being challenged. In every case the court
should be concerned with whether, despite
the strong presumption of reliability, the
result of the particular proceeding is
unreliable because of a breakdown in the
adversarial process that our system counts
on to produce just results.” (Id. at p. 696.)
Thus, “[t]he benchmark for judging any
claim of ineffectiveness must be whether
[the error] so undermined the proper
functioning of the adversarial process that
the trial cannot be relied on as having
produced a just result.” (Id. at p. 686.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 99

7

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

“It is not enough for the defendant to show
that the errors had some conceivable effect
on the outcome of the proceeding[, as] not
every error that conceivably could have
influenced the outcome undermines the
reliability of the result of the proceeding.”
(Strickland, supra, 466 U.S. at p. 693.) Nor
must a defendant show that the deficiency
“more likely than not” altered the outcome
in the case. (Ibid.) The asserted error must
be “so serious as to deprive the defendant of
a fair trial, a trial whose result is reliable.”
(Id. at p. 687; Harrington v. Richter (2011)
––– U.S. ––––, ––––, 131 S.Ct. 770,
787–788.) Accordingly, a defendant must
show “a reasonable probability” that the
result of the proceeding would have been
different. “A reasonable probability is a
probability sufficient to undermine
confidence in the outcome.” (Strickland,
supra, 466 U.S. at p. 694.)

Our Supreme Court implicitly compared the
situation presented here to a Confrontation
Clause issue such as that considered in
Delaware v. Van Arsdall (1986) 475 U.S.
673, a case in which the trial court
improperly prevented the defense from
eliciting bias during cross-examination of a
prosecution witness by questioning him
about the dismissal of his public
drunkenness charge.3 The Supreme Court in
Hernandez cited the factors employed in
Van Arsdall,4 yet not to assess the
prejudicial effect of the lower court's
restriction on the use of the declaration, but
to support the conclusion that “the
circumstances presented here ... do not
justify a presumption of prejudice.”
(Hernandez, supra, 53 Cal.4th at p. 1108.)
The court notably added, “There is no
reason in logic to require a showing of

prejudice to establish reversible error when
impeaching evidence is withheld from a
defendant and the defendant's attorney, but
to presume prejudice when impeaching
evidence is withheld only from the
defendant, even it was the trial court and
not the prosecution that prevented the
defendant from learning about the
evidence.” (Ibid.)

*7 Townley finds it “difficult to conceive how
the court's unjustified order was a
non-prejudicial or harmless restriction” on
his right to consult with his attorney. The
bulk of his argument, however, and the
authorities on which he relies, primarily
serve to accentuate the importance of
Flores's testimony, in order to reinforce the
seriousness and magnitude of the trial
court's error. The People, however, no longer
contest the fact of the error; its effect on the
reliability of the adversarial process is what
is at issue. Much of Townley's argument
also implies that prejudice must be
presumed here, a result the Supreme Court
soundly rejected in its opinion. Noteworthy
in this respect is the Supreme Court's
rejection of Townley's reliance on Geders to
support a presumption of prejudice: “Here,
defense counsel was present during all
critical stages of the trial and Townley at all
times had access to his attorney, including
during and after Flores's testimony. In
contrast to the situation in Geders, supra,
425 U.S. 80, where the defendant was
prevented from discussing the events of a
day's trial, Townley was at all times free to
consult with his attorney generally about
trial tactics and defense strategy, and
although he was not fully informed about
Flores's probable testimony before Flores
took the stand, he was not prevented from

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 100

8

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

discussing how to respond to Flores's
testimony after hearing it.” (Hernandez,
supra, 53 Cal.4th at p. 1106.)

Townley emphasizes that Flores was a “key”
prosecution witness and the prosecutor's
depiction of the declaration as “essential to
proving her case”; the latter fact, he argues,
was “essentially a concession of prejudice
under the Strickland standard.” Townley
suggests that although there was “some
circumstantial evidence” that he was the
shooter, the eyewitness testimony excluded
him: The shooter was described as a
dark-complected Hispanic male who was
speaking in Spanish, whereas Townley was
described as a “white guy” who did not
speak Spanish. These inconsistencies,
however, were brought to light at trial.
Townley has not shown how defense
counsel's inability to discuss Flores's
declaration with him impaired counsel's
ability to expose and underscore the weak
points in the prosecution's case.

The length of the jury's deliberations (three
days) is also not a persuasive factor here;
this was a complex case involving a serious
crime involving multiple perpetrators, with
multiple witnesses offering inconsistent
testimony at trial. (Cf. In re Sassounian
(1995) 9 Cal.4th 535, 549, fn 10 [closeness of
case not determined by jury's time spent
deliberating, given complexity of evidence
and law, youth of petitioner, and other
circumstances]; People v. Cooper (1991) 53
Cal.3d 771, 837 [seven-day deliberations
indicates conscientious jury but not
necessarily close case considering
three-month duration of trial and
complexity of issues]; see also People v.

Houston (2005) 130 Cal.App.4th 279, 301
[four-day deliberation speaks to jury's
diligence, not closeness of case, where trial
was extensive, with lengthy arguments,
more than three dozen witnesses, and a
“mass of information” to digest].)

Townley accords additional weight to the
inconsistency between Flores's
declaration—in which he stated that he
wore a red and black Pendleton during the
shooting5—and his trial testimony, in which
he stated that Townley had been wearing
the Pendleton. But Flores was
cross-examined on this discrepancy,
including the statement in the declaration
that he had been wearing a “red and black
Pendleton shirt” on the night of the
shooting.6

Townley further points to one witness's
testimony that the shooter appeared to be
drunk, as he exhibited a “staggered gait.”
Townley's argument is that if he had been
permitted “to discuss Flores's proposed
testimony which would not exonerate
Appellant (as the prosecutor ... feared he
would without the declaration), counsel and
Appellant could have developed an
intoxication defense that could have
negated premeditation, intent to kill and
intent to discharge a firearm.” Again there
is nothing in the record indicating that
counsel could not have developed this
defense without the aid of Flores's
declaration. It was Jeanne Taylor, an
eyewitness, who contributed the observation
of the apparent shooter's intoxication.

*8 This case would be amenable to reversal

© 2020 Thomson Reuters. No claim to original U.S. Government Works.
Appendix 101

9

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

for ineffective assistance of counsel if we
could conclude that Townley would have
been able to make a material contribution to
his defense had his attorney been allowed to
discuss Flores's declaration with him. We
can find nothing in this appellate record,
however, that permits such an inference
beyond bare speculation. Townley's
attorney, having examined the declaration
and plea transcript, was already aware of
the discrepancies between the witness's
declaration
and
his
direct
testimony—discrepancies that included the
important inconsistency regarding who wore
t h e Pe ndl e t o n — a n d F l o r e s w a s
cross-examined accordingly to bring out
these contradictions before the jury. As the
Supreme Court itself noted, “The primary
value of the sealed materials to Townley
was their usefulness as tools of
impeachment during cross-examination,
either to highlight discrepancies between
the facts Flores recited in his declaration
and his testimony at trial, or to support the
argument Flores had fashioned a
declaration favorable to himself and must
have then felt compelled to testify in
accordance with that declaration. Counsel's
inability to consult with Townley about the
materials would not have hampered his
ability to make either point.” (Hernandez,
supra, 53 Cal.4th at p. 1107.) The court
further commented on Townley's point that
there were 22 details in the declaration that
were not contained in the police reports:
“But the very ease with which these details
may be identified works against his
argument that it would be difficult to assess
the prejudicial effect of the trial court's
order.” (Ibid., fn. 5.) Townley fails to show
what insight he would have provided to the
defense that would have illuminated or
enhanced the cross-examination of Flores.

Townley has overcome the “high bar” of the
prejudice analysis here.

b. Restrictions on Cross–Examination of
Flores
Townley next contends that the court
unfairly sustained objections by the
prosecutor during Carranco's
cross-examination of Flores. Carranco's
attorney attempted to point out, for
example, that (1) the declaration Flores
signed was not the first draft (prosecutor's
objection not ruled upon); (2) the declaration
had omitted any account of Flores's first
visit to the Harper Street apartment; (3) the
declaration had omitted the detail that
Carranco directed Flores, who was driving,
back to the apartment; and (4) the title of
the declaration indicated that Flores was
charged with a crime. To these efforts the
prosecutor successfully objected.7

But these were problems for Carranco, not
issues over which Townley had an objection.
The third point, the omitted detail
regarding direction by Carranco, was not a
subject on which Townley joined in
cross-examination; indeed his attorney
objected to this area of questioning as
“absolutely prejudicial to ... Mr. Townley.”
In response to the prosecutor's continuing
objection before the jury regarding changes
to the declaration, the court explained, “He's
on the witness stand and can be
cross-examined on the document to the
extent it's different [from] what he testifies
to here. However, he cannot be asked
extensive questions about what's not in the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Appendix 102

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

document because that would be misleading
and [he] can't really explain that to the jury,
but there are reasons for the document to be
prepared that Mr. Cave [Carranco's
attorney] doesn't seem to understand or
accept.” This admonishment did not reflect
any failing or unfair restriction on
Townley's own cross-examination of the
witness, which had already taken place.

misconduct by failing to object. As to others,
they maintain that the act was not
misconduct at all. We examine the parties'
positions as to these claims first by
reviewing the context in which they
occurred.8

Holley v. Yarborough (9th Cir. 2009) 568
F.3d 1091, does not alter this result. In that
case the trial court excluded statements
made by the child abuse victim indicating
personal familiarity with sexual activities.
The Ninth Circuit held that the evidence,
which indicated “a highly active sexual
imagination or ... a familiarity with sexual
activities” was “clearly relevant”
impeachment evidence, as it could have
shown not only bias but a “tendency to
exaggerate or overstate, if not outright
fabricate” events. (Id. at p. 1099.)
Consequently, the exclusion violated the
defendant's Sixth Amendment right to
confront the witness. In this case, however,
the rulings to which Townley takes
exception were, as noted, not directed at his
own examination of the witness. Holley does
not help him here.

a. Comments on Witness Credibility
“It is misconduct for a prosecutor to express
a personal belief in the merits of a case,
rather than a belief based upon the evidence
at trial. [Citations.]” (People v. Johnson
(1981) 121 Cal.App.3d 94, 102.) Similarly,
“[t]he prosecutor is generally precluded from
vouching for the credibility of her witnesses,
or referring to evidence outside the record to
bolster their credibility or attack that of the
defendant. [Citations.]” (People v. Anderson
(1990) 52 Cal.3d 453, 479.) However, when
the prosecutor relies on the evidence
presented at trial and the inferences to be
drawn from this evidence, and does not
imply any personal knowledge or belief
based on facts outside the record, the
prosecutor has not engaged in improper “
‘vouching.’ ” (People v. Medina (1995) 11
Cal.4th 694, 757; see also People v. Frye
(1998) 18 Cal.4th 894, 971, disapproved on
other grounds in People v. Doolin (2009) 45
Cal.4th 390, 421, fn. 22 [prosecutor's
comments not improper vouching if
assurances regarding the apparent honesty
or reliability of prosecution witnesses are
based on the facts and reasonable
inferences, not purported personal
knowledge or belief].)

2. Prosecutorial Misconduct
*9 Townley next contends that the
prosecutor overstepped the bounds of proper
advocacy in a number of ways, thus
engaging in misconduct that was
individually and cumulatively prejudicial.
The People respond first that Townley's
attorney failed to preserve the issue as to
some of the asserted instances of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Appendix 103

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

During opening statement the prosecutor
told the jury that the police sergeant who
interviewed Townley at Harper Street “felt
that he was holding back and not being
entirely truthful. The sergeant thought that
maybe that was because they were in a
Norteno[-] affiliated house and he was
investigating a shooting by three or four
guys wearing red who shot at another guy
in a blue sweatshirt. [¶] So the decision was
made to take them to the Sheriff's Office for
an interview to see if in a different kind of
environment he might be more
forthcoming.” When the jury had been
dismissed for the day, Townley's attorney
objected and moved for a mistrial,
reminding the court that during in limine
motions he had opposed the prosecutor's
request to call a gang expert. In that
opposition counsel had expressed the
concern that the expert might suggest that
a witness was lying to help the defendant or
that a former codefendant testifying for the
prosecution was credible. The court had
allowed the gang expert to testify, but only
as to matters the jury had heard from other
witnesses. The expert was not to “address
issues like snitch and rat and veracity and
credibility ... unless it's become apparent
from the testimony of ... witnesses that
there's a basis for that needing to be
explained to the jury in some way. [¶] But
he cannot be put in a position where he is
either vouching for the credibility of your
witnesses or ... essentially negatively
vouching for them in any way....”

The trial court denied the mistrial motion,
noting that the “no vouching” order
pertained to a different situation: “What
was referred to here was actually the
policeman's impression of behavior that he

saw from a person that he was interviewing
at that time,” in contrast to the pre-trial
discussion of an opinion of a witness's
credibility because he or she was a “snitch.”

*10 In examining Sarah Oreb, the
prosecutor attempted to bring out the
inconsistencies between her trial testimony
and her prior statements to the police. After
an initial hearsay objection (without a
ruling) Oreb was permitted to describe the
officers' tactics in trying to persuade her to
admit that she had heard Townley say he
had “hit a scrap.” The defense did not object
as Oreb continued with this testimony and
denied that Sergeant Fish had accurately
reported her voluntary statement to him.
However, at one point the prosecutor,
having repeatedly attempted to elicit Oreb's
admission that she had heard the “hit a
scrap” statement, said, “I suppose you
wouldn't be surprised to hear I don't believe
[you]. Which is why I am continuing to ask
the question.” Townley's counsel
immediately objected. The objection was
sustained, and the court admonished the
jury to disregard the remark. The
prosecutor then asked Oreb, “If there's a
recording of your interview with both
Deputy Pintabona, and a subsequent
interview with Detective Henry Montes,
they edited those recordings?” Counsel's
objection to this argumentative question
was also sustained.

Further into her testimony, Oreb was
insisting that she had lied every time she
said she had heard the “hit a scrap”
statement. She maintained that it was not
acceptable to lie, which was why she was
then telling the truth. The prosecutor asked,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Appendix 104

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

“Okay. So recently, within the last two
weeks, you decided that you shouldn't lie?
[¶] [Oreb]: No, not within the last two
weeks. [¶] [The prosecutor]: When did you
decide you weren't going to lie? ... [¶] [Oreb]:
I don't know. [¶] [The prosecutor]: When did
it become important to you not to lie? [¶]
[Oreb]: It's always been important to me not
to lie. [¶] [The prosecutor]: Apparently it
wasn't so important each time you talked to
somebody in law enforcement?” Again both
defense attorneys objected to the question
as argumentative, but this time the court
overruled the objection. However, just
before playing the recording of the first
interview, the prosecutor asked why Oreb
had lied about hearing a knock at
Gonzalez's apartment window. Oreb
recounted how she had merely told the
interviewer what he wanted to hear. The
prosecutor asked, “Did it occur to you that
he didn't believe you?” Defense objections
were sustained as argumentative and
calling for speculation.

Oreb also testified that she used Townley's
name and the words about hitting a scrap
because that was what she had heard from
others. Defense objections were raised on
hearsay grounds. The trial court overruled
one objection on the ground that it went to
credibility. When defense counsel affirmed
that the questioning was relevant to
credibility only and not for the truth, the
court explained to the jurors that as to these
questions about the source of Oreb's
information, they could use Oreb's
testimony not for the truth of what other
people said but only to determine whether
Oreb was telling the truth about her
recollection.

Anthony Gonzalez also recanted the
statement he had made about the shooting
in police interviews. Like Oreb, he said he
did not remember what had happened that
night and had simply told the police what
they wanted to hear because they had
arrested him. Gonzalez said he kept telling
the detectives what he knew and they kept
telling him it wasn't true. Later, the
prosecutor asked Detective Ramsey about a
subsequent interview with Gonzalez.
Ramsey testified that the purpose of the
second interview was to “see if he'd be a
little bit more up front and cooperative”
with the officers. The prosecutor then asked,
“And did you find that he was a little bit
more forthcoming?” Townley's attorney
objected to the question as irrelevant, and
the objection was sustained.

“The standards governing review of
misconduct claims are settled. A prosecutor
commits misconduct under the federal
Constitution when his or her conduct infects
the trial with such ‘ “unfairness as to make
the resulting conviction a denial of due
process.” ’ [Citations.] Under state law, a
prosecutor who uses deceptive or
reprehensible methods to persuade the jury
commits misconduct even when those
actions do not result in a fundamentally
unfair trial.” (People v. Hawthorne (2009) 46
Cal.4th 67, 90, citing People v. Frye, supra,
18 Cal.4th at p. 969.)

*11 “ ‘[A] prosecutor is prohibited from
vouching for the credibility of witnesses or
otherwise bolstering the veracity of their
testimony by referring to evidence outside
the record.... However, so long as a
prosecutor's assurances regarding the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Appendix 105

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

apparent honesty or reliability of
prosecution witnesses are based on the
“facts of [the] record and the inferences
reasonably drawn therefrom, rather than
any purported personal knowledge or
belief,” [her] comments cannot be
characterized as improper vouching.
[Citations.]’ [Citation.]” (People v. Ward
(2005) 36 Cal.4th 186, 215.)

“In order to preserve a claim of misconduct,
a defendant must make a timely objection
and request an admonition; only if an
admonition would not have cured the harm
is the claim of misconduct preserved for
review. (People v. Alfaro (2007) 41 Cal.4th
1277, 1328....)” (People v. Hawthorne, supra,
46 Cal.4th at p. 90; People v. Lopez (2008)
42 Cal.4th 960, 965–966.)

Townley contends that “clear misconduct”
occurred when the prosecutor commented on
Oreb's lack of credibility. The court
sustained the objection to that remark,
however, and admonished the jury
accordingly, thus averting any prejudice.
The reference to the police impressions
during opening statement and the
questioning about Oreb's lies likewise
created no reversible misconduct. The court
properly ruled that the opening statement
did not violate the in limine order; and the
court sustained defense counsel's objections
to argumentative questioning of Oreb with
only one exception. That exception could not
have had a significant impact on the jurors'
perceptions of the case, as it only
emphasized what they already knew, that
Oreb had lied during questioning by the
police. The subsequent jury instruction to
ignore any question to which an objection

was sustained reinforced the court's
admonition and thus prevented any
prejudice. It is also noteworthy that no
requests to admonish the jury followed the
objections to the prosecutor's questions.

Otherwise, the examination of Oreb
proceeded without objection on the ground
now asserted. Townley has forfeited the
issue as to these questions, and does not
present analysis to support the bare
assertion of ineffective assistance of counsel.
In any event, it is clear that Oreb's
insistence that she had lied to the police
supported Townley's defense. Thus,
allowing the prosecutor to elicit this
testimony was justified as a tactical choice
by the defense. Failing to object to asserted
prosecutorial misconduct does not warrant
reversal on appeal for ineffective assistance
of counsel “except in those rare instances
where there is no conceivable tactical
purpose for counsel's actions.” (People v.
Lopez, supra, 42 Cal.4th at p. 972.)

As to the prosecutor's examination of
Gonzalez, the only objections made by the
defense were for hearsay, leading, and
irrelevance. The recordings of both Oreb
and Gonzalez were allowed over the
objection that they did not contain prior
inconsistent statements. The court properly
ruled in both cases that the witnesses had
fabricated their testimony—in Oreb's case,
that she had heard nothing at the window,
and in Gonzalez's case, that he did not
remember anything that had happened that
night.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Appendix 106

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

b. References to Townley's Bad Character

(1) Involvement in previous criminal activity

Without objection from the prosecution the
court granted a defense motion in limine to
preclude evidence that Townley had a
juvenile record and was on juvenile
probation at the time of the offense. Also
precluded without objection was evidence or
allegations that Townley might have been
involved in other shooting incidents.
Nevertheless, early in direct testimony by
Detective Phillips, the prosecutor asked him
what he had been asked to do on February
18, 2006. He answered that he had been
asked to assist another detective in
conducting a probation search, and he
started to recite the address when both
defense attorneys and the prosecutor
interrupted with objections. After conferring
privately with the witness, the prosecutor
resumed her examination with the question,
“You did a probation search first thing in
the morning on a different case; is that
right?” The witness replied in the
affirmative, and when asked whose house
he searched, he named the people who lived
there, including defendant Townley.

*12 Later, during testimony by Scot
Armstrong, a ballistics expert, he mentioned
two sheriff's numbers corresponding to two
cases. Subsequently he was referring to
“fired cases” identified as “REG–1, number

1 through 4. REG–110. And 131MH–001.”
The prosecutor directed the witness's
attention to the five “REG” casings
submitted when Townley's attorney
obtained a sidebar conference. After
completion of Armstrong's examination,
both defense attorneys moved for a mistrial.
The prosecutor acknowledged the in-limine
ruling but noted that she had directed the
witness not to mention any other
investigations. “Clearly, he forgot.” The slip,
the prosecutor stated, “certainly was not
anything intentional.” Moreover, she
argued, the jury was not likely to have
understood what the witness was referring
to by “SCD” numbers and different casings.
The court agreed that “there was not
enough there that the jury could possibly
infer that there were other investigations
going on or there were other bullets or
casing being investigated beyond what's in
this case.”

On appeal, Townley contends that the
prosecutor engaged in “highly prejudicial
misconduct” by eliciting information about
his probation status and other shootings. He
maintains that not only was the mention of
a probation search improper, but the
prosecutor “compounded the problem” by
informing the jury “both that Townley was
on probation, and that he was a suspect in a
different case.”

While “[i]t is misconduct for a prosecutor to
violate a court ruling by eliciting or
attempting to elicit inadmissible evidence in
violation of a court order” (People v. Crew
(2003) 31 Cal.4th 822, 839), it is evident
from the record that the incipient reference
to a probation search occurred because

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

Appendix 107

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

Phillips forgot to avoid mentioning any case
but this one. It is true that a prosecutor “
‘has the duty to guard against statements
by his witnesses containing inadmissible
evidence,’ and if a prosecutor ‘believes a
witness may give an inadmissible answer
during his examination, he must warn the
witness to refrain from making such a
statement.’ ” (People v. Earp (1999) 20
Cal.4th 826, 865.) Here, however, the
prosecutor did warn the witness not to refer
to other investigations; and when he
slipped, she interrupted her examination
apparently to remind him. As in Earp,
“nothing in the record suggests that the
prosecutor had a basis for anticipating the
response in question by Detective [Phillips].
Therefore, there was no prosecutorial
misconduct.” (Ibid.)

As to the disclosure of the additional
forensic investigation, Townley disputes the
People's characterization of the disclosures
as inadvertent; in his view, it was part of a
“demonstrated pattern of ignoring or
attempting to evade the trial court's
rulings.” We find no error in the trial court's
ruling, however. As did the trial court, we
find the prosecutor's brief references to
obscure case numbers unlikely to encourage
the jurors to speculate that Townley was
being investigated for other shooting
incidents. She mitigated potential harm by
refocusing the witness's account on the
shooting of the night before, relegating the
mention of a probation search to an
apparently unrelated case. The court's
determination that the disclosure was
obscure, unintentional, and unlikely to
cause prejudice is supported by substantial
evidence.

(2) Evidence that Townley was Dangerous
Detective Ramsey testified that while
Detective Makdessian was transporting
Townley to the sheriff's station, Ramsey,
who was in the car ahead, received
information from Sergeant Sulay that
caused him to alert Makdessian to stop the
patrol car. The officers asked Townley to
step out of the car; then they handcuffed
him and examined his shoes. Inside the
right shoe was an unloaded pistol; in the left
shoe was a bag containing cartridges.
During the direct examination of Ramsey,
the prosecutor asked him to describe his
“degree of alertness” in this encounter. The
witness replied, “Extremely heightened.”
The prosecutor then asked, “Did you feel
that your safety was in danger?” The
witness answered, “Yes.” At that point,
however, Townley's attorney objected and
moved to strike. The court granted the
motion and admonished the jury to
disregard the answer. The prosecutor's next
question, whether Ramsey had his gun out,
was answered in the negative; but when she
asked why not, his answer—“I didn't want
to—” was interrupted by another objection
on irrelevance grounds, which was also
sustained.

*13 While Detective Makdessian was
describing the same events, he stated that
while transporting Townley he received an
urgent call from then—Deputy Fish over the
car radio, which the detective returned by
cell phone. The prosecutor asked, “Did you
have a physiological response after you had

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

Appendix 108

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

that phone conversation with Sergeant
Fish?” Defense counsel objected to the
question as irrelevant, and the court
sustained the objection. After describing
Detective Ramsey's removal of the gun from
Townley's shoe, Makdessian was asked,
“Had you ever transported somebody
unhandcuffed with a gun before?” He
answered, “Never.” The prosecutor
continued, “Do you anticipate ever doing
that again?” Another defense objection to
the irrelevant question followed and was
sustained.

Sergeant Fish was also questioned about
the discovery of the gun. Hearsay and
irrelevance objections were sustained to two
questions: about what a witness had told
him and about whether Sergeant Sulay's
telephone call was related to officer safety.
Because the question about officer safety
was answered (“Very much”) before the
objection was sustained, the court
instructed the jury to disregard the answer.

Townley contends that this line of
questioning improperly suggested that
Townley was a danger to the officers' safety.
The questions, however, did not imply that
the officers were actually threatened by
Townley, nor that their safety concerns
were caused by anything other than the
knowledge that there was a passenger in
the backseat with access to a weapon. In
any event, the questions were at worst
irrelevant and they provoked objections
sustained on that ground. No prejudice
resulted from the prosecutor's line of
questioning about officer safety.

Townley further argues that the prosecutor
tried to give the jurors the impression that
Flores was in protective custody because the
defendants were a threat to him. The
prosecutor was permitted to bring out
Flores's statement that he was in “PC,” or
protective custody. When the prosecutor
asked whether he was in protective custody
because he had given a statement to the
sheriff's deputies, the objection as
speculation was sustained. Then the
prosecutor asked, “Who is housed in
protective custody?” Objections on multiple
grounds followed, and the court suggested
that the prosecutor move on to other
questions until they could discuss the issue
later. After the jury had left for the day, the
prosecutor protested that it was important
to present the evidence that he had to be
housed in protective custody and
transported separately because he was a
snitch and had negative feelings about that
“category.” The court pointed out that Flores
had said he was not afraid to be there
testifying. Following extensive debate on
the issue, the court cited the right to a fair
trial and sustained the defense objection.

Flores eventually admitted that he did not
want to tell the police about what his
companions had done the night of the
shooting because he did not want to get
them in trouble. The prosecutor questioned
Flores further about what he thought of
people who told the police about crimes
others had committed. Her questions about
why Flores did not want to tell the police
what had happened the night of the
shooting were permitted; but the court
sustained relevancy objections to her
question about what word was used to
describe a person who told the police what

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

Appendix 109

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

someone else had done, as well as the
questions about what Flores thought about
such people. The court overruled the
objection to the question whether he wanted
to be such a person. Flores said he might get
hurt. The prosecutor was not so successful
in asking whether Flores felt like a Good
Samaritan; he did not have an opinion
about whether a person who told the police
about a crime was a Good Samaritan, and
he did not feel like one when he was talking
to the police. The question “Why not” was
met with another objection, which was
sustained as irrelevant. At that point the
court directed the prosecutor to move on to
another area, and she did.

*14 The prosecutor later asked Flores
whether he had wanted to talk to the police;
he said he had not. When she asked why, a
defense objection was overruled and Flores
simply answered that he had not wanted to
get in trouble. Flores explained that he had
eventually told the truth to Sergeant Sulay,
though he did not like talking to him. The
question “Why not?” was again met with an
irrelevance objection, which was sustained.
Also sustained were similar objections to
the question, “Why did you ultimately tell
Sergeant Sulay the truth?” and the
question, “What did you think about
yourself for [telling Sergeant Sulay what
had happened the night before].”

Ginger Weisel, the victim's neighbor at the
Ocean Terrace apartment complex, testified
at length about what she had seen that
night. On redirect, the prosecutor asked
whether she wanted to be there testifying;
she answered that she did not. The
prosecutor asked why; and the defense

objection (“352”) was overruled. The witness
responded that she did not “need to be part
of this” and did not “want problems.” She
then was allowed, over objection, to testify
that she was familiar with gangs and knew
there were Surenos living at the complex.

The jury subsequently heard from Detective
Montes, the gang investigator who related
Oreb's statement that she had “heard
somebody say they hit a scrap.” Oreb was
not threatened with custody, nor was
Gonzalez in custody at the time of the
detective's interview with her. The
prosecutor asked Detective Montes whether
it had appeared to him that Oreb “was at all
reluctant” to tell him that she did not
remember looking out the window, but
defense objections were sustained. The
prosecutor then asked whether Oreb's
demeanor had suggested any reluctance or
timidity, and another objection was
sustained. The jury was instructed to
disregard the last two answers, but no
answer to either question exists on the
record.

When Gonzalez was describing his
interview with sheriff's deputies, he was
asked whether he was “scared” while
talking to them. The court sustained
defense counsel's objection to the question
as irrelevant. Also sustained were questions
about whether he remembered contrasting
his concern about his freedom “with
something else” (irrelevant); whether he had
wanted to speak with the police officers
(irrelevant), and whether he wanted to be
there testifying (asked and answered). Later
the prosecutor asked, “Did you feel that, or
do you feel now that talking about what

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

Appendix 110

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

happened that night is dangerous for you?”
The objection (“irrelevant. 352.”) was
sustained. Then the prosecutor repeated the
question, “Do you want to talk about what
happened that night?” The same objection
was sustained, along with the court's
comment that this question had been asked
and answered.

This record reveals that to the extent that
the prosecutor sought to portray witnesses
as in fear of Townley, she was unsuccessful.
Whenever she asked a question that could
have suggested an answer revealing fear by
a witness, defense counsel interrupted with
a timely objection, and if the witness had
already answered, the jury was instructed
to disregard it. In addition, the jurors were
instructed at both the beginning and the
end of trial that the attorneys' remarks and
questions were not evidence; only the
witnesses' answers were evidence. They also
were told that if an objection was sustained,
they must ignore the question, refrain from
guessing what the answer might have been,
and disregard any answer that might have
been given. (Cf. People v. Hamilton (2009)
45 Cal.4th 863, 928–929 [instruction that
attorneys' questions were not evidence
eliminated the possibility of jury's
considering facts not in evidence].) “As a
general matter, we may presume that the
jury followed the instructions it was given ...
and defendant has failed to supply any
persuasive reason to suppose the jury
instead would have accepted as evidence the
insinuation allegedly implicit in the
prosecutor's questions.” (People v. Prince
(2007) 40 Cal.4th 1179, 1295.) Accordingly,
no prejudice could have resulted from any
improper questions posed by the prosecutor.

c. Comments during Argument to the Jury
*15 “When the issue ‘focuses on comments
made by the prosecutor before the jury, the
question is whether there is a reasonable
likelihood that the jury construed or applied
any of the complained-of remarks in an
objectionable fashion.’ [Citations.] A
prosecutor is given wide latitude during
closing argument. The argument may be
vigorous as long as it is a fair comment on
the evidence, which can include reasonable
inferences or deductions to be drawn
therefrom. ‘ “A prosecutor may ‘vigorously
argue his case and is not limited to
“Chesterfieldian politeness” ’ [citation], and
he may ‘use appropriate epithets....’ ” ...’ ”
(People v. Harrison (2005) 35 Cal.4th 208,
244; People v. Williams (1997) 16 Cal.4th
153, 221.)

“ ‘To prevail on a claim of prosecutorial
misconduct based on remarks to the jury,
the defendant must show a reasonable
likelihood that the jury understood or
applied the complained-of comments in an
improper or erroneous manner.’ [Citation.]”
(People v. Wilson (2005) 36 Cal.4th 309,
337.) “In conducting this inquiry, we ‘do not
lightly infer’ that the jury drew the most
damaging rather than the least damaging
meaning from the prosecutor's statements.”
(People v. Frye, supra, 18 Cal.4th at p. 970.)
“We presume the jurors treated ‘the
prosecutor's comments as words spoken by
an advocate in an attempt to persuade’
[citation]....” (People v. Cole (2004) 33
Cal.4th 1158, 1204.) In addition, while a
defendant may single out certain comments
made by the prosecutor during argument in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

Appendix 111

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

order to demonstrate misconduct, as the
reviewing court we “must view the
statements in the context of the argument
as a whole.” (Id. at p. 1203.) Finally, “ ‘A
defendant's conviction will not be reversed
for prosecutorial misconduct ... unless it is
reasonably probable that a result more
favorable to the defendant would have been
reached without the misconduct.’
[Citation.]” (People v. Harrison, supra, 35
Cal.4th at p. 244; People v. Bolton (1979) 23
Cal.3d 208, 214.)

(1) Appealing to Fear of Gang Violence
Townley protests the prosecutor's “improper
comments that preyed upon the jury's fear”
during her argument. One of the challenged
remarks occurred in the context of the
prosecutor's discussion of the natural and
probable consequences of an assault: “Is
somebody almost dying a natural and
probable consequence of assaulting a rival
gang member in that rival gang member[']s
turf? Read about it all the time. You read ...
about it all the time. Gang fights where
somebody ends up dead.” At this point
Carranco's attorney objected, but the
prosecutor maintained that she was only
talking about natural and probable
consequences. The court cautioned her to be
“careful about the intent issue” and
overruled the objection. The prosecutor then
continued with the point that one has to
intend the assault, but “almost being killed
[was] a natural and probable consequence”
of an attack by a rival gang member.

During her closing argument, the prosecutor
used the facts that Lazaro was shot five
times and that “there were additional
bullets brought” to show that Townley had
premeditated and planned to kill the victim.
She queried, “Why did he need all those
bullets? Why did he need all those bullets?
Maybe they were going to go out and do
another one. But why, if you don't mean to
kill somebody, do you need to have to [sic ]
all that?” Carranco's attorney objected that
“[k]illing is an improper argument,” but the
objection was overruled.

Townley contends that these comments,
together with the questions suggesting that
the officers were in danger from the
defendants and that the witnesses feared
the defendants, “were a blatant plea to the
fears and vulnerabilities of the jurors, and
were calculated ‘to induce a level of fear in
the jurors so as to guarantee a guilty
verdict.’ ” He compares this situation to
Commonwealth v. Mendiola (9th Cir. 1992)
976 F.2d 475 (overruled on another ground
in George v. Camacho (9th Cir.1997) 119
F.3d 1391), where the prosecutor's appeal to
jury fears of the defendant's dangerousness
constituted clear misconduct from which
prejudice was “highly probable.” (Id. at p.
487.) This case, however, bears no
resemblance to Mendiola. There the
prosecutor's inflammatory argument evoked
an image of a dangerous criminal who, if
freed, would walk out of the courtroom
“right behind” them and retrieve the gun.9
(Id. at p. 486.) In this case the prosecutor's
speculation about the defendants' intentions
on the night of the shooting was a far cry
from the clear attempt to evoke fear and
alarm among the Mendiola jurors, and the
reference to gang fights was confined to her

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20

Appendix 112

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

discussion of the natural and probable
consequences of a gang-motivated assault.

*16 Townley's further reliance on People v.
Vance (2010) 188 Cal.App.4th 1182 and
United States v. Sanchez (9th Cir. 2011) 659
F.3d 1252 is similarly misplaced. The
prosecutor did not, as in Vance, urge the
jurors to view the crime through the victim's
eyes and imagine the victim's suffering, or
comment derisively on either defendant's
courtroom demeanor. Nor did she suggest in
some version of the prosecutor's argument
in Sanchez, that by convicting Townley they
would “ ‘protect community values, preserve
civil order, or deter future lawbreaking.’ ”
(United States v. Sanchez, supra, 659 F.3d
at p. 1256.)

(2) Racially Biased Remarks
A prosecutor engages in misconduct if he or
she refers to facts not in evidence, thereby “
‘offering unsworn testimony not subject to
cross-examination.’ ” (People v. Hill (1998)
17 Cal.4th 800, 828.) In Hill the prosecutor
impugned the testimony of a defense
witness who had witnessed the killing while
visiting a friend whose last name was Hill.
In an “outrageous fabrication,” the
prosecutor asked the jury to infer from the
similarity of the names that the defendant
and witness were related. (Id. at p. 829.)
Townley contends that the prosecutor
engaged in “almost identical” misconduct to
that condemned in Hill, through remarks
that were racially and ethnically biased.

The source of the challenged argument was
the prosecutor's characterization of the
perpetrators' “culture” and the suggestion
that Townley was part of that culture. The
prosecutor argued that Flores was scared to
identify his companions. “He didn't want to
dime people out. He didn't want to be a rat.
Nobody wants to be a rat in that culture. In
our culture we generally call it a Good
Samaritan helping police solve a case.
Different culture.” Then, referring the jury
to the “two different Spanish voices” that
called out to the victim, the prosecutor
commented that Townley “may or may not”
speak Spanish, although Townley's
girlfriend had testified that he did not know
Spanish. The prosecutor also pointed out
that “one of his sur names [sic ] is
Hernandez.” She did not acknowledge
Flores's testimony that he had never heard
Townley speak Spanish.

Townley contends that the prosecutor
engaged in misconduct by making the
incorrect, racially biased suggestion that
Townley spoke Spanish and implying that
he was part of a culture that frustrates
police investigation.10 Our reading of the
record, however, is more consonant with the
People's interpretation. The prosecutor's
reference to a “different culture” occurred in
the context of her discussion of gang
behavior, including the resistance being a
“snitch.” The prosecutor had already
established during examination of Flores
that he had not wanted to tell the police
about what the group had done that night
because he did not want to get them in
trouble. She repeatedly used the term “Good
Samaritan” and elicited Flores's statement
that he did not feel like a Good Samaritan
by talking to the police. We see no

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21

Appendix 113

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

impermissible racial or ethnic insinuations
in the challenged reference to being a “rat”
on others. At worst it was illogical, creating
a false comparison between a “rat” and a
Good Samaritan. In addition, in further
discussing Flores's reluctant testimony, the
prosecutor clarified her associations by
specifically referring to “the gang culture.
That's where this happened that night. That
particular culture.”

*17 As for the comment that Townley “may
or may not” speak Spanish, the prosecutor's
erroneous suggestion was not clearly
deliberate. Moreover, it was corrected by
Townley's attorney, who pointed out that
the prosecutor had incorrectly recalled or
misunderstood the evidence. He reminded
the jury that two witnesses, not just one,
had explained that Townley did not speak
Spanish.11 This correction, together with the
jury instruction to rely on the evidence
rather than argument, dispelled any
potential prejudice that conceivably could
have resulted from the prosecutor's
misstatement.

(3) Misstating the Burden of Proof
Townley further challenges three
statements the prosecutor made during her
argument to the jury. In her opening
argument, she said, “I want to highlight a
couple of things about Townley being the
shooter. I suspect most of you don't have
much doubt in your mind about whether he
is the shooter.” We do not regard this
comment as a claim that the prosecutor
professed to have personal knowledge of

Townley's guilt, so the People's response is
not helpful. Instead, Townley merely asserts
that the prosecutor suggested she had a
personal belief in his guilt and thus
“lowered the burden to overcome doubt
about this factual question.” We disagree.
The remark was brief and did not suggest
that Townley had to refute her personal
belief by presenting his own evidence.
Moreover, the defense objection to it was
sustained. The prosecutor then rephrased
her comment to say, “Based on the evidence,
all of the evidence you heard, the evidence
doesn't support you[r] having a reasonable
doubt as to whether ... Townley was the
shooter.”

The prosecutor introduced her closing
argument by revisiting the concept of
reasonable doubt: “[W]hat I want to tell you
is [that] juries have worked with this for
hundreds of years. It's not super-esoteric.
It's a doubt to which you can assign a
reason. And the reason that's so important
is because [sic ] jury deliberations are a
group activity. You all will deliberate
together. And in order for you to be able to
effectively do that, it can't be a feeling,
because it's very difficult to put feelings into
words so that all of you folks can talk about
it. So it has to be a reasonable doubt based
on the evidence. So remember, it isn't a
feeling like I feel like maybe something's
amiss. It's something you can put your
finger on and talk to your fellow jurors
about.”

Townley contends that this argument
misstated the law in the same manner that
the Supreme Court condemned in People v.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

Appendix 114

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

Hill, supra, 17 Cal.4th at page 831.
Reversal is not required, however. First, he
did not object to the prosecutor's statement,
thus forfeiting the issue. Secondly, the
challenged remark was not comparable to
the argument rejected in Hill. There, the
prosecutor stated that in order to have
reasonable doubt, “ ‘you have to have a
reason for this doubt. There has to be some
evidence on which to base a doubt.’ ” (Id. at
p. 831. ) The trial court clouded the picture
further by not only overruling the defense
attorney's objection, but also chastising him,
thereby appearing to endorse the
prosecutor's incorrect position and
potentially biasing the jury against the
defense. The prosecutor then continued: “
‘There must be some evidence from which
there is a reason for a doubt. You can't say,
well, one of the attorneys said so.’ (Italics
added.)” (Id. at p. 831.)

*18 Here the prosecutor did not
affirmatively state that the defendant must
have produced evidence to support a
reasonable doubt; she said only that there
must be a reasonable doubt based on the
jurors' evaluation of the evidence presented.
It is not reasonably likely that her
statement would have been understood by
the jury to mean that Townley had the
burden of producing evidence to
demonstrate a reasonable doubt of his guilt.

Later in her argument the prosecutor
stated: “I want to remind you that the
evidence doesn't have to eliminate any
possible doubt. Just any reasonable doubt.
That's all. That is all. There's always going
to be possible doubts. But what an abiding
conviction really is, what it boils down to, is

it sits right in your gut. You feel okay, you
feel good about the decision you made.
Maybe some of you regret it later? Perhaps
in a way. Perhaps some of you may feel
badly about being involved in this trial.
Something very violent happened to a nice
guy. He was almost killed. Who wants to be
a part of that? The Defendants are young.
That is tragic. It's nothing short of tragic.
But they made very adult decisions that
night and, in fact, they made a very adult
decision with somebody's life hanging in the
balance. That is what they did that night.”

Townley argues that these statements
lowered the burden of proof by “equat[ing]
abiding conviction to a moral certainty with
something that the jury feels ‘okay’ about or
‘good about the decision’ even if ‘[m]aybe
some of you regret it later.’ ” Again there
was no objection to the prosecutor's
explanation. Townley misinterprets the
prosecutor's reference to regret; she was
suggesting that some jurors might feel bad
about convicting young people involved in a
tragic event; yet they were making adult
choices that almost cost an innocent person
his life. Characterizing “abiding conviction”
as a conviction that “sits right in your gut”
is not equivalent to a mere hunch or “gut
feeling.” Thus, even if Townley had
preserved this claim by a timely objection,
we would find no basis for reversal. (Cf.
People v. Barnett (1998) 17 Cal.4th 1044,
1156 [describing “beyond a reasonable
doubt” as “that feeling, that conviction, that
gut feeling that says yes, this man is guilty”
was not a purported definition of “moral
certainty” and did not cause a
misunderstanding of the reasonable doubt
instruction].) As in Barnett, the trial court's
instructions, together with the correct

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

23

Appendix 115

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

statements of the standard by both defense
counsel, mitigated any misstep in the
prosecutor's characterization of the
standard of proof and emphasized the
burden placed on the prosecution to prove
every element beyond a reasonable doubt.
Hence, we find no reasonable likelihood
either that the jury construed the
prosecutor's remarks as requiring the
defendant to carry any burden of proof or
that the jury misapplied the relevant law.

(4) Misstating Facts
Townley points to two instances he believes
constituted misconduct by misstating facts.
First, during opening argument the
prosecutor was discussing Flores's
declaration, and in particular his “mistake”
about what he was wearing the night of the
shooting. She stated, “When he was
speaking with sheriff's deputies, they didn't
make him any promises. They didn't tell
him we'll cut you some slack if you come
clean.” The prosecutor went on to emphasize
how reluctant Flores was to “come clean”
and tell the officers what had happened. He
did so, she pointed out, without distancing
himself or minimizing his own role. She
concluded, “There's nothing, nothing to
suggest that he was doing anything but
telling the truth that day. [¶] No promises
from the D.A.'s office. He admitted that he
understood what he had to do if he was
called as a witness was to tell the truth.
There's no evidence that he doesn't like
these guys, that he'd want to set them up
for some reason. Nothing. He just met
Carranco that night. There was no
suggestion that he had any ill-will toward

Townley, so why would he? Why would he
set 'em up? He didn't get anything out of it.
Again, deputies didn't promise him
anything.”

*19 Townley again forfeited any challenge
to this alleged misstatement by failing to
object. Were we to address the merits, we
would reject the People's assertion that the
prosecutor spoke accurately when she said
Flores received no benefit from testifying.
Although his declaration contained the
statement that he did not have “an
agreement to testify in exchange for telling
the truth in this declaration,” it also
reflected the plea deal he had made with the
district attorney. Nevertheless, the jury was
fully aware of the negotiated disposition of
Flores's case. At trial Flores acknowledged
that he had pleaded to a reduced charge,
that he might be called to testify, and that
if called he would have the obligation to tell
the truth.

Townley also takes issue with the following
statement by the prosecutor: “When people
talk about going to prison for life, they are
talking about killing somebody.” The
prosecutor was referring to Townley's
statement to Fritts–Nash that he was
“looking at 25 to life.” Townley contends
that the comment “not only misstated the
evidence, but ... suggested that the
prosecutor had evidence beyond the record
to support her assertions.” The prosecutor's
statement was an illogical inference from
the facts and an incorrect statement of the
law. Nevertheless, defense counsel's
objection was sustained, thus minimizing
any harm.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

24

Appendix 116

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

(5) Sarcastic Remarks
Finally, Townley argues that the prosecutor
made “a host of sarcastic comments in front
of the jury,” directed at defense witnesses as
well as the attorneys. “A prosecutor
commits misconduct if he or she attacks the
integrity of defense counsel, or casts
aspersions on defense counsel. [Citations.]”
(People v. Hill, supra, 17 Cal.4th at p. 832;
People v. Vance, supra, 188 Cal.App.4th at
p. 1200.) “ ‘ “An attack on the defendant's
attorney can be ... seriously prejudicial as
an attack on the defendant himself, and, in
view of the accepted doctrines of legal ethics
and decorum [citation], it is never
excusable.” ’ [Citation.]” (People v. Vance,
supra, 188 Cal.App.4th at p. 1200.)

Townley specifically focuses on two
incidents. The defense had called Laurie
Kaminski, an expert in gunshot residue,
who had watched a video showing Townley
rubbing his hands together and touching his
shirt. Kaminski suggested that gunshot
residue might be transferred from the shirt
to his hands. She also expressed the opinion
that it can be misleading to try to establish
the meaning of gunshot residue based on its
location, because particles “redistribute
themselves.” Thus, residue on someone's
hands could result from being near a gun
when fired, or from handling a fired gun or
fired ammunition. In cross-examining
Kaminski, the prosecutor asked what the
odds would be of contamination ending with
the right hand having significantly more

particles than the left hand or sleeve.
Kaminski explained that there would be no
way to estimate those odds. The prosecutor
suggested, “Sure a curious coincidence,
wouldn't you say?” A defense objection,
“argumentative,” was sustained.

Even if this was an impermissible comment
on the evidence, it was brief and
insignificant, and in any event it was
tempered by the ruling sustaining the
objection. We find no harm from the offhand
remark.

The second comment occurred during
closing argument, when the prosecutor was
going over Carranco's participation and
Townley's admissions to Fritts–Nash after
the shooting. The trial court overruled an
objection by Carranco's counsel to the
depiction of Carranco as saving face by
getting out of the car with the other two
assailants. At that point the prosecutor
said, “If I'm lucky, I can be accused of
misconduct one more time.” This sarcastic
remark was clearly gratuitous, but it had no
bearing on the issues, and it only cast the
prosecutor in an even more pejorative light,
making her appear petty and querulous.
And when Carranco's attorney asked the
court to strike her remark, the prosecutor
responded with yet more petulance:
“Perhaps you should admonish Counsel as
[sic ] to stop objecting on that [misconduct]
basis.” The trial court appropriately curbed
such fractiousness by telling the prosecutor
to “Just finish the argument.” No prejudice
to Townley resulted from the prosecutor's
intemperate but self-defeating conduct.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

25

Appendix 117

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

3. Trial Court's Comments on Witness
Credibility
*20 During cross-examination of Flores and
later in closing argument, defense counsel
suggested that Flores had merely assented
to the detectives' leading questions without
independently recalling facts. In
cross-examining Flores, counsel for both
defendants brought out Flores's initial
denial to the police that he had witnessed
anything, along with questions apparently
designed to suggest that (a) Flores was
m a ni pul ated into a dm i t t i ng hi s
participation in the crime and (b) Flores's
plea bargain was an incentive for testifying
against Townley and Carranco.12 The
following colloquy took place in
cross-examination by Carranco's attorney:
“Q. And early on when you're talking to
Detective Ramsey, you initially told him
several times that you didn't know anything
about this; is that correct?” After the
prosecutor's objection was overruled, Flores
answered “Yes” and counsel continued: “And
Detective Ramsey, during that interview,
conveyed to you that they already had some
information about this situation; is that
correct? [¶] A. Yes. [¶] Q. Detective Ramsey
also told you he didn't believe your
statement that you didn't know anything
about this situation; is that correct? [¶] A.
Yes. [¶] Q. Detective Ramsey at one point
called you a stand-up guy; is that correct?
[¶] [The prosecutor]: Your Honor, objection.
Hearsay. It exceeds—[¶] THE COURT: It's
all irrelevant. Sustained.” When Carranco's
attorney tried to defend his question as
relevant to Flores's state of mind, the court
responded with the explanation challenged
on appeal: “We've already established by
everyone's agreement that whatever—most
of what he told Detective Ramsey wasn't the

truth, and that he told what he thinks
characterizes the truth to Sergeant Sulay
later in the interview. That's my
understanding of the testimony in this case.
I don't know where you're going with
characterization and police tactics used by
Detective Ramsey. And those aren't actually
that relevant.”

Shortly thereafter, Carranco's attorney
brought out Flores's acknowledgement that
in the interrogation room he was nervous
and scared and afraid of being locked up.
The next question—“And you asked
detectives if you were going to be able to go
home; is that correct?”—prompted an
objection by the prosecutor on relevance
grounds. Counsel responded, “Goes to the
credibility of the statement that he's
making.” But the court disagreed,
explaining that “[t]he credibility is what
he's saying today, not what he said back
when he was interviewed. You all have to
use his interview for impeachment of
different purposes, but the jury has to focus
on whether his testimony today is truthful
or not, and on the other indications here
that they've heard.”

Townley contends that these rulings
violated his Sixth Amendment rights to
present a defense and cross-examine
witnesses, because the court improperly
commented on the evidence and “cut-off [sic
] reasonable attempts to demonstrate that
[Flores's] testimony was the product of
threats and promises of leniency.” Even if
Townley's attorney had made a proper
objection, we would reject his contention, as
we find no impairment of Townley's

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

26

Appendix 118

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

constitutional rights. The court was not
declaring the police tactics irrelevant to
Flores's credibility at trial; it was merely
observing that it had already been
established that Flores had not told the
truth to the deputies when first interviewed.
The colloquy did not significantly add to the
jury's understanding of the defense position.

The issue presented here is not comparable
to the cases on which Townley relies. He
cites only one part of the holding in Crane v.
Kentucky (1986) 476 U.S. 683 (106 S.Ct.
2142), where the Supreme Court explained
that the right to a fair trial was violated by
the “blanket exclusion” of testimony about
the circumstances of the defendant's
confession. (Id. at p. 690.) The high court
cited its earlier decision in which it had
explained that while “ ‘the exposure of a
witness'[s] motivation in testifying is a
proper and important function of the
constitutionally protected right of
cross-examination,’ ” a defendant is not
entitled to “ ‘cross-examination that is
effective in whatever way, and to whatever
extent, the defense might wish.’ ” (Delaware
v. Van Arsdall, supra, 475 U.S. at pp.
678–679.) Accordingly, “trial judges retain
wide latitude ... to impose reasonable limits
on such cross-examination based on
concerns about, among other things, ...
interrogation that is repetitive or only
marginally relevant.” (Id. at p. 679.)
California v. Green (1970) 399 U.S. 149, 158
also is not helpful to Townley; the cited
holding merely confirms that “the
Confrontation Clause is not violated by
admitting a declarant's out-of-court
statements, as long as the declarant is
testifying as a witness and subject to full
and effective cross-examination.” People v.

Fierro (1991) 1 Cal.4th 173, 221 only offers
the reminder that a prior inconsistent
statement is admissible “not only to
impeach credibility but also to prove the
truth of the matters stated.” And People v.
Rodriguez (1986) 42 Cal.3d 730, 772 is
inapposite because it addressed judicial
comments to a deadlocked jury; indeed, the
court emphasized that “accurate, temperate,
nonargumentative, and scrupulously fair”
commentary is not tantamount to coercing
the deadlocked jurors into reaching a
verdict. (Id. at p. 766.) “Accordingly, we
have made clear that the trial court has
broad latitude in fair commentary, so long
as it does not effectively control the verdict.
For example, it is settled that the court
need not confine itself to neutral, bland, and
colorless summaries, but may focus
critically on particular evidence, expressing
views about its persuasiveness.” (Id. at p.
768.) The court in this case did not even go
that far; not only were the coercive
circumstances of a deadlocked jury absent
here, but there was no comment beyond
pointing out a fact that had already been
established.

*21 Nor is this case analogous to People v.
Sturm (2006) 37 Cal.4th 1218. There the
trial judge's comments during the penalty
phase of trial told the jury that the
defendant had been convicted of
premeditated murder, which was not true.
That inaccurate statement not only
advanced the prosecutor's argument that
the defendant had premeditated the
murders, but “severely damaged” the
defense position that lack of premeditation
and deliberation was a mitigating factor in
the penalty decision. (Id. at p. 1232.) No
such damage occurred here. The court's

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

27

Appendix 119

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

statement was accurate in that Flores's
credibility on the witness stand was the
critical point the jury had to determine. If
his trial testimony was false, defense
counsel could use the circumstances of his
prior statement for impeachment; and
Townley's attorney did so by bringing out
the details of Flores's plea agreement with
the prosecution. Defense counsel also stated
in closing argument that Flores tended to
agree with any suggestion made to him
about the facts. Only Carranco's attorney
was curtailed in his cross-examination of
Flores on the veracity of the statements
made to Detective Sulay. The court acted to
control the proceedings and minimize jury
confusion by limiting Carranco's
cross-examination to testimony bearing on
Flores's credibility at trial. Townley himself
was not deprived of a fair trial by the trial
court's ruling. Furthermore, any potential
jury misunderstanding would have been
averted or corrected in the instruction with
CALCRIM No. 318, which told the jurors
that they could use the prior statement to
evaluate whether Flores's trial testimony
was true and whether his statements to the
detectives were true.

procedural posture. We further cannot find
ground for reversal in either the
prosecutor's intemperate conduct during
trial or the trial court's reference to a
witness's credibility.

Disposition
The judgment is affirmed.

WE CONCUR:
RUSHING, P.J.
PREMO, J.
All Citations
Not Reported in Cal.Rptr., 2013 WL
3939441

Conclusion
On the record before us we are unable to
discern a reasonable probability that, but
for the interference with defense counsel's
ability to discuss Flores's declaration with
Townley, the outcome of trial would have
been different. (Strickland, supra, 466 U.S.
at p. 694.) Whether additional evidence of
prejudice exists outside the appellate record
is not a question we can answer in this
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

28

Appendix 120

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

Footnotes
1

According to gang expert Roy Morales, a sergeant in the Santa Cruz County sheriff's
office, Nortenos and Surenos are rival Hispanic gangs. Nortenos identify with the color
red, the letter N, the Huelga bird symbol, and various representations of the number
14. Surenos identify with the color blue, the letter M, and various representations of
the number 13. “Scrap” or “scrapa” is a pejorative term Nortenos use for Surenos.
Flores was aware that Southerners associate with blue and Northerners associate with
red. Flores denied being a Norteno gang member or associating with Norteno gang
members, but he admitted associating with Norteno associates.

2

One of the detectives who investigated the case testified that Townley was about five
feet, seven inches. Carranco was about five feet, six inches; and Rocha, about five feet,
nine inches.

3

In contrast to a Strickland ineffective-assistance claim, however, in a confrontation
clause violation, “the focus of the prejudice inquiry ... must be on the particular
witness, not on the outcome of the entire trial.” (Delaware v. Van Arsdall (1986) 475
U.S. 673, 680.) The standard adopted in Van Arsdall followed Chapman v. California
(1967) 386 U.S. 18, 24—that is, the error was required to be harmless beyond a
reasonable doubt.

4

“ ‘These factors include the importance of the witness' testimony in the prosecution's
case, whether the testimony was cumulative, the presence or absence of evidence
corroborating or contradicting the testimony of the witness on material points, the
extent of cross-examination otherwise permitted, and, of course, the overall strength
of the prosecution's case.’ ” (Hernandez, supra, 53 Cal.4th at p. 1108, quoting Delaware
v. Van Arsdall, supra, 475 U.S. at p. 684.)

5

The parties agreed that the shooter wore People's Exhibit 23, a red and black plaid
shirt or jacket.

6

Flores's declaration has been unsealed, pursuant to the superior court's order on
December 11, 2012.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

29

Appendix 121

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

7

The prosecutor also successfully objected to defense counsel's reading the title of the
document. Carranco's counsel tried to ask Flores about the requirement that he sign
the declaration in order to obtain the three-year sentence; again the prosecutor's
objection was sustained, as was a question about Flores's methamphetamine use on
the night of the shooting. In the jury's absence, the court explained that it also
sustained some of the prosecutor's objections because they were “questions about
things that weren't in the document ... suggesting to the jury that we'd intentionally
omitted facts. And that's misleading.” Eventually the trial court took judicial notice of
the fact that the declaration was part of a plea bargain and accordingly instructed the
jury.

8

We deny Townley's request that we take judicial notice of two unpublished opinions
discussing conduct by this prosecutor. In addition, we will disregard Townley's
discussion of People v. Shazier, H035423, as that case has been granted review by the
Supreme Court.

9

The Mendiola prosecutor told the jury, “Now as I said, a lot of people are interested in
your decision.... Everyone in Saipan is interested. That's why there are so many people
in the courtroom. The people want to know if they are going to be forced to live with
a murderer. [¶] Your job is to worry about Mr. Mendiola. And when I say worry, I mean
worry. Because that gun is still out there. [¶] Mr. Mendiola deserves to be punished for
what he did and that's your decision. And it's important because, as I said, that gun
is still out there. If you say not guilty, he walks out right out the door, right behind
you.” (Commonwealth v. Mendiola, supra, 976 F.2d at p. 486.)

10

Susan Randolph had believed that all three were Hispanic. David Bacon saw only two
of the assailants, who appeared to be of “Latino origin.” Jeanne Taylor described the
shortest of the three, the one with the black and red plaid jacket, as being of dark
complexion. Ginger Weisel described the gunman as five feet nine inches, but she did
not see any of their faces. They were yelling in English. Randi Fritts–Nash, one of the
teenagers drinking at the apartment, described Townley as white, while the others
were Hispanic. In her first interview at the station Oreb also described Townley as a
“white guy.” In the year that Noe Flores had known Townley, he had not heard
Townley speak Spanish. Amanda Johnston, Townley's girlfriend, testified that
Townley did not know Spanish.

11

Townley's attorney noted that “there were two people. Not just one. Not just Amanda
Johnston. Noe Flores also testified, who's known Mr. Townley for over a year. Mr.
Townley didn't speak Spanish. Mr. Flores did. So there are actually two people that
established Mr. Townley does not speak Spanish.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

30

Appendix 122

People v. Hernandez, Not Reported in Cal.Rptr. (2013)

12

For example, Townley's attorney asked, “You indicated to Deputy Ramsey when you
were initially talking to him you hadn't seen anything; is that correct? [¶] A. Yes.... [¶]
Q. You hadn't witnessed—the way you used—‘I witnessed nothing’; is that correct? [¶]
A. Yes. [¶] Q. You took the position, I didn't know what happened. [¶] A. Yes.”

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government
Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

31

Appendix 123

